MEMORANDUM FOR M/CFO, Michael


FROM:      A-AIG/A, Paul E.

SUBJECT:   Reports on
           Controls and Compliance for Fiscal Year 1998,
           Audit Report No. 0-000-99-001-F

     Under the Government Management and Reform Act of 1994, the

U.S. Agency for International Development         is required to

prepare consolidated fiscal year end financial statements.  The

financial statements are required to be audited and submitted to

the Office of Management and Budget and the Department of the

Treasury by March 1 following fiscal year end.  The Office of

Inspector General is transmitting its reports on the Agency's

fiscal year 1998 consolidated financial statements, internal

controls and compliance. The Agency's overview, principal

statements and related notes, and supplemental information

required under the Act have been included as Appendix I to our

reports.


     We do not express an opinion on          financial statements

because          financial management systems could not produce

complete, reliable, timely, and consistent financial information.

With respect to          internal controls,         financial

management and performance measurement systems could not generate

the financial information needed to (1) bring about more

effective financial management practices, (2) improve information

quality needed in decision-making, and (3) provide assurances

that        has a low level of risk of fraud, waste, and abuse.

Concerning          compliance, we noted several material

instances of noncompliance with United States government laws and

regulations.


     We received and considered the comments provided to the

draft report by the Chief Financial Officer. This report

contains one recommendation to improve         ability to

implement the requirements of the Chief Financial Officers' Act.

Based on comments to the draft report, we have accepted the

management decision for recommendation implementation.   Please

forward to me all information on your request to the Office of



                          0PCC3              3            NW
                              96fQHWdS�W 53 M7U73 ECoEP
                                2


Management Planning and Innovation for acceptance of the final

management actions related to the recommendations.

     I would like to express my sincere appreciation for the

courtesies extended by your staffs to the auditors over the past

year. The collaborative approach used by our staffs this year,

         with the systems improvements you indicate have been

made, may          successful audit next year. The Office of

Inspector General is looking forward to working with you on the

audit of the Fiscal Year 1999 financial statements.


Attachment:   a/s


Distribution:

Bureau for Legislative and Public Affairs (LPA)
                 1

Bureau for Management
                                           1

Bureau for Policy and Program Coordination
                      1

Bureau for Management, Audit Liaison
                            1

Bureau for Policy and Program Coordination,  Audit Liaison

Office of the General Counsel
                                   1

Office of Management Planning
 Innovation 
                      1

Director, M/FM                                                   3

Director, PPC/CDIE                                               3

Press Relations Division 
                                       1

Development Experience Information Division (PPC/CDIE/DI)
       1

Office of Legal Counsel and Management, IG/LCM
     (1 unbound) 12

Deputy Assistant Inspector General for Audit, DAIG/A             2

Other                  and Field Audit Offices
             1 each

REPORTS ON        FINANCIAL STATEMENTS,
  INTERNAL CONTROLS, AND COMPLIANCE
          FOR FISCAL YEAR 1998


            Report No. 0-000-99-001-F

                 March 1, 1999





                Financial Audit

managers, and other statement users should exercise caution when reading the statements.
They should exercise similar caution when relying on financial and performance information
derived from             systems because the information may not be reliable. Further, because
        managers receive less than reliable financial and performance information, there are
increased risks that program managers and others cannot measure program performance or the
      for programs, resources might not be adequately safeguarded, reliable financial data
might not be reported, and activities might not comply with laws and regulations. We have
provided more information regarding these system deficiencies below. Detailed information
concerning reportable conditions with the financial statements and other issues developed
during this audit can be found in a report’ to         managers on internal controls. The
report details the issues mentioned in this report.


Poorly              Systems Cause Unreliable Information

          core financial system, performance measurement system, managerial cost accounting
system, and budget system have widespread deficiencies. These systems do not meet federal
standards that establish minimum requirements needed to perform effectively. These system
deficiencies required         to process massive data changes outside normal processes and
controls. Further, pervasive computer security deficiencies significantly increase risks that
data and assets might not be protected from theft, misuse, alteration or destruction.
disclosed many of the systems’ deficiencies as material internal control weaknesses in its
fiscal year 1998 report to the President under the Federal Managers’ Financial Integrity Act
(FMFIA).           also properly reported deficiencies in these systems to Office of
Management and Budget and developed a plan to integrate its financial management systems
as required by the Federal Financial Management Improvement Act (FFMIA). (see Pages 7
through 13)

As a result,            systems generate unreliable information and reduce management’s
effectiveness. These systems’ deficiencies have resulted in unreliable or incomplete reports to
external parties, including          Congress, and the public. To illustrate, in October 1998,
         posted unsupported net adjustments of $60 million ($590 million in absolute dollar
value) to its general ledger to avoid submitting materially inconsistent financial information to
OMB and to the U.S. Treasury on                  year end expenditures. Furthermore,
Overview on performance does not accurately report on the results of
                 instead it reports on the overall accomplishments of the host country and entire
donor and recipient community. In addition,               Congressional Presentation, which
justifies its budget request, reported incomplete and inaccurate data on host country and other
donor financial support of            programs and activities. (see Pages 13 through 15)



               Audit Report to                 on           Internal Controls for Fiscal   (Audit
      Number 0-000-99-002-F which is scheduled for release in March 1999).


                                                      ii
                          �u�BrIfi�x prVVho�
H



The Government Management and Reform Act of 1994 requires U.S. Agency for
International Development               prepare consolidated financial statements and have
them audited for inclusion in the government-wide financial statements. This law and
applicable auditing standards require the Office of Inspector General to:

              express an opinion on the financial statements including performance overview
              information,

              report related internal control weaknesses, and

       3)     report noncompliance with applicable laws and regulations.


Auditor’s Opinion on           Fiscal Year 1998 Financial Statements

We could not express an opinion on the consolidated financial statements for the fiscal year
ending September 30, 1998, because our audit scope was impaired. This impairment resulted
from poorly functioning accounting and financial management systems from which
was unable to produce complete, reliable, timely, and consistent financial statements. The
amount of substantive testing that would have been required to express an opinion on the
presentation of           financial statements would have been prohibitive and unattainable by
March 1,             statutory deadline for submitting the audited financial statements to the
Office of Management and Budget (OMB). The deficiencies in                  systems create a
consequential risk that the financial statements, including the performance overview
information, could contain material misstatements. Accordingly, we have not made an
opinion on the fairness of the financial statements. (see Pages 3 and 4)


Report on Internal Control Weaknesses

         poorly functioning accounting and financial management systems prevented
from generating complete, reliable, timely, and consistent financial and performance
information. Because the statements lack such information, policy makers, oversight officials,
Unreliable performance information also affects managers’ ability to compare actual program
results against anticipated results and use such information to make informed decisions,
including budget-allocation decisions. For example, reported performance results are not
attributed to         activities and are not sufficiently supported, objectively verifiable,
accurate, and/or validated. (see Pages 15 through 19)


Organization Deficiencies Need Attention

         executives have committed to correct management deficiencies and have taken steps
to do so. However, fragmented and unclear organizational responsibilities continue to hinder
their efforts to correct the deficiencies. In particular, because        has not delegated to the
Chief Financial Officer (CFO) the responsibility and authority to develop and maintain an
integrated financial management system as required by the CFO Act,               may repeat
costly mistakes by deploying a new system           does not meet federal requirements and does
not operate effectively. (see Pages 19 through 25)


         Computers Are Not Year 2000 Compliant

        is vulnerable to major disruptions to its programs and operations if it does not
adequately complete modifications to its computer systems to allow them to process
information in the year 2000. To the extent that developing countries receiving
assistance encounter disruptions,            program accomplishments could be at risk. As of
the end of fiscal year 1998,         had not fully assessed its systems or systems provided to
host countries.         also lacked detailed schedules and resource estimates and did not
expect to meet the government-wide target dates for implementing compliant systems. In
addition,         has not completed and tested contingency plans to ensure continuity of
service in the event of Year               disruptions. Due to the scope and complexity of the
needed changes and the limited time remaining to correct problems,             faces a high risk
that business operations and programs. will be disrupted at the start of the new millennium.
(see Pages 38 and 39)


Report on Noncompliance with Laws and Regulations

        did not comply with provisions of some applicable laws and regulations effecting the
financial statements. Consequently,         has no assurance that all transactions were

executed in accordance with:


               laws governing the use of budget authority and other laws and regulations that
               could have a direct and material effect on the Principal Statements or Required
               Supplementary Information, and
                any other laws, regulations and government-wide policies identified by OMB in
                Appendix C of its Bulletin 98-08.

We have provided examples of noncompliance with the specific laws and regulations in the
reports attached. (see Pages 27 through 39)


Recommendation No. 1 Because the Chief Financial Officer lacks the authority called
for in the CFO Act, we recommend that the Chief Financial Officer collaborate with the
Assistant Administrator for Management, Chief Information Officer, and Bureau For
Policy and Program Coordination to:

1.1	   Determine the specific responsibility, authority, and resources needed to meet the
       requirements of the Chief Financial Officers Act of 1990, which assigns the Chief
       Financial Officer responsibility to (1) develop and maintain an integrated
       accounting and financial management system that meets federal financial system
       requirements, federal accounting standards, and the U.S. Standard General
       Ledger at the transaction level; (2) approve and manage financial management
       system design and enhancement projects; and (3) develop a financial management
       system that provides for systematic measurement of performance.

1.2	   Request by June 30,        that the Administrator approve specific delegations of
       authority and resources to the Chief Financial Officer. to carry out those Chief
       Financial Officers Act responsibilities identified in Recommendation 1.1 above.

1.3	    Implement policies and procedures to carry out the specific delegations assigned
        by the Administrator in Recommendation 1.2, above.

Detailed information concerning the financial statements and other issues developed during
this audit can be found in a       to         managers.




               Audit Report to        Managers on            Internal Controls for Fiscal Year 1998 (Audit
Report Number 0-000-99-002-F which is scheduled for release in March 1999).


                                                      iv
                                Table of Contents



EXECUTIVE SUMMARY                                                                   i

INTRODUCTION                                                                       1

REPORT ON USAID’S CONSOLIDATED
FINANCIAL STATEMENTS                                                               3

    We Disclaim’ (Are Unable to Express) an Opinion on Whether the Financial
    Statements are Presented Fairly

REPORT ON USAID’S INTERNAL CONTROLS

    Background on Internal Controls

    Scope of Our Consideration of           Internal Controls

    Poorly Function Systems and Other Internal Control Deficiencies
           Reduce Information Reliability                                          7

     Questionable Financial and Performance Information                            12

     Organizational Deficiencies Continue to Hinder Efforts to Implement Systems   19

     Recommendation                                                                25

REPORT ON USAID’S COMPLIANCE                                                       27

     Chief Financial Officers Act of 1990                                          28

     Federal Financial Management Improvement Act of 1996                          28

     Computer Security Act of 1987                                                 34

     Budget and Accounting Procedures Act of 1950                                  35

     Federal Credit Reform Act of 1990                                             35

     Foreign Assistance Act, As Amended in 1968                                    36

     Federal Managers’ Financial Integrity Act of 1982                             36

     Government Performance and Results Act                                        37
                               Table of Contents


                                                          2C53

     Office of Management and Budget Bulletin No. 97-01     38

             Computers Are Not Year �ttt2Compliant          38



r22�uWf$�p

7prfWtpx $�up�.fWr,�Wx (furu$fr.x p,r,�9�u,p
(�yx (fp$r.x ��ryx bVVi                                     I

     x 9rur)�9�u,x $�99�u,p                                 II

�f)x �8r.7r,f�ux �(x 9rur)�9�u,x $�99�u,p                   III

2y�8f�7p.�x fW�u,f(f�Wx 9r,�yfr.x fu,�yur.
$�u,y�.x �r-u�pp�p                                         IV

p,r,7px �(x 7u$�yy�$,�Wx (fuWfu)px ruW
y�$�99�uWr,f�upx (y�9x 2yf�yx r7Wf,p
,or,x r((�$,x ,o�x $7yy�u,x r7Wf,x �sg�$,f8�p               V

.fp,fu)x �(x 2�y(�y9ru$�x 9�rp7y�9�u,Ty�.r,�W
r7Wf,x y�2�y,px ruWx W�$79�u,p                              VI
Background
The United States Agency for International Development                was created in 1961 to
advance the United States’ foreign policy interests by promoting broad-based sustainable
development and providing humanitarian assistance.              has an overseas presence in 60
countries, 42 of which have fully operational and formal             missions. In fiscal year
1998,         had total obligation authority of $6.3 billion, supported by $500 million in
operating

Under the Government Management Reform Act of 1994,                   is required to submit
audited financial statements to the Office of Management and Budget (OMB) and appropriate
Congressional Committees. Pursuant. to this Act,             has prepared the principal
statements: (1) balance sheet, (2) statement of net costs, (3) statement of changes in net.
position, (4) statement of budgetary resources, (5) statement of financing, (6) notes to the
principal statements, and (7) other accompanying information for the fiscal year 1998 (see
Appendix I). Appendix I also includes an overview and supplemental information section,
prepared by           management, which provides details on               goals, objectives and
accomplishments.




Objectives
The Office of Management and Budget’s Bulletin No.          and related guidance establish
the minimum audit requirements for federal financial statements. For fiscal year 1998, this
Bulletin required us to:

               determine whether            principal financial statements present fairly in all
               material respects, in conformity with federal accounting standards, the (1)


               Per   accompanying         Financial Report Overview.”


                                                1

               assets, (2) liabilities and net position: (3) net costs; (4) change in net position;
               (5) budgetary resources; (6) reconciliation of net costs and budgetary
               obligations; and if             (7) custodial activity in accordance with Office of
               Management and Budget Bulletins;

               report on           internal control structure related to these financial
               statements, as well as, to the internal control structure related to the
              ‘performance measures contained in the                 Management Discussions
               and Analysis” section; and
        �      report on           compliance with laws and regulations that could have a
               direct and material effect on the principal statements, and any other applicable
               laws and regulations.

 We were not       to fully implement these objectives because the scope of our work was
 impaired_ Therefore, our report on the financial statements disclaims an opinion on whether
 they are presented fairly. This scope impairment resulted from              poorly functioning
 accounting and financial management systems. This scope impairment prevented us from
 obtaining sufficient evidential matter. This scope impairment also precluded            from

 preparing complete, reliable, timely and consistent financial information.


 The third objective above included’            whether US AID's financial management
systems comply substantially with federal requirements for financial management systems,
 applicable federal accounting standards, and the U.S. Standard General Ledger at the
 transaction level, as required by Section 803(a) of the Federal Financial Management
 Improvement Act (FFMIA) of 1996. The scope of our work included those financial
 management systems that were operational in             during fiscal year 1998. To make this
 determination, we followed the                   guidance for FFMIA issued by the OMB on
  September 9, 1997. We reviewed financial management audit reports issued during fiscal
 year 1993, as well as          documents describing financial management system capabilities
 and deficiencies.

 In accordance with the OMB audit requirements for federal financial statements, this
 combined audit report includes our separate reports on           financial statements, internal
 control structure, and compliance with applicable laws and regulations.
                        REPORT ON USAID’S

                      CONSOLIDATED FINANCIAL

                           STATEMENTS




The Government Management and Reform Act of 1994 requires                   to prepare
consolidated financial statements and have them audited for inclusion in the government-wide
financial statements.         is responsible for the preparation of its statements. This law
and applicable auditing standards require, among other things, the           of Inspector General
to express an opinion on the financial statements including performance overview information.
An auditor can issue a report on the fmancial statements that provides one of three types of
opinions or a conclusion that an opinion cannot be rendered. The three opinions are:

       Unqualified-issued when the auditor believes that the financial statements are
       presented fairly in all material aspects.

       Qualified-issued when the auditor believes that the financial statements are fairly
       presented except for a material departure or exception that is explained in the report.

       Adverse-issued when the financial statements are not fairly presented. This also
       requires that the auditor reveal the reasons for the opinion and the principal effect on
       the financial statements.

Instead of issuing one of the three above opinions, the auditor may choose not to give an
opinion because an audit of sufficient scope could not be conducted due to limitations or
condition of the financial records.

We could not express an opinion on              fmancial statements for the fiscal year ended
September 30, 1998, because our audit scope was impaired. This impairment resulted from
poorly functioning accounting and financial management systems which caused
inability to produce complete, reliable, timely, and consistent financial statements. The
amount of substantive testing that would have been required to express an opinion on the
presentation of the fmancial statements would have been prohibitive and unattainable by the
statutory deadline of March 1, 1999, for submitting the fmancial statements to the          of
Management and Budget. The deficiencies in                accounting and financial management
systems create a consequential risk that the financial statements, including the performance
overview information, could contain material misstatements. Accordingly, we have not made
an opinion on the fairness of the financial statements which were prepared in accordance with
the accounting standards and principles as specified by the       of Management and Budget
in its Bulletin 97-01.

The following Report on Internal Control discusses two significant problems--failure to meet
minimum federal system standards and computer security deficiencies-with
accounting and financial management systems that impaired the scope of our work.




     of Inspector Gener
March 1, 1998
                                �w� ,3�a3
                              Ha,� ah.3 L�a, �.R



We attempted to audit the accompanying financial statements of        as of September 30,
1998. However, our report on these statements disclaims an opinion on whether they are
presented fairly because the scope of our work was impaired.

In planning and performing our work to report on these financial statements, we obtained an
understanding of the internal control structure. In this regard, we:

�
        reviewed the design of relevant policies and procedures!

.       determined whether they have been placed in operation, and

�       assessed control risk.

We gained this understanding of the internal controls to determine our auditing procedures for
reporting on the financial statements, not to express an opinion on the internal control
structure. Accordingly, we do not express an opinion on this structure.

Nevertheless, we noted certain matters involving the internal control structure and its
operation that we consider to be reportable conditions.” This report identifies these conditions
and provides recommendations for correcting them.



Background on Internal Controls
Under the Accounting and Auditing Act of 1950, the Federal Managers’ Financial Integrity
Act (FMFIA) of 1982 and implementing policies established by the OMB,
management is responsible for establishing and maintaining effective systems of internal
control. To fulfill this ‘responsibility, management must make estimates and judgments to



                We noted other matters involving      internal control structure and its operation that we will
report to   management of          in a separate letter.
assess the expected benefits and related costs of internal control policies and procedures. The
General Accounting Office has issued Standards for Internal Controls in the Federal
Government that executive agencies must follow in establishing and maintaining an effective
internal control structure as required by the laws and executive branch policies.

The objectives of an internal control structure, according to the        Bulletin No. 98-08
and        are to provide management with                  but not absolute-assurance with:

       reliability of financial reporting- transactions are properly recorded, processed, and
       summarized to permit the preparation of the Principal Statements in accordance with
       the federal accounting standards, and the safeguarding of assets against loss from
       authorized acquisition, use, or disposition;

       compliance with applicable laws and regulations-transactions are executed in
       accordance with: (a) laws governing the use of budget authority and other laws and
       regulations that could have a direct and material effect on the Principal Statements,
       and (b) any other laws, regulations and government-wide policies identified by OMB
       in Appendix C of Bulletin 98-08; and
�
       reliability of performance reporting- transactions and other data that support reported
       performance measures are properly recorded, processed, and summarized to permit the
       preparation of performance information in accordance with criteria stated by
       management.

Because of inherent limitations in any internal control structure, errors or irregularities may
still occur and not be detected. Also, predicting whether the internal controls will be effective
in the future is risky because changes in conditions may require additional controls or because
the effectiveness of the design and operation of policies and procedures may deteriorate.



Scope of Our Consider&ion of                         Internal Controls
We obtained an understanding of the design of relevant policies and procedures and whether
they had been placed in operation to meet the objectives of an internal control structure noted
above. We also assessed control risk

We do not express an opinion on the internal control structure because the purpose of our
work was to determine our auditing procedures for reporting. on the financial statements, not
to express an opinion on this structure. We assessed control risk and performed limited tests
of the internal control structure. In assessing risks, we considered reports that
management had issued under the FMFIA and our prior and current audit efforts on financial
and internal control matters.
We also do not express an opinion on the performance measures identified in the “Overview
of         section of the accompanying financial statements. The expression of such an
opinion was also not the purpose of our work. Although the OMB requires certain limited
work on this performance information, scope impairments prevented us from determining
whether          staff recorded proper support for the performance measures to account for
and to permit the preparation of reliable and complete reports on program performance.

Even though our work was impaired as discussed above, we noted certain matters involving
the internal control structure and its operation that we consider to be reportable conditions
under standards established by the American Institute of Certified Public Accountants and the
        Bulletin No. 98-08 and 99-08. Reportable conditions involve matters coming to our
attention relating to significant deficiencies in the design or operation of the internal control.
structure that, in our judgment, could adversely affect            management’s ability to have
reasonable assurance that the control objectives noted above are met.

Some of the reportable conditions are also material weaknesses. A material weakness is a
condition in which the design or operation of one or more internal control structure elements
does not reduce to a relatively low level the risk that errors or irregularities in amounts that
would be material to the financial statements may occur and not be detected promptly by
employees in the normal course of performing their duties. Our work would not necessarily
disclose all material weaknesses in the internal control structure.

The following section presents our findings and recommendations for those matters that we
consider to be reportable conditions and material weaknesses.



Poorly Functioning Systems and Other Internal Control Deficiencies
Reduce Information Reliability

          financial management systems, including accounting, performance measurement,
managerial cost accounting. and budget systems, have widespread deficiencies. The most
significant deficiencies are failure to meet minimum         system standards and inadequate
computer security deficiencies. These deficiencies represent a material internal control
weakness because they prevent             from generating complete, reliable, timely, and
consistent financial and performance information. Other previously reported internal control
deficiencies are described in Appendix IV.

        reported most of these material weaknesses in its fiscal year 1997          Report and
has decided to report these material weaknesses in the fiscal year 1998 Accountability Report,
which will be issued on or before April 30, 1999.           also properly reported the systems’
deficiencies to OMB.
Systems Do Not Meet Minimum Standards

          accounting and fmancial’management systems do not meet federal standards that
establish minimum requirements for such systems. In particular, the New Management
System (NMS) and             legacy systems do not comply with federal financial
management systems requirements,             federal accounting standards, and the
requirement that the U.S. Government Standard General Ledger be used at the transaction
level.’

In recent years, the Office of Inspector General (OIG) issued several report? identifying
technical and operational problems that prevented the NMS and legacy financial management
systems from operating effectively. These reports, as well as           own management
assessments, disclosed many financial and management problems caused by ineffective
systems. For example,             reliance on multiple non-integrated systems have created
several barriers to producing auditable annual financial             Because          lacks an
integrated          management system, it:
        �
                manually prepares its financial statements using a labor intensive process;

                manually enters similar data into multiple systems, increasing the risk of errors;

                relies on a general ledger          does not include all financial activity; and

                cannot query all financial statements information at the transaction level.

This situation increases the risk that poor policy decisions will be made, less than reliable
information will be provided to managers and oversight officials, and scarce resources will be
directed at collecting information rather than delivering development assistance services.


                 Because NMS has not operated effectively,           relied on a combination of older legacy
systems, informal records maintained by individual managers or organizational units, and the new system. As a
result, the       financial management system consists of non-compliant legacy systems, informal records, and
the New Management System.

                 Audit of the Worldwide Deployment of the New Management System (Audit Report No.
000-97-004-P, March 31, 1997); Audit of           Efforts to Resolve the Year 2000 Problem (Audit Report No.
                July 11, 1997); Audit of          Compliance with Federal Computer Security Requirements
(Audit Report No.                   September 30.1997); Audit of the Internal Controls for the           New
Manarement Svstem (Audit Report No.                     September             Audit of the Status of
New Management Svstem (Audit Report No.                      September 30, 1997); Audit of the New
Manarement Svstem Status (Audit Report No. A-000-98-004-P, March 31, 1998); Audit of the Extent to Which
  3hHMtU3 Financial Management Svstem Meets Requirements Identified in the Federal Financial Manarement
Improvement Act of 1996 (Audit Report No.                     March 2, 1998); and Audit of the Process
Used to Prepare its Financial Statements From the General         (Audit Report No.
September 25, 1998).


                                                       8

Other deficiencies also limit         management’s ability to obtain reliable information. For
example, during fiscal year 1998,          financial management systems could not:
       �       generate reliable financial reports, including required reports to the U.S.
               Treasury;
       �       reliably balance subsidiary ledgers to the general ledger;

               integrate planning, budgeting, and accounting functions using a consistent
               accounting classification structure;

               match Letter of Credit disbursements with obligating documents; and
       .       provide adequate program performance measurement information.


Computer Security Deficiencies Create Risk Of Data and Asset Loss

Pervasive computer security deficiencies expose             to unacceptable risks that resources
and data will not be adequately protected from loss, theft, alteration, or destruction.
Deficiencies include inadequate general computer security controls over                mainframe
       systems, the NMS, and mission accounting systems. General computer security
controls are a subset of internal controls that include the policies and procedures to ensure
that computer processing facilities are protected from the loss, compromise, theft, or
destruction of data, assets, and computer resources. Current deficiencies include:

                lack of security programs and plans that guide security efforts;

                weak access controls that allow unauthorized users to access and modify
                sensitive information;

                weak         development and -maintenance controls that might not prevent
                implementation of unauthorized programs or modification of existing programs;
           �
                breakdowns in separation of duty requirements that prevent a single individual
                from initiating, authorizing, and completing a single transaction;

                deficient controls over systems software intended to limit access to computer
                programs and files; and
           �
                inadequate plans to ensure continuity of services in the event that disasters or
                other events prevent normal business operations.
We found that NMS access controls were ineffective. The identified weaknesses could allow
unauthorized users to inappropriately access or modify NMS data and software without
detection. These                resulted from failure to implement available operating system
control features and inadequate security practices. We issued a report’ that disclosed that
        had not (1) prohibited the use of shared user identifications, (2) implemented
adequate monitoring capability, and (3) limited the number of users who have unlimited
system access. A more recent report* cited deficiencies in all six general control categories.


        NMS Design Deficiencies Required Massive Data Changes Outside of Controls

Financial events, such as the commitment, obligation, and disbursement of funds, are recorded
in accounting systems as individual transactions. Besides entering transactions to record
financial events, authorized users need the ability to enter-and change- non-value
information, such as completion dates. A well-designed system will allow authorized users
(accountants, contracting officers, and budget analysts) to make necessary entries and ensure
that adequate and effective controls and checks are in place to prevent unauthorized entries.
An important control is a system’s ability to trace all changes to individual users.

Because NMS was prematurely deployed, there have been many problems. These included
many erroneous transactions that were created by system software and needed to be corrected.
          authorized users found that they could not execute the transactions needed to
correct these or other errors or to complete other tasks. For example, accountants found they
could not enter transactions to reverse incorrect entries and reenter the correct entries. When
the system would not perform as desired, users requested data administrators from the Office
of Information Resource Management to develop “back door” processes to enter the
transactions needed to effect the changes. The data administrators had special user privileges
that were not available to most NMS users and allowed them to bypass most controls to
modify data directly. Existing procedures required that authorized users submit their requests
as Data Quality Management Requests                  which were approved by a senior 

manager. Although a certain number of “backdoor” solutions will be required by any

complex accounting system, more than 1,472 
             were submitted to the Office of

 Information Resource Management during fiscal years 1997 and. 1998. We 
              that this

number is unacceptably high and reflects an environment in which emergencies and

 nonstandard procedures are perceived as the norm.





                 Memorandum      on Access Controls over NMS Data and Software   (Memorandum Report
No.                May 18, 1998)

                 Audit of General Controls Over     Client Server Computer Environment (Audit Report
 No. A-000-99-005-P, March 1, 1999)


                                                   10

Two data administrators, who are contractors rather than        employees, had special
access codes that enabled them to make direct changes to systems data, bypassing the
accountability controls embedded in the normal processes. For example, although the system
recorded the names of authorized users who entered new transactions into the accounting
system. data administrators were able to make data changes directly to the general ledger that
could not be traced back to them.

We reviewed 1,410 DQMRs submitted to Office of Information Resource Management during
fiscal years 1997 and         Most of the DQMRs were submitted to initiate changes to non­
financial information. However, 464             were submitted to initiate financial transactions.
The total amount of these transactions was at least $45 billion.” For example, one DQMR
resulted in 25 postings totaling $18 billion to record the commitment and obligation of funds
related to three disbursements totaling $1.2 billion, which could not be handled through
normal NMS procedures at that time. Another DQMR resulted in 1,064 transactions to
reverse and          266 deobligations which system software had caused to be recorded
incorrectly. Some DQMRs resulted in very large transactions to record the impact of
deobligations of prior year funds and increases in no-year appropriation accounts-a type of
adjustment that could not be handled through existing NMS processes.

Although the frequency and materiality of npG�n adjustments caused by design deficiencies
is a cause for serious concern, of even greater concern were the potential risks resulting from
the ability of data administrators to make changes that were not authorized and documented
by DQMRs and for which no audit trails exist. Data administrators had the capability of
both creating new transactions and, more importantly, changing correct values in existing
transactions and summary tables. Although we found no evidence of any such changes, the
fact that such changes could have been made represents a very significant risk area. Because
of this risk, we have no assurance that the general ledger, which was subject to such changes,
properly reflects the financial activities and the status of

           Security Program Needed

        did not implement an adequate system of management controls to support an effective
computer security program.            has not (1) developed an organizational structure that

clearly delegates responsibility and provides appropriate authority, (2) established planning

policies needed to provide a foundation for an effective security program, and (3)

implemented key management processes to ensure that security requirements are met.




                 In total, 1472 DQMRs were made, but 62 were not available for our review.

                 Although this figure appears very high, it should be pointed out that this figure is the sum of
   absolute value of   changes. In other words, negative and positive changes have not been offset against one
another.


                                                       11

A key reason for these general control deficiencies is             lack of an agency-wide
computer security program to ensure that effective controls are established and maintained.
Responding to prior audit recommendations,              reported it’s lack of a security program
as a material weakness in its fiscal year 1997 Federal Managers’ Financial Integrity Act
Report and has decided to report the material weakness in the fiscal year 1998 Accountability
Report, which is scheduled to be issued on or before April 30, 1999.               has also begun
taking steps to correct the deficiencies. Specifically,         hired a security program
manager to develop and implement an action plan and budget to implement an effective
computer security program.            also entered into an agreement with GSA’s Federal
Systems Integration and Management Center to assess the risks associated with system
security and access controls. However, due to funding limitations,              currently estimates
that computer security vulnerabilities will not be fully resolved until the year

Although           has made some progress, we recently issued a            that cited continuing
organizational deficiencies that hindered implementation of an effective computer security
program. In particular,          still has not (1) developed an organizational structure that
clearly delegates responsibility and provides appropriate authority, and (2) implemented key
management processes to ensure that security requirements are met. Resource limitations
appear to constrain development of effective processes. In addition to several
recommendations to correct deficiencies associated with general controls, this report
recommended that responsible US rfWx managers:
       �
               determine the specific assignments of security roles and responsibility needed
               to meet the federdl requirements; and

               complete an analysis to determine whether funding has been properly allocated
               between (1) modernizing financial management systems and (2) correcting
               security deficiencies.



Questionable Financial                 Performance Information
Less than reliable or incomplete financial data is being reported to      managers, as well
as, to external parties, including OMB, Congress, and the public. To illustrate,
submitted financial                to both the OMB and the U.S. Treasury that was
inconsistent with its general ledger. Furthermore,           Overview on performance does


               Audit of General Controls Over           Mainframe         Environment (Audit Report No.
               March 1, 1999)

                This included budgetary infoxmation provided to the Office of Management and Budget and
            balances provided to the U.S. Treasury.


                                                    1        2

 not generally report on          performance, instead it reported on the overall

 accomplishments of the entire donor and recipient community. In addition, 

 Congressional Presentation, which justifies the budget request, reported incomplete and

 inaccurate data on host country and other donor financial support of 
          programs and

 activities. These four weaknesses-questionable financial data to oversight authorities,

 questionable financial data to 
       managers, inability to identify full costs, and inadequate
 performance measurement system -will be explained in detail below.


               Financial Data Submitted to Federal Agencies Having: Oversight Authoritv

Deficiencies in           general ledger system and inadequate internal controls prevented the
 Office of Financial Management from preparing accurate, timely, and reliable budget
 for submission to federal agencies which have oversight responsibility. As a result,
 submitted financial information to the OMB and the U.S. Treasury that was inconsistent with
 the financial information maintained in its general ledger. In addition, the Office of
 Financial Management did not submit the first quarter report on budget execution as required
 by the OMB. Further, these and other quarterly reports submitted were not properly
 supported by           general ledger.         utilized a series of internal reports instead of
 the general ledger-the source that should have been used.              officials indicated that the
 general ledger was not used because of various deficiencies.

 ‘Our review of a sample of the fiscal year 1998 budget reports revealed that L63x unobligated
 balances at the beginning of the fiscal year were not consistent with the general ledger
 balances and year-end cash balances previously reported in fiscal year 1997. This weakness
 was previously reported in last years’ Consolidated Financial Statement audit
         management has not taken corrective actions to ensure that the general ledger
 adequately supports the reported balances.

 Additionally, Office of Financial Management staff did not promptly and adequately reconcile
          fund balances with information from the U.S. Treasury. According to Treasury
 officials, properly reconciling the fund balances with Treasury ‘accounts is a key internal
 control procedure to ensure the accuracy of the receipts and disbursements recorded in the
 agency’s accounting records and reported to the U.S. Treasury’s Financial Management
 Services.          did not properly reconcile their differences with the U.S. Treasury.
 Instead, Office of Financial Management personnel established accounts and posted the
 unreconciled differences into their general ledger.          officials informed us that these


                 The Office of Management and Budget’s Standard Form 133, Report on Budget
                 resources, status of budgetary resources, and relation of obligations to outlays.

                 Report on         Financial Statements,       Controls, and Compliance for Fiscal Years

  1997 and 1996 (Audit Report No. 0-000-98-001-F, March 2, 1998)



                                                       13

 differences were posted into the general ledger because the agency felt that theU.S.
 Treasury’s balances were more reliable. This practice permitted          to force its fund
 balance to match U.S. Treasury’s fund balance at year end. To date,            financial
 management staff have not undertaken efforts to research and resolve differences, as is
 required by the U.S. Treasury            Manual Part 2, Chapter         Section 3915. As a

 result, 
      did not properly report differences to the U.S. Treasury on its “Yearend
 Closing Statement.” Because of this practice, fraudulent transactions may have occurred that
 were not detected by          financial managers and a potential for misstatements in 

 financial statement and the Government-wide consolidated financial statements exists. The

 U.S. Treasury is subsequently reporting this incorrect data to the Congress.

 Based on our review,          had unreconciled differences totaling over $353
 between its general ledger and financial information obtained from the U.S. Treasury. In
 addition,         had $237.5            in unreconciled differences between the overseas
missions’ general ledger and Treasury’s information. Office of Financial Management posted
 these unreconciled differences into the general ledger to reflect the balances obtained from the
      Treasury.


 Questionable Financial Data To                    Managers

         does not properly identify, record, and report advances processed through the Letter
 of Credit system. Approximately $1.7 billion are annually advanced to grantees through the
 system. Because of Office of Financial Management’s policy, these advances are not
 recorded against the obligation document at the time of the disbursement. Instead, the
 advances are recorded at the grantee level, without regard to the corresponding grant
 obligation. As a result, program managers cannot determine fund availability for their
 projects or identify       that could be put to better use. To compensate for this deficiency,
 managers often contact the recipients to obtain the information needed.


  Inadequate Performance Measurement Systems

          did not have performance measurement systems that allowed it to report accurately or
  promptly the results of its activities. Specifically,         was unable to isolate or attribute
  the results of its activities from the results of countrywide programs funded by multiple


                   This represents the absolute value of. the differences between                    and U.S.

  Treasury’s records. The 
    net differences which           reported in the notes to the financial statements was
  $60 million.

                   This represents the absolute value of the differences between the overseas   missions’ general
  ledgers, the      report and the information received from the U.S. Treasury.


                                                           14

parties, including the host country or other donors. Some of               difficulty in
distinguishing the results of its own activities was caused by its choice of performance
indicators, particularly the           used to prepare external performance results reports.
The Overview on performance section, which accompanied                   fiscal year 1998 financial
statements, is one such external report. Another report is             Congressional Presentation.
Besides choosing indicators that precluded it from reporting accurate performance data in
external reports,          reported results data for internal reports that were not objectively
verifiable, supported, accurate, complete and/or validated. These issues have been addressed
in previous OIG and General Accounting              reports, as well as through Congressional
inquires.”


       Results Reported in     Overview on Performance Cannot Be Attributed to
       USAID-Funded Activities

The Overview on performance, which accompanies                   fiscal year 1998 financial
statements did not meet the requirements of OMB Bulletin 97-01, Form and Content of
        Financial. Statements, that an agency’s results should be expressed           terms of
objective, relevant measures that disclose the extent to which its programs are achieving their
intended objectives.” Specifically, the Overview on performance credited                with results
that more properly and correctly should have been attributed to the efforts of multiple parties
working to achieve common goals. As a result, readers of the Overview (and other external
reports that use the same results data) had little basis for assessing the results of
programs or making the cost-benefit analyses needed for budget allocation decisions.

We could not comprehensively review the fiscal year 1998 Overview on performance because
        management did not give us a copy of its final version until February 2,
Nonetheless, our review of the Overview showed that the same problems we reported last
year persist. These included the choice of high-level objectives and indicators that, in turn,
led to the reporting of high-level (country-level) results. Such results are difficult, if not
             to attribute to       activities.

The Overview typically reported trends showing how well regions were performing in various
sectors and noted that these results were achieved through the collaborative efforts of
host country partners, non-governmental organizations, international financial institutions, and
other donors. In only a few instances did the Overview cite specific countries and in even
fewer instances did it describe specific programs. The Overview stated that further details on
performance results would be included in             fiscal year 1998 Accountability Report to


                See Appendix VI to this Report.

                This was            later than December 9, 1998, the date stipulated   in the audit “engagement
            to by the        Chief Financial Officer and our office.


                                                      15

be issued on or before April 30, 1999. However, it is unlikely that this report will be able to

link goals, programs, and results or report more up-to-date results data because, as the

Overview stated, 
          performance reporting system “does not adequately link 

performance goals with its programs nor does it ensure current data results.” To correct this

deficiency, 
         reported that it would assess and revise its Strategic Plan, make changes

to its Annual Performance Plan and Report, and develop and implement a managerial cost

accounting program to attribute costs across various activities and programs.” 

predicted that it would complete these actions by fiscal year 2000. Also, 
           has decided

to report this material internal control weakness in its fiscal year 1998 Accountability Report

that its performance reporting systems do not yet adequately link performance goals with

agency programs, collect timely results data, or require appropriate indicators. In this regard,

the Bureau for Policy and Program Coordination noted that these weaknesses impaired

         ability to obtain, maintain, report, and use reliable and timely performance

information for decision making.



               Congressional Presentation Also Contains Incomplete and Inaccurate Data

As discussed above, country-level results are frequently the result of activities funded by
multiple parties, including           When          reports such high-level results as evidence
of the success of its activities, a comparison of         contributions to those of other donors
is relevant and useful to external and internal evaluators.

         fiscal year 1999 Congressional Presentation was both inaccurate and incomplete as it
pertained to funding provided by host country entities and other donors in support of
level objectives and reported results. We reviewed 356 Activity Data Sheets included in
         fiscal year 1999 Congressional Presentation and found that data related to funding
provided by other donors and host country entities may have been complete for only 6
activities (2 percent). Data related to at least 350 activities-98 percent-was inaccurate or
incomplete. Specifically,

               information on funding provided by other donors and recipients was not
               reported for 260 activities (73 percent), though the Presentation said that other
               donors or the host country had participated in the activity, and

               incomplete funding data was reported for 90 activities (25 percent).

Additional problems included the following:

                    Presentation noted that one activity was designed to          xfFGOn-xG4
                  xmGG,�x and reported that considerable resources were being provided by the
                European Union, Japan, Germany, Canada, the Swiss and the Dutch. The
                Presentation did not describe these activities, their cost, or their relationship to


                                                  0I
               the desired change in income. However, documents provided by mission
               officials showed that these entities provided, or would provide, $1.3 billion in
               support of this activity.

       �       The Presentation reported that one activity was designed to ‘Reduce fF4tF
               VG,tDreIx from 57 per 1,000 births in 199 1 to 39 per 1,000 births in 2001. It
               noted that by 2001,         would have contributed $20.8 million and other
               partners-the host country and other donors-would have contributed over
               $100 million. In contrast, documents provided by mission officials showed that
               the other partners spent about $1.7 billion in support of the objective in just
               three years, 1995 through 1997.

The lack of reasonably accurate and complete data as to funding provided by others in
support of shared country-level objectives (and related country-level indicators) impairs the
ability of Congressional and OMB analysts to objectively assess the cost effectiveness of
         programs and the need for additional funding to accomplish anticipated results.


       Internal Performance Reports Also Have Serious Problems

During the past year, we conducted two separate reviews of an internal report prepared
annually by each of            operating units to report its performance results-the Results
Review and Resource Request report (hereafter referred to as            Our first effort was a
worldwide audit of        conducted at 18 randomly selected Washington operating units or
overseas missions.” The second was a more limited review conducted at five missions. The
first was designed to determine if the results data reported in the R4 was objectively
verifiable, supported, accurate, complete and/or validated. The, second was designed to
determine if the results of          activities had a clear and measurable impact on
level results reported in the R4.

Based on our worldwide audit, we found problems with 252 of the 302 results reviewed-or
83 percent. Therefore, we are’94 percent confident that, out of a universe of 1,940 results
included in the 18      prepared in 1997, the number of results which were not sufficiently
supported, objectively verifiable, accurate, complete, and/or validated ranged from 1,580 to
1,658. Examples of these problems included:

                Ninety indicators and reported results were not objectively verifiable. For
                example, one mission’s R4 included the indicator and related unit of measure,
                             xG4xMnnDGHOnFxtFwxfOHDnOnFtrGFx G4xtxsGF5Tn,Ox


                Audit on the Quality of Results Reported in       Operating Units’ Results Review and

Resource Request 
   Reports Prepared in 1997 (Audit Report No. 9-000-99-006-P scheduled to be issued in

March 1999).



                                                     17

              crFtFrtDx p,tn5eAx      Sgnxy x reported that the actual result for 1996 was 20
              percent. However, this result was not objectively verifiable because the
              mission had not established a methodology for measuring percentage of
              implementation.
       �      Seventy-seven reported results were not sufficiently supported. For example,
              one mission’s R4 included the indicator, isnF5gxG4xSrOnx     x�HnFrF5xG4xt
              m,nDrOrFt,ex rFn-r5trGFx Gx hgrnrF5x tFx fFn-r5trnx yn-CDA�x Sgnx y
              reported that the time between these two events was 60 days. However,
              Mission officials did not     supporting documentation for this data.
       �      Seventy reported results were not sufficiently accurate or complete. For
              example, one Washington operating unit’s R4 included the indicator,
              pgGGDx hgrnnOnFIx and the unit of measure, aRgx d,twnx LGOHDnrGFx ytnAx
             ‘The R4 reported that the completion rate for 1996 was 64.2 percent. However,
              documentation provided by           officials showed that this was actually the
              completion rate for 1991. Further, this was the completion rate for children
              reaching grade five, not completing grade five.

Our second review of        was designed to supplement our review of the accuracy of
attributed results in        fiscal year 1998 Overview on performance. We selected and
reviewed performance results information in the R4 reports prepared by five overseas
missions.*’ Because we were specifically interested in whether claimed results were correctly
attributable to        activities, we selected 39 indicators which appeared to measure
country-level changes.

Our review showed that these five missions could not demonstrate that          programs had
clearly and measurdbly contributed toward reported changes in 37 of the 39 indicators.
Examples included the following:

              One indicator,        xG4x�PHnFwrC,n-xHn,x        xG4xgnxmGG,Ix xEt-x selected to
              measure results ‘of the          objective, afF,nt-nwx fFGOn-x G4x gnx mGG,A�
              The reported result for 1994, the baseline year, was $447 and for 1997 was
              $507. However, Mission officials could not document the causal relationship
              between          activities and the 1997 results.

              It also appeared that        played a relatively minor role in affecting this
              change. According to Mission officials, during 1996 and 1997,             spent
              about $130 million in support of the strategic objective, but the host
              government had provided $6.9 billion. Other donors had also played a large
              role, contributing about $2.9 billion over a undetermined period.

               We reviewed the        for the following countries: Ghana, India, Jordan, Ukraine, and Peru.


                                                      18

              Another indicator,           x rFx .tDCnx G4x oG,rCDC,tDx �PHG,-Ix supported a
              special strategic objective, afF,nt-nwxfFn-OnFxrFxh5,ruC-rFn--xuexm,rtn
              cr,O-Ax xSgnxreported 1997 result was $615 million for the indicator which
              represents national horticultural exports from April 1, 1996 to March 31,
                       exports that included fresh/processed fruits and vegetables, spices, and
              floriculture products. However, Mission officials could not provide any
              documents supporting the extent to which                activities had a clear and
              measurable impact on achieving this result. Furthermore,                 obligations
              and expenditures in support of this strategic objective from fiscal years 1995
              1997           $4.5 million and $6.4 million, respectively. This pales in
              comparison to more than $2 billion reportedly provided by private investments
              and other donors since 1992 in support of this strategic objective.

We                share of total funding is only one element in the process of crediting
results. However, we believe that it is difficult, if not impossible, to make a convincing
argument that          activities had a major role in achieving results reported for
level indicators when its funding constituted only a small share of the total spent by all
donors, the host country, and private investors.


Organizational Deficiencies Continue to Hinder
Efforts to Implement Systems
         executives have committed to correct management deficiencies that have, in the past,
prevented successful modernization of             financial management system. Although
         has taken positive steps to correct these systems’ deficiencies, significant
improvements are not achievable until existing systems are replaced or modernized, an effort
that is not scheduled to be completed until 2001. In addition, fragmented and unclear
organizational responsibilities continue to hinder           efforts to correct the deficiencies. In
particular, because          executives have not delegated to the CFO the responsibility and
authority to develop and maintain an integrated financial management system as required by
the CFO Act,           may repeat costly mistakes by deploying a new system that does not
meet federal requirements and does not operate effectively. We also identified other planning
and program management deficiencies in a companion report describing                  progress
 implementing a financial management system that meets Federal Financial Management
 Improvement Act




                Audit of              Implementing a Financial Management System   That Meets Federal
Financial            Improvement Act Requirements (Audit Report No.                  March 1, 1999).


                                                  19

        Managers Need to Strengthen Information Resources Management Practices

OIG audits and           management reviews have cited ineffective processes for managing
information resources as the primary cause of            difficulty in deploying effective
systems: Although            has made several attempts to correct these management
deficiencies, it has not yet succeeded. The deployment of NMS in October 1996 was the
latest attempt to implement an effective system. Although NMS was designed                federal
accounting and system requirements, it did not do so.

We first reported serious deficiencies in the processes for managing information resources in
September 1996, when we reported              plans to deploy NMS worldwide involved
significant risks because it had not been adequately tested. In March 1997, we reported
        had adopted a high-risk approach, did not follow accepted system development
practices, and deployed NMS worldwide despite severe problems we had previously reported.

         now recognizes that effective information resource management processes are
essential to implementing systems that meet federal requirements and has begun taking steps
to strengthen its processes and organizational control over information technology
investments. These steps include appointing a Chief Information Officer (CIO) and
establishing an investment review board. Further, in May 1998,            hired a systems
integration contractor to assist with information technology planning, technical direction,
oversight, policy formulation, system acquisition, and management practices. The contractor
is expected to help         improve its application of disciplined processes as it moves to
modernize its financial management systems. In addition, the Office of Financial
Management has taken steps towards implementing disciplined practices to modernize the
core accounting functions. These include hiring a contractor to assist in its efforts to
streamline accounting business processes and implement an effective core financial system.
         reported the material weakness in its fiscal year 1997         Report and has decided
to report the material weakness in the fiscal year 1998 Accountability Report, which will be
issued on or before April 30, 1999.


Fragmented CFO Responsibilities

Because           continues to maintain a fragmented organizational structure and has not
assigned its CFO responsibility and authority to manage all financial management systems,
current efforts to acquire a single integrated financial management system may be at risk.
Reporting to the Administrator, the CFO and the CIO share primary responsibility to
implement and maintain a financial management system that meets federal requirements.
These officials are responsible for ensuring that (1) agency information systems provide
financial and program performance data for agency financial statements; (2) financial and
performance data are provided to the financial management system in a reliable, consistent,
and timely manner; (3) financial statements support assessments and revisions of mission and
administrative processes; and (4) financial statements support measurements of the
performance of information technology investments.

The CFO Act of 1990 (Public Law               created the CFO position and called for        to
report directly to the head of the agency and to be responsible for, among other things;
       �      overseeing all financial management activities relating to the programs and
              operations of the agency;
       �       developing and maintaining an integrated agency accounting and financial
               management system that complies with all federal requirements for financial
               management systems; and

              directing, managing, and providing policy guidance and oversight of agency
              financial management personnel, activities, and operations, including the
              approval and management of design and enhancement projects for an agency’s
              financial management system.

Although the CFO Act assigned CFO the responsibility for ensuring that financial
management systems meet federal requirements and made the             responsible for a broad
range of financial management activities,           CFO is only in charge of financial
operations and analysis. As            in the organization chart below, the CFO is not
responsible for the information systems that support the performance measurement, budget,
human resource, or procurement functions. Instead, financial management requirements
related to these functions have been dispersed to managers of function-specific offices. That
is,          CFO does not have responsibility for the financial portion of systems located
the Office of Procurement, the Office of Budget, the Office of Human Resources or in the
Bureau for Policy and Program Coordination. Instead, the directors of these offices are
responsible for their own information systems. As such, the CFO lacks the authority to
implement an integrated financial management system that meets federal accounting and
system requirements and incorporates core financial management, performance measurements,
cost accounting, and budget capabilities.




                                               E0
                                                                        �cd




                                                     hM9HaHR, h,�             3    3   3   3   3       3   3   3   3

                                                           H

                                                       3 hM9HaHR, h,�


         A
         T                                                                                                             T


                    sr �hr3    3                                                                                       H
                      haM3 w �d h9                     sr �hr3 c�                           L�a, h.3 haM
                      L�� MHah,H�a                     9hahd�9�a,                          �dH�ah.3 sr �hrR3

                                                                                                   H

                                                           B f�c
                                                        Hac� 9h,H�a3              3 3 3 3 3 3 3 3 3 3 3 773
                                                          �ccHL�



                H




                3sJnCU3CF23�ooA�nU3CJn3FG83U6GEF




In contrast to the CFO responsibilities at                 at other U.S. Government agencies
have much more responsibility. Per            1998 Federal Financial Management Status
Report and Five-Year Plan dated June 1998,               CFO is in charge of the least amount
of functions of any U.S. Government Agency CFO. As illustrated in the chart below,
          CFO is only in charge of financial operations and analysis whereas           of other
agencies are. in addition to financial operations and analysis, responsible for some or all of
the following functions: budget formulation and execution, grants management, Government
Performance and Results Act, information resources management, personnel, and
procurement.
                  CHIEF FINANCIAL OFFICER RESPONSIBILITIES




 6d�WU�




 NRC




  HHS

  Commerce

                      I

Shaded areas indicate the
As mentioned earlier, the CFO and the CIO share primary responsibility to implement and
maintain a fmancial management system that meets federal requirements. The CIO also
shares responsibility for ensuring that disciplined processes are followed but has not carried
out those responsibilities. The Clinger-Cohen Act of 1996 mandates that Executive agencies
implement a process to maximize the value of, assess, and manage risks of information
technology investments. The Act establishes the position of Chief Information Officer and,
among other things, assigns this officer responsibility to ensure that information technology
investments, including fmancial management systems, are managed effectively. The Chief
Information Officer is specifically responsible for:

                providing advice and assistance to the agency head and senior managers to
                ensure ‘that information technology is acquired and information resources are
                managed effectively;

                developing, maintaining, and facilitating implementation of an integrated
                agency-wide information technology architecture; and

                promoting the effective and efficient design and operation of all major
                processes of the agency for managing information resources.

A key CIO function is to facilitate implementation of the                This requires the
CIO to review planned acquisitions to ensure that they are consistent with the architecture.
As pointed out in our report? on           progress implementing the requirements of the
Federal Financial Management Improvement Act, the CIO has not met these legislated
responsibilities because        is proceeding to replace its accounting system before
completing an enterprise information technology architecture, preparing a comprehensive
acquisition strategy, and developing supporting plans. That report recommended that the CIO
complete an information technology architecture and, before approving proposals to acquire
any system component, ensure that investments are

           consistent with the architecture,

           cost effective,

           based on a modular acquisition strategy, and


                   architecture is a blueprint or high level description of how the systems will interact to
accomplish agency mission requirements in a cost effective manner. It focuses on describing the relationships
among business functions, work processes, information flows, and technology. It also describes standards to be
followed to      that systems will interoperate, provide security, and be implemented in a disciplined manner.

                Audit of       Progress Implementing; a Financial Management System That Meets Federal
Financial Management Improvement Act Requirements (Audit Report No.                March 1, 1999).


                                                      24

       4) supported by sufficiently detailed plans.

That report also pointed out that      does not use a program management approach to
manage its financial management systems’ modernization efforts and recommended that the
CIO work with the CFO and the Assistant Administrator for Management to establish a strong
program management office.


Recommendation
Recommendation No. 1 Because the Chief Financial Officer lacks the authority called
for in the CFO Act, we recommend that the Chief Financial         collaborate with the
Assistant Administrator for Management, Chief Information Officer, and Bureau For
Policy and Program Coordination to:

1.1	   Determine the specific responsibility, authority, and resources needed to meet the
       requirements of            Financial Offkers Act of 1990, which assigns the Chief
       Financial Officer responsibility to (1) develop and maintain an integrated
       accounting and financial management system that meets federal financial system
       requirements, federal accounting standards, and the U.S. Standard General
       Ledger at the transaction level; (2) approve and manage financial management
       system design and enhancement projects; and (3) develop a financial management
       system that provides for systematic measurement of performance.

1.2	   Request by June 30, 1999, that the Administrator approve specific delegations of
       authority and resources to the Chief Financial Officer to carry out those Chief
       Financial Offkers Act responsibilities identified in Recommendation 1.1 above.

1.3	   Implement policies and procedures to carry out the specific delegations assigned

       by the Administrator in Recommendation 1.2, above.



Detailed information concerning the financial statements and other issues developed during
this audit can be found in a separate Audit         to         managers.




Office of Inspector General
March 1, 1998


               Audit Report to        Managers on           Internal Controls for Fiscal Year 1998 (Audit
Report Number 0-000-99-002-F which is scheduled for release in March 1999).


                                                     2.5

This page left intentionally blank.
                REPORT ON                             COMPLIANCE




We attempted to audit          principal financial statements for the year ended September 30,
1998, but our report on these statements (including the information in the overview section on
program performance) disclaims an opinion on whether they are presented fairly because the
scope of our work was impaired.             management is responsible for compliance with
applicable laws and regulations related to these financial statements.

Although we are unable to fully report on           compliance with laws and regulations
because of scope limitations, instances of potential material noncompliance came to our
attention with regards to the requirements of the following:


       .      Chief Financial Officers Act of 1990,
       �      Federal Financial Management Improvement Act of 1996,
       .      Computer Security Act of 1987,
       �       Budget and Accounting Procedures Act of 1950,
       �
              Federal Credit Reform Act of 1990,


               Foreign Assistance Act of 1968, and
       �
               Federal Managers’ Financial Integrity Act of 1982,

               Government Performance and Results Act, and
       �
               Office of Management and Budget Bulletin 97-01.

The following sections discuss instances of potential noncompliance with the above laws and
related regulations.
Chief Financial Officers Act of 1990
As indicated in the Report on Internal Controls,           has not delegated sufficient
responsibilities and authority to the Chief Financial Officer (CFO) to successfully implement
an integrated financial management systems required by the Chief Financial Officers Act of
1990 and executive branch policy.

The Chief Financial Officers Act of 1990 (Public Law No. 101-576) requires each federal
agency’s CFO to, among other things, develop and maintain integrated financial management
systems, including financial reporting and internal controls which:

                 comply with applicable accounting principles, standards, and requirements, and
                  internal control standards;

        .        comply with such policies and requirements as may be prescribed by the
                 Director of the Office of Management and Budget (OMB);

                 comply with any other requirements applicable to such systems; and

                 provide for (1) complete, reliable, consistent, and timely information which is
                 prepared on a uniform basis and which is responsive to the financial
                 information needs of agency management; (2) the development and reporting of
                 cost information: (3) the integration of accounting and budgeting information;
                 and (4) the systemic measurement of performance.

Federal Financial Management Improvement Act of 1996
The Federal Financial Management Improvement Act (FFMIA) requires                  to implement
and maintain a financial management system that complies substantially with (1) federal
requirements for an                      management system, (2) applicable federal accounting
standards and (3) requirements to post transactions to the U.S. Standard General Ledger at the
transaction          These requirements are detailed in the Office of Management and
Budget’s Circular No. A-127, Financial Management Systems. Section 7 of this Circular
identifies the requirements or characteristics that federal financial management systems should
possess. Other policy documents further detail these requirements?


                In this section, we report on           compliance     federal            for financial
management systems          than its compliance with the Act itself.

                        of Management and Budget’s Circulars No. A-130,               of Federal Information
Resources, No. A-134, Financial Accounting Principles and Standards, No. A-11, Preparation and Submission of
Budget Estimates, and No. A-34, Instructions on Budget Execution; U.S. Treasury’s Treasurv Financial Manual.


                                                       28

The Act also requires that our audit of        financial statements report whether the
financial management system complies with those requirements. The following information is
summarized from our recent report describing           progress meeting FFMIA
requirements (FFMIA progress report).*’ Additional details are contained in that report and
on pages 19 through 25 of the preceding Report on Internal Controls.

During fiscal year 1998,           financial management systems did not substantially comply
with the           accounting and system requirements. Although               developed a plan
to correct these system deficiencies, the plan is not adequate because it is not based on a full
information system architecture, an integrated system acquisition strategy, or a detailed listing
of planned actions to bring about an agency-wide integrated financial management system.
These planning deficiencies occurred because             executives have not implemented
organizational changes that are needed to successfully acquire complex systems.

        Nature’ and Extent of Noncompliance

        managers have committed to follow disciplined practices to modernize
systems and have taken several steps to do so. However, because significant improvements
are not achievable until existing systems are replaced or modernized-an effort that is not
scheduled to be completed until                 has made only limited improvements to its
systems during the past year. As a result, during fiscal year 1998,          financial
management systems did not yet comply substantially with (1) federal financial management
system requirements, (2) applicable federal accounting standards, and (3) requirements that
transactions be posted to the U.S. Standard General Ledger at the transaction level as required
by FFMIA.

As a result, financial management systems’ deficiencies that we first reported during fiscal
year 1997 continue to exist? In large part because NMS has not operdted effectively,
        has had to rely on a combination of outmoded legacy systems, informal and unofficial
records maintained by individual managers or organizational units, and NMS--which suffers
from technical and operational. problems.

         (1) Federal Financial Management System Requirements



In           the Joint Financial Management Improvement Program has published several documents describing
detailed functional requirements that systems should possess to perform effectively.

                 Audit of       Progress Implementing a Financial Management Svstem That Meets Federal
Financial             Improvement Act Requirements (Audit Report No.               March 1, 1999).

                    Audit of the Extent to Which        Financial Management System Meets Requirements
 Identified in the Federal Financial             Improvement Act of 1996 (Audit Report No. A-000-98-003-P,
 March 2, 1998).
        did not substantially comply with federal financial management system requirements.
These requirements are designed to enable agencies to provide complete, reliable, timely, and
consistent information to decision makers and the public. Agencies, including Treasury and
OMB, need this information to (1) carry out their fiduciary responsibilities; (2) deter fraud,
waste, and abuse; (3) facilitate efficient and effective delivery of programs; and (4) hold
agency managers accountable for the way government programs are managed. The Congress
needs this information to oversee government operations, and the public, to exercise their
citizenship responsibilities. Thus, a key objective of financial management systems is to
ensure that reliable financial and program performance data are obtained, maintained, and
reported.

During fiscal year 1998, our audits as well as         management assessments confirmed the
continuing existence of                        system deficiencies that we reported during
fiscal year         As a result, during fiscal year 1998,          financial management
systems did not substantially comply with federal financial management system requirements.
For example,

        ��   lacked an agency-wide classification         which standardizes data definitions
             and formats for financial management systems;

        ��   relied on multiple incompatible systems that cannot exchange data and thus, did not
             have an integrated financial management system;

        ��   had not implemented an effective computer security program; and

        ��   did not have a financial system that met Joint Financial Management Improvement
             Program requirements to (a) support the Prompt Payment Act, (b) support external
             reporting needs, and (c) ensure that costs are accumulated and reported with proper
             matching of periods, segments, and outputs.

        (2) Federal Accounting Standards

Contrary to the FFMIA,            financial management systems did not comply with
applicable federal accounting standards. Specifically,       financial management systems
did not comply with the (a) Statements of Federal Financial Accounting Standards No. 1,


                  Audit of the Worldwide                of the New                             (Audit Report
No.                  March 31, 1997); Audit of             Efforts to Resolve the Year 2000 Problem (Audit
y3HGJLx uGUx A-000-97-005-P, July 11, 1997); Audit of           Compliance with Federal Computer Security
Requirements (Audit Report No.                     September 30, 1997); Audit of the Internal Controls for the
             New Management Svstem (Audit Report No. A-000-97-009-P, September 30, 1997); and Audit of
the Status of          New Management System               (Audit Report No.                  September 30,
1997).


                                                       30

Accounting For Selected Assets and Liabilities and (b) Statements of Federal Financial
Accounting Standards No. 4, Managerial Cost Accounting Concepts and Standards for the
Federal Government.

       a. Accounting For Selected Assets and Liabilities

Contrary to Statement of Federal Financial Accounting Standard No. 1,             has not
implemented an effective accrual methodology to recognize its current liabilities and establish
accounts payable for unpaid goods and services. The methodology utilized for estimating the
amounts owed was inadequate. Further,          did not have a methodology for reducing its
advances and recognizing its expenses when goods or services were received, contract terms
were met, progress was made under contract or prepaid expenses expired.

        established estimates for Accounts Payable and related expenses based solely on
unliquidated obligation balances. No additional information was requested or obtained to
determine whether the goods or services were actually received. Further,          improperly
reported both liabilities and assets (Accounts Payable and Advances) against the same
unliquidated obligations. As a result,         financial statements may not provide
management with complete, reliable and consistent information for making well-informed
business decisions.

       b. Managerial Cost Accounting: Concepts and Standards for the Federal Government

        has not implemented Statement of Federal Financial Accounting Standards No. 4.
Also,         did not comply with the following five fundamental elements of managerial
cost accounting:

         Requirement for cost accounting Each reporting entity should accumulate and
         report the costs of its activities on a regular basis for management information
         purposes;

         Responsibility segments Management of each reporting entity should define and
         establish responsibility segments;

         Full cost Reporting entities should report the full costs of outputs in general
         purpose financial reports;

         Inter-entity costs Each entity’s full cost should incorporate the full cost of goods
         and services that it receives from other entities; and

         Costing              Cost of resources consumed by responsibility segments
         should be accumulated by type of resource.
This standard requires federal agencies to be able to provide reliable and timely information
on the full cost of their programs, activities, and outputs (by responsible segments). The cost
assignments should be performed using one of the following methods listed in order of
preference: (a) directly tracing costs wherever feasible and economically practicable, (b)
assigning costs on a cause-and-effect basis, or (c) allocating costs on a reasonable and
consistent basis. Cost information developed for different purposes should be drawn from a
common data source, and output reports should be reconcilable to each other. Currently,
        is not able to segregate its costs.

       (3) Use of U.S. Standard General                      at the             Level

       did not record Accounts Receivables in accordance with the U.S. Standard General
Ledger at the transaction level.      did not have an integrated accounting and financial
management system which included Accounts Receivable.

        relied on data        to obtain the total amount of outstanding Accounts Receivable
because it did not have integrated financial management systems. These data calls provided
summary information which was posted to the general ledger at the summary level and was
not directly traceable to the transaction level as required. By using data calls to determine
outstanding Accounts Receivable,             was at risk that the information obtained was not
accurate or complete. For instance,             summary of the data calls improperly omitted
the Office of Procurement’s outstanding Accounts Receivables.

        Cause of Noncompliance

Ineffective processes for managing information resources continue to be the primary cause of
          difficulties deploying effective information systems,         reported deficiencies
in its processes for managing information resources as a material weakness in its fiscal year
 1997 and planned 1998 reports under the Federal Managers’ Financial Integrity Act (FMFIA).
Although           has taken steps to implement disciplined processes, planning deficiencies
continue to threaten                   to successfully implement an effective financial
management system. These deficiencies are further described in our FFMIA progress report.

        Organization Responsible for Noncompliance

The Clinger-Cohen Act makes the head of each agency, in consultation          the CFO and
Chief Information Officer (CIO), accountable for establishing policies and procedures to
ensure that (1) agency information systems provide financial and program performance data
for agency financial statements; (2) financial and performance data are provided to financial

        Et
                 “Data calls” is a    used to describe the process of requesting various offices to provide

outstanding balances as of year end. The resulting reports are prepared from data contained outside the formal

accounting system.



                                                       32

 management systems in a reliable, consistent, and timely manner; and (3) financial statements
         assessments and revisions of mission and administrative processes, as well as,
 measurements of the performance of information technology investments. Thus, the CFO and
 the CIO, reporting to the Administrator, share responsibility for implementing and maintaining
 effective and efficient financial management systems that meet federal requirements for
 financial management systems. At            both the CFO and CIO positions are located

 within the Bureau for Management.


         executives have not implemented organizational changes that are needed to

 successfully acquire complex systems. Organizational deficiencies include the fact that

         executives have not (1) delegated to the CFO the responsibility and authority to
 develop and maintain all financial management systems as required by the CFO Act, or (2)
 established a project management office with sufficient staff, expertise, and           to
 ensure that modernization efforts are implemented successfully. Further,           has not
 implemented disciplined processes to acquire systems. Although             had not developed
 an information technology architecture, a modular acquisition strategy, or sufficiently detailed
 supporting plans; it planned to proceed with the acquisition of a replacement core financial
 system. These deficiencies are further described in the accompanying report on internal
 controls and in our FFMIA progress report.

         Recommendations

In order to address           organizational and planning deficiencies (and as discussed on
  page 25 of this report), we recommended that the Chief Financial Officer collaborate with the
  Assistant Administrator for Management, Chief Information Officer, and the Bureau for
  Policy and Program Coordination to determine the specific responsibility, authority, and
  resources needed to meet the requirements of the Chief Financial Officers Act of 1990, which
  assigns the Chief Financial Officer responsibility to (1) develop and maintain an integrated
  accounting and financial management system, and (2) approve and manage financial
  management system design and enhancement projects. In addition, we recommended that the
  Administrator specifically delegate adequate responsibility, authority, and resources to the
  Chief Financial Officer to carry out the responsibilities of the Chief Financial Officers Act.

  Additional recommendations, which address weaknesses in                  remediation plans, were
  included in our FFMIA status report. That report recommended that before acquiring any
  financial management system components,               should (1) complete an agency-wide
  information technology target architecture, (2) use the target architecture to define
  financial management system portfolio, (3) complete a modular acquisition strategy, and (4)
  revise its remediation plan and develop sufficiently detailed supporting plans. The report also
  recommends that             establish a strong program management office with the
  responsibility, authority, and resources to apply disciplined practices to implement financial
  management system improvements.
Computer Security Act of 1987
        has not implemented an effective computer security program as required by the
Computer Security Act of 1987 (Public Law No. 100-235). This law requires federal
agencies to protect information by (1) identifying sensitive systems, (2) developing and
implementing security plans for sensitive systems, and (3) establishing a training program to
increase security awareness and knowledge of accepted security practices. The OMB Circular
No. A-130 contains executive branch policy implementing this law.

In September 1997, we              that management deficiencies had prevented             from
implementing an effective computer security program as required by the Computer Security
Act. These deficiencies exposed            to high risks that resources would not be adequately
protected from fraud or misuse. The deficiencies occurred because             did not implement
an adequate system of management controls to support an effective computer security
program.          had not (1) developed an organizational structure that clearly delegated
responsibility and provided appropriate authority, (2) established planning policies to provide
a foundation for an ‘effective security program, and (3) implemented key management
processes to ensure that security requirements were met.

During fiscal year 1998,          took several steps to correct these organizational, planning,
and process weaknesses, including appointing a computer security program manager and
preparing a security program master plan. However, budget constraints have delayed the
expected correction date from 2000 to 2003.            has decided to report this material
internal control weakness in its fiscal year 1998 Accountability Report, which will be issued
on or before April 30, 1999.

During fiscal year 1998, we conducted a series of audits of          general computer security
            The audits found that general controls over the mainframe, client server (which
hosts the NMS), and Mission computer systems were not effective. Specifically, deficiencies
were identified in (1) entity-wide security program and management, (2) access controls, (3)
application software development and change processes, (4) segregation of computer system
duties, (5) system software change controls, and (6) continuity of services controls. A
primary reason for ineffective general controls was the lack of an agency-wide security
program that included clear security responsibilities and agency-wide security processes.

                Audit of       Compliance with Federal Computer Security Requirements (Audit Report No.
A-000-97-008-P, September 30, 1997).

                 Audit of             General Controls Over the Mission Accounting and Control System
(Audit Report No. A-527-99-001-P, December 30, 1998); Audit of Access and System’s Software Security
Controls Over the Missions Accounting and Control System (Audit Report No.                December 31,
1998); Audit of General Controls Over       Mainframe Computer Environment                    March 1,
1999); Audit of General Controls Over       Client Server Environment                March 1, 1999);
Memorandum Report on Access Controls Over NMS Data and Software                      May 18, 1998)


                                                   34

Budget and Accounting Procedures Act of 1950
As shown in our report on internal controls,         (1) has not maintained an adequate
system of internal and accounting control as required by the Budget and Accounting
Procedures Act of 1950 and (2) has not always provided the U.S. Treasury all requested
information on         financial operations.

The Budget and Accounting Procedures Act of 1950 (Chapter 946, 64 Stat. 832) requires each
federal agency to maintain a system of accounting and internal control that provides:

       ��   full disclosure of the financial results of agency activities;

       ��   adequate financial information needed for agency management purposes;

       ��   effective control over and accountability for all funds, property and other $rr�ir2 for
            which the agency is responsible;

       ��   reliable accounting results to serve as the basis for the preparation and support of
            agency budget requests, for controlling the execution of budget, and for providing
            financial information required by OMB; and

       ��   suitable integration of the accounting of the agency with the accounting of the U.S.
            Treasury in connection with the central accounting and reporting responsibilities
            imposed on the Secretary of the Treasury.


Federal Credit Reform Act of 1990
        did not fully comply with the Federal Credit Reform Act of 1990 (Public Law
     This Act states that “Direct Loans disbursed and outstanding are recognized as assets at
the present value of their estimated cash inflows.”           did not efficiently value its assets
because it did not fully account for direct loans that were uncollectible. Therefore, related
assets were overstated by about $449 million. Additionally,             did not fully account for
the effects of rescheduled direct loans on its financial statements.          needs to re­
evaluate its direct loan uncollectible accounts and ensure that rescheduled loans are
adequately included and accounted for on the financial statements. Additionally,
needs to make the necessary adjustments to its direct loan accounts after a revaluation of the
uncollectible accounts is made.
Foreign Assistance Act, Amended in 1968
As discussed in our report on internal controls,      has not implemented an effective
performance measurement system which would allow             to meet the requirements of
Section 62    of the Foreign Assistance Act, as amended in 1968 (Public Law No. 90-554).

This Section states that foreign assistance funds could be utilized more effectively by the
application of a management system that will include the following: (1) the definition of
objectives for U.S. foreign assistance, (2) the development of quantitative indicators of
progress toward those objectives,          adoption of methods for comparing actual results of
programs and projects with those anticipated when they were undertaken, and (4) provides
information to           and Congress that relates funding to the objectives and results in order
to assist in the evaluation of program performance.


Federal Managers’ Financial Integrity Act of 1982
Contrary to federal law and the executive branch’s implementing policies,           has not (1)
promptly resolved all audit recommendations within the prescribed time frames, (2)
established adequate internal controls for measuring and reporting on program performance,
and (3) taken timely action to correct findings and recommendations from prior audits related
to problems in measuring and reporting on program performance. Further,              has not
taken action to correct the material weaknesses that the OIG identified              These
weaknesses prevented            from providing complete, reliable, timely, and consistent
information on          activities.

OMB Circular No. A- 123. which provides standards for implementing the FMFIA of 1982
requires agencies to develop and implement management controls to ensure that (1) programs
achieve their intended results; (2) resources are’ used consistent with agency mission; (3) laws
and regulations are followed; and (4) reliable and timely information is obtained, maintained,
reported, and used for decision making. The Circular also requires that the head of each
agency submit annually to the President and the Congress (1) a statement of whether the
agency’s controls provide reasonable assurance that they are achieving their intended
objectives and (2) a       on material weaknesses in the agency’s controls.

The OMB Circular No. A-50 contains another implementing policy of the executive branch.
This policy requires prompt resolution and corrective actions on audit recommendations. The
Circular says that resolution shall be made within a maximum of six months after issuance of
a final report and corrective action should proceed as rapidly as possible.

Pursuant to the FMFIA and the implementing policies of the executive branch,               has
decided to report nine material internal control weaknesses in its fiscal year 1998
Accountability         scheduled to be issued on or before April 30, 1999.
During the course of our review we identified an internal control weakness that we feel
should have been considered as a material internal control weakness and reported in its fiscal
year 1998 Accountability Report. Specifically,           does not properly identify, record, and
report advances processed through the Letter of Credit system. Approximately $1.7 billion
are annually advanced to grantees through the system. Because of Office of Financial
Management’s policy, these advances are not recorded against the obligation document at the
time of the disbursement. Instead, the advances are recorded at the grantee level, without
regard to the corresponding grant obligation. As a result,          cannot properly report the
status of its appropriations at year end. Additional details regarding this issue will be
reported in the audit report to          Managers on its internal


Government Performance and Results Act
As discussed in our report on internal controls,         does not have an effective system to
consistently and reliably measure and report achievements that are attributable to
funded activities. As a result,        reports country-level results in their Annual
Performance Report with little assurance that          activities had a clear and measurable
impact toward achieving the reported results.

Part of the problem is due to deficiencies in the preparation of    Strategic Plan and
Annual Performance Plan which are required under the Government Performance and Results
Act of 1993 (the Results Act).

For example, the Results Act requires that no later than September 30, 1997, the head of each
agency shall submit to the Director of the OMB and to the Congress a Strategic Plan for
program activities. Such a plan shall contain among other things-general goals and
objectives, including           related goals and objectives, for the major functions and
operations of the agency.

         submitted its               to the Congress in September 1997. In           1998,
GAO issued a report on its review of 24 federal agencies’ strategic plans, including
GAO commented that, even though              had made progress in their strategic plan,
still needed to make improvements. In particular,           goals and objectives were
improperly targeted at results which          could not reasonably influence.

In addition, the Results Act requires agencies to prepare an annual performance plan covering
each program activity set forth in its budget. Such plans will establish performance goals;
              indicators which are to be used in measuring or assessing the relevant outputs,
service levels, and outcomes of        program activity; and describes a measure to be used to


               Audit Report to        Managers on           Internal Controls for Fiscal Year 1998 (Audit
Report Number 0-000-99-002-F which is scheduled for release in March 1999).


                                                     37

verify and validate measured values.       submitted its annual performance plan for fiscal
year 1999 to the Congress in February 1998. However, GAO reported in June 1998 that
         annual performance plan provided only a partial picture of its intended performance.

, These problems were also discussed in OIG audit reports on the status of
  implementation of the Results Act?


 Office of Management and Budget Bulletin 97-01
           Office of Financial Management did not prepare its Statement of Net Cost in

 accordance with the OMB Bulletin 97-01, Form and Content. Specifically, the Office of 

 Financial Management did not develop responsibility segments, accumulate the costs and

 report the full cost assigned to each responsibility segment as required by OMB.



             Computers Are Not Year 2000 Compliant
         is also vulnerable to major disruptions to its programs and operations if it does not
 adequately complete repairs to its computer systems to allow them to process data in the year
 2000. In addition, to the extent that developing countries, which are the beneficiaries of
         development assistance activities, encounter disruptions,           program

 accomplishments could be put at risk. As of the end of fiscal year 1998, 
           had not

 fully assessed its systems or the systems it provided to host countries. 
        also lacked
 detailed schedules and resource estimates and did not expect to meet government-wide target
 dates to implement compliant systems. In addition,            has not completed and tested

 contingency plans to ensure that it will be able to operate in the event of year 2000 caused

 disruptions. Due to the scope and complexity of the needed changes and the limited time

 remaining to correct problems, 
         faces a high risk that business operations and

 programs will be disrupted at the start of the new millennium.





 Office of Inspector General’
 March 1, 1998




                 Audit of        Status in             the Government Performance and Results Act of 1993
 (Audit Report No. 9-000-98-003-P, September 3, 1998) and Audit of the Status of         Implementation of
 the Government              and Results Act of 1993 (Audit Report No. 9-000-98-005-P, September 30, 1998).


                                                     38

                                               APPENDIX I

                                                Page 1 of 63





          UNITED STATES AGENCY for
        INTERNATIONAL DEVELOPMENT




Consolidated Financial Statements for Fiscal Year 1998





                     r0Tru4S�u
4
                                      APPENDIX I

                                       Page 2 of 63





This page left intentionally blank.




       r0Tru4S�u
4
                                                                          APPENDIX I

                                                                           Page 3 of 63




                               TABLE OF CONTENTS




Message       the Acting Director of the Office of Financial Management        i
Overview of                                                                     0

Program Performance                                                             2

Management Controls                                                           12

Analysis of Financial Statements


Limitations of the Financial Statements                                        1     8

Consolidated Financial Statements                                              19


Supplemental Financial Information                                            59





                                    r0Tru4S�u
4
                                      APPENDIX I

                                       Page 4 of 63





This page left intentionally blank.




      r0Tru4S�u
4
                                                                               APPENDIX I

                                                                                Page 5 of 63

OVERVIEW OF 


Background

The United States Agency for International Development                was created in 1961
to advance U.S. foreign          interests by promoting broad-based, sustainable
development and by providing humanitarian assistance for natural and man-made
disasters.         typically works in countries committed to achieving sustainable
development, but which lack the technical skills or resources necessary to implement
policies and programs that will accomplish this result. In these countries,
emphasizes one or more of the Agency’s six strategic goals depending upon a country’s
specific needs and the activities of other donors.         also works in countries which
have made major commitments to cooperating with the United States in achieving
complementary goals, particularly, the establishment and maintenance of regional peace.
In these countries          typically enhances the country’s capacity to continue to
collaborate with the United States on goals of mutual interest.

Mission

          mission is to contribute to U.S. national interests by supporting the people of
developing and transitional countries in their efforts to achieve enduring economic and
social progress and to participate more fully in resolving the problems of their countries
and the world.          pursues its mission through                 with the people and
governments of assisted countries, U.S. businesses, non-governmental organizations,
academic institutions, other U.S. government agencies and international assistance
agencies. In cooperation with its many partners,            identifies the needs of a
country, assesses the country’s commitment to sustainable progress, and develops
country specific plans to address the country’s needs or to enhance its contribution to the
resolution of regional or global problems.

Organizational Structure

        is based in Washington, D.C. with a Headquaters                of the Office of
the Administrator, nine bureaus and four independent offices. The Agency implements
development assistance activities in:       (AFR); Asia and the Near East (ANE); Latin
America and the Caribbean           and Europe and the New Independent States of the
former Soviet Union         There are 69 field based missions implementing
development programs and three regional services offices. In addition,        provides
coordination with other donor         in five countries.




                                              N



                                  r0Tru4S�u
4
                                                                              APPENDIX I
                                                                               Page of 63
PROGRAM PERFORMANCE
The Agency for International Development promotes sustainable development in six goal
areas:

07   achieving broad-based economic grow&
2.   building sustainable democracies;
3.   human capacity built through education and training;
4.   stabilizing world population and protecting human health;
5.   managing the environment for long-term sustainability; and,
6.   saving lives, reducing suffering, and reinforcing development.

Many Agency activities relate to       or more goals. For example, promoting community
management of natural resources          enhances democracy by allowing citizens to
exercise more control over their livelihood and destiny. Increasing economic opportunity
for the poor typically enhances their sense of participatory democracy and the potential
for good, local government. Likewise,             has found that as people become more
educated, birth rates and child mortality drop, and nutrition improves. When girls are
able to get a basic education, they raise healthier children. Improving education also
encourages rule of law and helps develop an active and open civil society.           is
increasingly planning activities to benefit       such natural synergies.

In all its activities the Agency collaborates closely with host country partners, non­
governmental organizations, international financial institutions, and other donors. These
partnerships are essential to                   they both increase program effectiveness
and promote sustainability.

The remainder of this section provides a summary of the results within each goal area.
Further detail on performance results will be provided in           Management
Accountability Report which will be available at the end of March, 1999.
1. Achieving Broad-Based Economic Growth

In May 1996,          and development communities adopted the challenge of reducing
the proportion of people living in extreme poverty by half Eighty-five percent of the
world’s poor subsist in low-income developing countries and regions where poverty is
widespread. Development programs have been working to provide the poor with life
improving opportunities.

In 1997, the Agency had 145 programs supporting broad-based economic growth and
agricultural development in 76 operating units (countries, regional         and central
bureaus). These programs represent 29 percent of all          programs and 84 percent of
all operating units. Of these programs, 67 were in developing countries, and 68 were in
countries making the transition       communism. Another 10 were globally oriented.




                                   r0Tru4S�u
4
                                                                              APPENDIX I

                                                                               Page 7 of 63

 Indicators and Results

 Annual Growth Rates in real per capita income above 1 percent achieved.
 Growth performance for 1994-97 improved substantially in all regions, compared with
 the 1992-96 base period. About two thirds of           recipient countries achieved the

 performance goal of per capita income growth higher than 1 percent, compared with

 about 45 percent in the base period. By region, the proportion of countries with such

 growth ranged 
      50 percent (and rising) for Europe and the new independent states to
 baax percent for Asia and the Near East.

 Average annual growth in agriculture at least as high as population growth
 achieved in low-income countries.
 The vast majority of low-income countries achieved agricultural growth at least as rapid
 as their population growth. Performance in sub-Saharan Africa improved dramatically.
 Overall, 25 out of 29         recipients (86 percent) achieved this performance goal for
1994-96, compared with about 35 percent for the 1990-95 baseline period. This is
 primarily because of improved agricultural performance, and secondarily gradually
 declining rates of population growth.

 Proportion of the              in poverty reduced by 25 percent in 10 years.
 The goal of reducing the proportion of the population in poverty is among the goals of the
 Development Assistance Committee of the Organization for Economic Cooperation and
 Development, to which the United States participates. Overall, incomes have been
 expanding in line with the performance goal in 57 percent of        recipient countries,
 including low-income Asia, which accounts for the bulk of the global poverty.

 Increased openness and greater reliance on private markets.
 The Heritage Foundation compiles annual scores for economic freedom, which seek to
 measure the degree to which the policy and institutional setting supports well-functioning
 private markets that reward individual initiative. Overall, economic           has
 improved in 68 percent of                    countries, remained unchanged for about 10
 percent, and declined in 22 percent. Economic             has improved in at least 60
 percent of the countries in each region.

 2. Building Sustainable Democracies

         emphasizes four broad areas under its democracy and governance strategic


 �   Rule of law and human rights;
 �   Credible and competitive political processes;
 �   A politically active civil society; and
 �   Transparent and accountable government institutions.

 In        percent of            country and regional programs provided assistance to
 democracy and governance.



                                   r0Tru4S�u
4
                                                                              APPENDM I

                                                                               Page 8 of 63


Indicators and Results
The primary measure of democratic status is the country score of the Freedom House
survey. While Freedom House scores do not provide a direct measure of
democracy and governance assistance, they do provide important information on country
development trends.

                                                                 Figure 1
On average, according to Freedom
House, the democratic status of
                  countries improved        at
in 1997. Four countries moved up on
the overall Freedom House scale;              8
none declined. The best performance
was in the LAC region, where                  6
Honduras and El Salvador improved
      “partly free” to “free.” In
                                            4
Europe and the new independent
states, Azerbaijan moved          “not
      to “partly free.” In                    2
Liberia changed          “not      to
“partly free.” The overall                    0                                 I
classification did not change for any               g�e         gC�                        LAC
countries in the ANE region. Figure
compares the Freedom House ratings
of countries receiving
democracy assistance. With the exception of the ANE region, countries categorized as
“partly free” predominate. This finding indicates that many countries have undergone
 only a partial transition to democracy. In such incomplete transitions,      the executive
branch continues to monopolize power, the judiciary is weak, local government lacks
 capacity, and the democratic culture necessary for broadened citizen participation is in an
 early stage of development.
 3. Human

Education is crucial to growing up in the modem world. Without a decent education,
children become adults with limited opportunities. In poor countries, improved education
leads to       and more sustainable economic and social development and contributes to
the emergence            democratic institutions. The goal encompasses Agency
objectives in basic and higher education.

         places special emphasis on expanding and improving primary education for the
under-served population, especially for girls and women.           also seeks to provide
literacy programs for adults and out-of -school children. In 1997,          allocated most
of its human capacity development funding to basic education. The Agency provided



                                  r0Tru4S�u
4
                                                                               APPENDIX I
                                                                                Page of 63
 $127.9 million for basic education in three regions-Africa, Latin America and the

 Caribbean, and Asia and the u3CJx�CKLUx�4xL6CLIx
       million (96 percent) went to basic

 education for children. The remaining $5.1 million supported adult literacy programs.


 Indicators and Results

 Full primary enrollment by 2015 achieved.

 The United States is committed to the target of 
 primary’enrollment by 2015. A

 country is considered “on track” if its net primary school enrollment ratio is increasing at

 a rate fast enough to reach 
 enrollment by 2015,               is sustained.

 Among the nine countries in Africa with           programs contributing to basic
 education in 1997, five-Benin, Ethiopia, Mali, Namibia, and South A&a-reported the
           data. Of the five, Namibia and South          are on track           primary

 enrollment by 20 15. A sixth country, Malawi, reported 
 primary enrollment in 1996.
The three countries that did not report the necessary data were Ethiopia, Ghana, and
Uganda.                        .....
 Data problems were even more severe in the Asia and Near East region. Of five countries

 with basic education objectives-Cambodia, Egypt, India, Morocco, and Nepal-only

 Morocco reported            data, showing Morocco to be on track toward full enrollment

 by 2015. Cambodia reported 
 primary enrollment in 1996.

 In Latin America and the Caribbean,                      basic education programs in 10

 countries in 1997, of which five, Brazil, Dominican Republic, El Salvador, Nicaragua,

 and Peru-reported the data            to calculate primary enrollment growth over the

 past decade. The first three were increasing net enrollments fast enough to reach full

 enrollment by 20 15. Nicaragua fell just short of the required growth rate. By contrast,

 Peru’s net primary enrollment rate has fallen over the past decade, although there is some

 evidence of recovery since 1993.


 Many countries in Europe and the new independent states do not report net enrollment

 rates. Among those that do, most have high rates of primary enrollment, though in some

 countries these have slipped in recent years. 
      does not provide direct support for 

 basic education in this region.


 Gender gap in primary enrollments reduced.
          supports eliminating the             for all practical purposes, between boys’ and
 girls’ enrollment rates at the primary level. To track progress toward this goal,
 calculates a gender gap measure for each                      country based on its gender
 equity ratio, the ratio of girls’ to boys’      primary enrollment ratios. Gender gaps for
 individual countries are’ averaged across each region.

 Figure 2 shows recent trends in the average gender gap among the countries that
 supported basic education programs in 1997. Although the regional averages conceal
 much country-level detail, they show a gradual narrowing of the gender gap in all three



                                    r0Tru4S�u
4
                                                                             APPENDIX I
                                                                             Page 10 of 63
regions. Despite progress, however, the gender gap remains large in much of         and
in many countries in Asia and the Near East. Among the nine           basic education
countries in the       region, the average gender gap declined markedly from 28.1
percent in 1986 to 23.5 percent in 1996.

The five          basic education countries in Asia and the Near East region also achieved
a dramatic reduction in the primary school gender gap over the past decade. Despite this
impressive progress, each of
                                                         d Oad   d    d fFd
these countries still has a long                       d       d   d     d �2t�.7gnFd m5np5.Ed
way to go to reach gender
equality.

Progress has been slower in
Cambodia and Egypt, though the
gender gaps have been smaller
there than in other countries in
the region.
                                        Ntrn


With the exception of Guatemala,
gender gaps in primary
enrollment rates are quite small
                                                                          u9ii
among the nine countries with
basic education objectives in                                           - -
Latin America and the Caribbean.               ----

Enhanced responsiveness in higher education partnerships.
        fosters partnerships between institutions of higher education in the United States
and overseas in an effort to enhance the contributions of host-country colleges and
universities to development.

In Egypt,                   partnerships helped Egyptian universities improve their
research capacity. In South Africa,           provided grants to strengthen 15 historically
disadvantaged institutions.          provided support to 9 institutions in Albania,
Hungary,          Lithuania, Poland, and Slovakia to create or expand programs in
management training and market economics education, and to 11 institutions in Russia
and the Ukraine to              educational programs in areas such as economic
             health, and the environment.

In addition,          Center for Human Capacity Development has supported the
University Development Linkages Project since 1992. The program is designed to
enhance long-term, sustainable collaboration between U.S. and developing country
colleges and universities so that higher education institutions in developing countries can
more effectively meet the development needs of their societies, and so that U.S. colleges
and universities can increase the international dimension of their programs by attracting
more foreign students or making the curriculum global in perspective. In 1997, the
linkages program supported the formation of 41 partnerships, including 4 historically
                                                                                APPENDIX I
                                                                                Page 11 of 63
black colleges and universities in the United States. The highlights section provides more
information on some of the results of these programs.

Performance indicators for            higher education objective are under development.

4. Stabilizing World             and Protecting Human Health

Population, health, and nutrition have been major           programs since the Agency
was established. The Agency recognizes that population growth and population pressures
both cause and affect ecological, economic, political, and social transformations.
          efforts to stabilize the world’s population growth and combat poor health and
nutrition affect many areas.

        has also taken on the challenges of reducing maternal mortality, reducing the
impact of the HIV/AIDS pandemic, and reducing the threat of infectious diseases that
pose serious public health risks. These areas are of vital importance to families in the
United States, as well as to families in developing countries, because the world is
becoming a much smaller community.

Indicators and Results

In its strategic plan,        established performance goals for each major area of
population, health, and nutrition. By the year 2007,         along with other partners, is
expected to achieve the following:

        a 20 percent reduction in average fertility rates
        a 25 percent reduction in average mortality rates for infants and children under 5
        a reduction in the proportion of underweight children under 3

The following three indicators have been proposed but, for technical reasons, have not
been made operational yet. See Ml description in the 2000 Annual Performance Plan.

        a 10 percent reduction in the maternal mortality ratio
        a slowing of the rate of new HIV infections
        a reduction in deaths caused by infectious diseases (excluding

Total Fertility Rate Reduced by 20 Percent: Figure 3 shows the progress made in
achieving this goal through FY97.




                                   r0Tru4S�u
4
                                                                                        APPENDIX I
                                                                                        Page 12 of 63

                                                     Figure 3
                      Regional Total Fertility Rates (number of children per woman)
                                                                                                        1
                                                                                 �/           LAC
                                             IUN              cUI                �UN          cUy
            N8s                              yUi              cUc                NUi          �U8
            N886                             yU6              cU�                NU6          �U8
Un p3,�2an US Census Bureau. Weighted averages for                 countries.

 Under-5 Mortality Bate Decreased by 25 Percent:              goal of reducing under-5
 mortality rates by 25 percent by 2007 contributes to achieving goals articulated at the
 World Summit for Children in 1990.           and other donors have done significant
 work in child survival programming and, as evidenced by Figure 4, have made progress
 in meeting this goal.

                                                    Figure 4
                         Regional r(mngTRx t3,.9:7.en    n nN5MMMn:7D2n
4

            1992                     N6iU�            NN�Uc               8UM          IMUy
            N8s                      NI UI            86UM%               6Ui          ycUc
            N886                     NI�U             8cU6                6Uc          yNUy

          U.S. Census Bureau. Weighted averages for

    5. Managing the Environment

            environmental goal-protecting the world’s environment for long-term
 sustainability-has long been considered              silent goal. Environmental changes
 often go by unnoticed until a crisis erupts. Rapid population growth, industrialization,
 and urbanization all increase the demands made of the earth. The effects are alarming.
 Productive crop lands disappear, deserts enlarge, rich oceans are overfished, large inland
 lakes are polluted or drained. Wetlands are lost to urban sprawl and agricultural
 expansion. Essential ecosystems like tropical forests and coral reefs are       destroyed
 or severely damaged for short-term economic gain.

            is laying the groundwork now for interventions with its               Climate
    Change Initiative. The initiative will help ensure a substantial U.S. government financial
    commitment during this                   is concentrating on those countries and regions
    that contribute most to net global greenhouse, i.e., Brazil, Central        Central
    America, Central Asia, India, Indonesia, Mexico, Philippines, Poland, Russia, South
            and Ukraine.

    In FY97, the Agency helped prevent or lessen environmental damage in more than 60
    countries worldwide--compared with 52 countries the previous year. New environmental
    programs in Africa and Latin American and the Caribbean accounted for most of these.
    The Agency increased efforts to slow global climate change, improve natural resource
                                               8


                                       r0Tru4S�u
                                                                                 APPENDIX I
                                                                                 Page 13 of 63
management, and improve energy services. These changes reflect, in part, the Agency’s
increased attention to transborder issues, such as global warming.       only decreased
slightly its distribution of urban and biodiversity programs.

Indicators and Results

National environmental management strategies
A government’s commitment to a cleaner environment and to better management of
natural resources is crucial to sustainable development, but commitment and management
are difficult to measure and interpret. The strength of environmental policies in any
country reflects the priority its government assigns to environmental degradation. Many
countries have completed national environmental action plans or similar environmental
strategies in the past decade. Of                  countries, 83 percent have completed
them in sub-Saharan Africa, 71 percent in the Asia-Near East region, 53 percent in Latin
America and the Caribbean and 48 percent in Central and Eastern Europe and the new
independent states. Another 10 percent of                     countries are preparing action
plans. Still more are updating existing ones.         is well on its way to achieving the
opi g�ynhpcn nrc�htSenyGiCn by 2005.

National protected areas and biodiversity conservation
Biodiversity is essential to environmental and economic sustainability. The main
approach most countries have taken to               biodiversity is to establish systems of
national ‘parks, wildlife refuges, forest reserves, marine sanctuaries, and other formally
protected areas. More than 900 million hectares of the earth’s             are officially
designated as protected, an area nearly equal in size to the continental United States.
Some experts recommend setting aside 10 percent to 15 percent of lands as protected
areas. As of 1994, the most recent data available,                        has 6.8 percent
(78.2 million hectares) of its area protected, Asia-Near East and North             have 6.1
percent (46.4 million hectares), Central and Eastern Europe and the new independent
states have 4 percent (82.8 million hectares), and Latin America and the Caribbean
       have 9.3 percent (73.5 million hectares). Each of these protected areas is at least
1,000 hectares and includes national parks,            monuments, nature reserves or
wildlife sanctuaries, protected landscapes and seascapes, and scientific reserves with
limited public access.

Carbon dioxide emissions
Trends are not encouraging. Global energy use has risen nearly 70 percent since 1971 and
will continue to increase over the next several decades. As energy use rises, there is a
concomitant increase in greenhouse gas emissions. Fossil fuels supply roughly 90 percent
of the world’s commercial energy and acco for more than 80 percent of carbon
dioxide released into the atmosphere. Developing countries’ commercial energy
consumption will contribute approximately 40 percent of the world’s carbon dioxide
      output by 20 10. Much of this will come from          and south Asia, which depend

heavily on coal. Unfortunately, market conditions favor reliance on cheap fossil fuels.

Actions are needed to increase energy efficiency; replace fossil fuels with 

and develop and adopt renewable energy technologies.

                                                                                      APPENDIX I
                                                                                      Page 14 of 63

      Urban population and access to safe drinking water and sanitation
      Two of the main global indicators the Agency uses to measure progress toward
      sustainable urbanization are access to safe drinking water and access to sanitation
      services. In                 countries, 63 percent of the urban population has access to
      safe water in sub-Saharan           67 percent has access in Asia-Near East and North
             and 80 percent in Latin America and the Caribbean. Few countries in Eastern
      Europe and the former Soviet Union report on access to safe water, so regional data are
      not available. Of                   countries, 60 percent of the urban population has
      access to sanitation services in sub-Saharan Africa, 60 percent has access in Asia-Near
      East and North          and ,03 percent in Latin America and the Caribbean.

      Energy             and production from renewable sources
. .   In              helped form a partnership between Columbia Gas and the Russian Utility
      Penzagaz to develop an automated customer information and payment system. Columbia
      helped Penzagaz establish a direct payment center, avoiding costly bank transaction fees.
      This resulted in a savings worth more than $61 million for Penzagaz.

      Annual change of total forest area and natural resource management
      This is just one indicator the Agency considers in its approach to sustainable natural
      resource management. From 1980 through 1995, the developing world lost nearly 200
      million hectares of forests. The greatest threats are from roads, mining, accidental fires,
      unchecked logging, slash-and-bum agriculture, and land conversion to cattle ranching
      and cash crops.

      6. Providing Humanitarian Assistance

      Humanitarian assistance is an act of national conscience and an investment in the future.
      It is a response to U.S. values and ideals as it saves lives, reduces suffering, and protects
      health.           humanitarian assistance goal is to save lives, reduce suffering associated
      with natural or man-made disasters, and reestablish                necessary for political or
      economic development.

               provides humanitarian assistance in three broad categories-natural disasters,
      man-made disasters, and complex emergencies. Natural disasters are caused by physical
      hazards such as drought, earthquake, fire, flood, and pest and disease outbreak. Man-
      made disasters are caused by human error in design, implementation, operation, or
      management, such as a building collapse or industrial accident. Complex emergencies
      may include natural disasters such as droughts, but are frequently caused or complicated
      by civil strife. They are manifested in armed conflict, death, displaced populations,
      hunger, and injury.

      In all its                       endeavors,         works closely with other donors,
      international organizations,        and other U.S. agencies. Its partnerships with other
      groups enable           to leverage and share resources. All results given below represent
      the cumulative effects of          and other donor resources and activities.



                                         r0Tru4S�u
4
                                                                                 APPENDIX 

                                                                                 Page 15 of 63

Indicators and Results

In           countries and regional and central                had strategic objectives
supporting one or more of the humanitarian assistance objectives-prevention, relief, or
the most active, transition. Fifteen Missions and offices had objectives to assist with the
transition process. Nine countries and         pursued objectives in support of relief and
another nine each supported prevention.
Measuring the impact of humanitarian assistance programs is challenging. First,. it is
difficult to distinguish between various causes and effects. Second,           country
regional programs operate at different levels and have different objectives, making an
assessment of overall Agency performance difficult. Although saving lives is the primary
aim of most emergency programs, preserving and promoting livelihoods is becoming
equally important to achieving effective economic and political transitions.

        with multilateral and bilateral donors, is beginning to pilot-test and implement
information systems that will be used in emergency situations to monitor Agency
capacity for saving lives and reducing suffering. In a preliminary effort to measure results
of         efforts, the Agency selected the followingindicators:

    crude mortality rate in selected emergency situations
    levels of acute malnutrition stable at, or declining to, acceptable levels in emergencies
    number of people displaced by open conflict by region
    changes in the number and classification of designated “postconflict transition”
    countries
Since humanitarian assistance operates in fluid, complex situations, these indicators will

be initially applied on a pilot basis to determine whether data collection is feasible.

Reporting on these indicators requires working with other donors and agencies to develop

systems that collect and report these indicators regularly.

In 1997, 
         reached more than 11.5 million people with emergency food aid through

Title II P.L. 480 programs, implemented primarily by U.S. 
          and the World Food

Program in 28 countries in Africa, Asia, and Europe. The program provided 781,360

metric tons of Title II emergency food aid valued at 
        million.

The World Refugee Survey 1998 estimates there were 13.6 million refugees and asylum
seekers in 1997.        provided emergency food aid to more than 10 million or 76
percent of them. (Data were not available for some programs.) Much of this assistance
was provided through the World Food Program.

          Office of Foreign Disaster Assistance (OFDA) provides emergency assistance
primarily in health, sanitation, shelter, and water. In 1997, the office spent $140 million
to help more than 18 million victims of 48 officially declared disasters in 46 countries. Of
these, 13 were complex emergencies, 27 were natural disasters, and 8 were man-made
emergencies.

                                              00



                                   r0Tru4S�u
4
                                                                                        APPENDIX I
                                                                                        Page 16 ‘of 63
In addition to the figures shown in the Figure 5, in 1997 the Bureau for Europe and the
New Independent States            supported more than 8.4 million of the most vulnerable
populations in Central and Eastern Europe and the new independent states, at a cost of
more than $79.1 million. All the countries in this region were undergoing economic,
political, and social transition. Several are also in conflict-Armenia, Azerbaijan,
Bosnia-Herzegovina, Georgia, and Tajikistan.

                                          Figure
            FY 1997 Number of People Assisted by Bureau for Humanitarian Response
                                 Emergency Program, by Region*

                                                      �OM6                         For Peace
                                            (% affected

                                                                      (61%)

                                          (13%)                       (83%)

                                          (68%)                       (95%)
                                            143,000                   ��*
                                          (61%)
                                          18,766


     of Transition Initiatives programs (not included in table) include media        that reach entire
       populations. and      activities that                                       and          who

            no emergencies in region in 1997 that                       food aid
Note: There may emergencies where                               reach the same


MANAGEMENT CONTROLS

        has undertaken comprehensive management reforms to improve accountability
and to make the Agency more efficient and results-oriented Although the reform process
continues,         has dramatically changed the way it does business and its approach to
the delivery of foreign assistance.

         management controls have been reengineered over the past few years to support
management reforms and improve the integrity of its operations. For example,
was reorganized to reduce overlap, unnecessary layering, and to facilitate empowerment
of Agency staff Operation procedures were adopted for           programs which were
based on result achievement, improved assistance delivery, and better customer service.
In addition, an automated directives system was implemented to provide

                                                   12
                                                                               APPENDIX I
                                                                               Page of 63
access to policies, procedures and supplemental information needed to
implement Agency programs and manage administrative operations.

        is also well underway in rationalizing and upgrading its management controls in
the area of financial management.

In fiscal year 1997,          deployed a new management information system worldwide
to improve accountability and provide more timely information for decision making. The
New Management System                 encompasses all of the core business
accounting, procurement, budget, and program operations. After a series of technical
difficulties, selected modules of NMS were suspended in field missions, while continuing
operations in Washington.              changed the approach to the development of NMS to
correct the technical difficulties, and management control deficiencies identified by
         staff and the Office of the Inspector General.

          Office of Financial Management subscribes to the recommendations of the
Vice-President’s National Presidents Review and the vision statement prepared by the
CFO council and has created its own vision and strategic plan to move            to the
forefront of a new era of responsive, effective, collaborative, customer-oriented financial
management. To make this vision a reality,            embarked on an ambitious
undertaking to replace thirteen disparate financial management systems and applications
with a single integrated financial and information management system.

The objectives of           single integrated financial management system are to:

�   Capture accounting transactions when and where they occur,

�   Reduce the creation and flow of paper, and

�   Generate information, not just data.

          goal is an integrated financial management system linking the mixed financial
systems for budgeting, procurement, program operations, human resources and property
management. This will enable             to capture accounting transactions when and
where they occur, eliminating redundant data entry and greatly simplifying the
reconciliation processes.
The problem with current           legacy financial systems is their lack of integration.
The estimated level of redundancy among these systems is forty-five percent. Thus, lack
of data integrity coupled with redundant system maintenance is a major problem which
needs immediate corrective action. Like many other federal agencies, most of
legacy accounting systems are outdated, expensive to maintain, non-integrated, and
produce data that is inconsistent with data contained within other support systems.
Problems with the legacy systems include the following:




                               Un r0Tru4S�u
4
                                                                               APPENDIX 

                                                                               Page 18 of 63
�             uses numerous headquarters and overseas financial management systems,

      subsystems, and “cuff record” systems that require the input of redundant and

      inadequately controlled data.


�	             core financial systems are not integrated. As an example, obligation and
      disbursementtransactions which take place in the field are first recorded in the
      Mission Accounting and Control System               electronically transmitted to

      Washington, summarized, and then manually re-entered in summary form in

      Washington.


In the fiscal year      1997 Federal Managers Financial Integrity Act          report;
         identified material weaknesses in control systems and procedures. These
included weaknesses in the following areas:

��   financial management systems and procedures;
�              and reporting capabilities of NMS;
�	     information resources management processes; and
�	     the computer security program.

Although progress has been made, the weaknesses were not      corrected during FY
1998. Two additional weaknesses were identified in FY 1998 relating to
program performance reporting and the Year 2000        problem.

The following is a brief description of each material            corrective action, and
planned corrective dates.

Financial Management Systems and Procedures
Non-Conformance of                Financial Management Svstem

          financial management systems do not filly comply with federal financial management
system requirements, applicable federal accounting standards, and the U.S. Government
Standard General Ledger at the              level. Agency management and the Office of the
Inspector General have identified internal control and security deficiencies and other
vulnerabilities. The system also does not meet important financial management systems
requirements, such as the capability of producing all required financial reports and other
management information at an acceptable level of timeliness and accuracy.

The lack of an effective, integrated financial management system has been identified as a
material weakness since 1988. Several efforts have been made to resolve the
deficiencies, including the development of the Agency-Wide Accounting and Control
System (AWACS), a component of the NMS. This new system did not meet the
Agency’s expectations. AWACS does not comply with important financial management
system requirements. A three-pronged strategy is being implemented to improve the
accounting system. The strategy combines the use of a commercial-off-the-shelf core
accounting system with cross servicing and out-sourcing of some operational areas. A
                                               N


                                    r0Tru4S�u
4
                                                                            APPENDIX I
                                                                            Page of 63
business process improvement analysis was completed during fiscal year 1998 which
helped to define functional requirements for the accounting system. Detailed evaluation
criteria for a new system will be in place by February 1999.        plans to implement
the new accounting system in                       in FY 2000, followed by
implementation in field missions in FY 2001.

Additional controls and an integrated general ledger system are needed to effectively
manage the direct loan program. A credit review board has been established to direct the
policy, planning and implementation of the Agency’s portfolio of loans and loan
guarantees. To strengthen the management of the loan program, servicing of loan
accounts will be out         to Riggs National Bank in 1999. In addition, the credit
program general ledger will be migrated to the new accounting system in FY 2001.

Financial Management Procedures

          financial management policies and procedures have not been fully updated and
incorporated into the automated directives system. Therefore, policy guidance and
regulations are not readily available to        staff      a complete and easily
accessible source.          expects to continue to take appropriate steps to correct this
Weakness.

p3EMJALex t(mxReporting Capabilities of NMS

Svstem Security and Access Controls

In October 1996,           implemented a portfolio of systems under an initiative entitled
the New Management System                 The initiative was to provide the Agency with an
integrated suite of applications to perform the required business            associated with
the          mission, to support the reporting and tracking requirements of the Agency,
and to bring the Agency into full compliance with U.S. government standards and
reporting requirements. The NMS was designed to meet                  system needs in
support of the extensive management reform efforts to transform the Agency into a
results-oriented organization. Following the implementation of the NMS worldwide,
legacy and feeder systems were to be maintained, replaced or absorbed, as the situation
warranted, and, as applicable, their data migrated into the NMS.

One year after deploying the NMS applications, Agency management determined that a
variety of vulnerabilities, deficiencies, and concerns existed with regard to the system as
implemented.            current design creates a risk for unauthorized access to Privacy Act
information and the system does not generate an adequate audit trail when data is
changed. NMS does not contain a comprehensive integrated computer security and
access control plan which clearly defines internal control objectives. An assessment of
risks and deficiencies associated with NMS has been completed and a contractor hired to
implement a comprehensive security program. Security enhancements for NMS are
being implemented and are scheduled for completion by fiscal year 2001.




                                  r0Tru4S�u
4
                                                                              APPENDIX I
                                                                              Page 20 of 63
Svstem Reporting and Resource Management Canabilities

NMS reporting and resource management capabilities are also identified as a material
weakness,             ability to maximize management efficiency was impaired by the
lack of accurate and timely NMS generated reports. The financial management
component of NMS does not always produce reliable obligation and expenditure
information, resulting in “cuff’ records being used. Using a cuff record system increases
the risk of over or under obligating Agency resources. Data transfer from the Agency’s
legacy financial systems to NMS was substantially            and caused reports to be
unreliable and payments delinquent. Although many useful reports have been generated
from NMS, more improvement is needed. Long-term strategy to correct this
vulnerability is planned in conjunction with the implementation of the new core
accounting system.

Information Resources Management

Organizational and management deficiencies exist in the Agency’s information resources
management practices. During fiscal year 1998,            began implementation of a
information technology management strategy which will improve compliance with the
Clinger-Cohen Act. The new approach identifies and incorporates industry-wide
practices and lessons learned to improve management discipline.            has established
a Capital Investment Review Board (CIRB) for Information Technology (IT) to provide
broad management oversight for investments. The CIRB will oversee the
refinement and documentation for the Agency’s IT portfolio; the completion of an
Agency IT architecture for       and the initiation of long-term technical architecture
planning to guide preparation, evaluation, and selection of         technology
investments by the end of     2000.

Computer Security

          information system security program does not currently meet the requirements
of the Computer Security Act and           of Management and Budget guidance. In
January 1998,          hired a senior information professional to serve as the Agency’s
Information System Security Officer. In consultation with the Office of the Inspector
General, an information          program plan has been developed and is being
implemented. A risk analysis             tool has been procured and the internal networks
have been 
              hackers. Steps are now being taken to incorporate security

requirements into every major system and information technology initiative.

expects to complete the objectives of the agency-wide information system security plan

by fiscal year 2003.


Program Performance Reporting

          performance reporting does not adequately link the Agency’s performance
goals with its programs nor does it ensure current data results. To correct this deficiency
       has issued updated guidance on performance monitoring and evaluation,
                                             0I


                                  r0Tru4S�u
4
                                                                                APPENDIX I
                                                                                Page 21 of 63
improved the documentation and program performance review process, and reviewed the
use of       reporting. Planned corrective actions include:

�   assessing and revising the Agency’s Strategic Plan;
�   making corresponding changes to the Annual              Plan and the Annual

    Performance Report; and,

�   developing and implementing a managerial cost accounting program to attribute costs
    across various activities and programs.

By October 1999,          will have assessed how operating units are evaluating
programs and using the information in decision making and to assess and report
performance.          expects to correct this weakness by fiscal year

Year        Problem

     Agency’s Office of Information Resources Management has implemented a
comprehensive          compliance review of the Agency’s systems, hardware and software.
An assessment has not been completed of the implications of           for overseas offices
nor have necessary corrective actions been completed to assure compliance of all mission
        systems with        guidance. In addition to the mission critical systems,
is affected by the information technology applications which are part of the assistance
provided to countries and institutions, as well as systems and equipment run by others,
particularly those in the countries where           works.

         has devoted substantial resources to assessing, repairing, testing and
implementing systems and applications that may be affected by the            problem. An
assessment of mission critical systems and a renovation plan was completed in July 1998.
In addition, a schedule has been established for making mission critical systems
compliant.           believes that the necessary modifications, implementation and
validation of all mission critical systems can be completed by September 1999.

        has initiated a contingency planning exercise to cover its most critical operational
systems, focusing initially on the financial accounting systems.


ANALYSIS OF FINANCIAL, STATEMENTS

FY 1998 marks the first year that agencies are required to produce financial statements in
accordance with the Statement of Federal Financial Accounting Standards Number 2,
      and           Due to the significant differences in reporting requirements between
FY 1997 and FY 1998,           has decided not to present comparative statements.

Comparative statements are not required by the Office of Management and Budget,

(OMB) until reporting periods beginning after September 


During FY 1998, net position decreased by $7.413 million. This decrease is primarily

due to a change in the presentation of Resources Payable to Treasury for Credit Loan


                                             17


                                   r0Tru4S�u
                                                                              hww�aMHu3 H
                                                                              wCfn3OO3of SP
Programs. $6.212 million in Resources Payable to Treasury was reclassified
position to other intragovernmental liabilities.

HF3 FY NBBTI3 in consultation with OMB, these amounts were classified as invested capital
(a component of net position) for financial statement reporting purposes. This decision
was based on OMB Circular 94-O NI3 which included pre-credit reform loans financed by
appropriations in its definition of invested capital. In addition, the reclassification of
Resources Payable to Treasury as an equity account eliminated a discrepancy between the
Statement of Operations and the Statement of Changes in Net Position. This discrepancy
occurred when income and expense were closed to Resources Payable to Treasury, as
required by the Credit Reform Act.

During FY 1998, invested capital was removed            the U.S. Standard General Ledger.
Additionally, in the new Entity and Display statements, the closing of income and
expenses to Resources Payable to Treasury is recognized as a decrease in Unexpended
Appropriations on the Statement of Changes in Net Position, thereby eliminating any
discrepancies between the statements. By reclassifying Resources Payable to Treasury as
a liability, rather than as a component of net position, consistency between the financial
statements is maintained and the payable is properly reflected as a liability.

LIMITATIONS �c3,e�3                        STATEMENTS

The financial statements have been prepared to report the financial position and results of
operations of         pursuant to the requirements of 31 U.S.C. 3515(b).

While the statements have been prepared from the books and records of the entity in
accordance with the formats prescribed by OMB, the statements are in addition to the
financial reports used to monitor and control budgetary resources which are prepared
from the same books and records.

The statements should be read with the realization that they are for a component of the
U.S. Government, a sovereign entity. One implication of this is that liabilities cannot be
liquidated without legislation that provides resources to do so.




                                  r0Tru4S�u
4
                                                                                           r22�uWf0x f
4
                                                                                           2C53xcdxG4xSd
4
              7UpUx r)�u$�x (�yx INTERNATIONAL W�8�.�29�u,
                       $�up�.fWr,�Wx sr.ru$�x po��,
                             rKx of September
                                     YfFx OANNAGFKP



ASSETS
  Entity Assets:
     Intragovernmental

         Fund Balance with Treasury (Note 2)

         Accounts receivable, net (Note 3)
                                                         503
         Advances and prepayments (Note 4)
                                                          38

      Governmental

        Accounts receivable (Note 3)
                                                                 2
        Advances and prepayments (Note 4)
                                                        1,036
        Credit program receivables (Note 5)
                                                      6,581
        Cash and other monetary assets (Note 6)
                                                    172
        Operating materials and supplies (Note 7)
                                                   27
        Property plant and equipment, net (Note 8)
                                                  28

   Total                                                                                         18.122




                  accompanying notes are an integral part of these financial statements.

                                                  N8



                                     r0Tru4S�u
4
                                                                                     APPENDIX I
                                                                                     Page 24 of 63
                U.S. AGENCY FOR Ha,� ah,H�ah.3 DEVELOPMENT
                        CONSOLIDATED BALANCE p ��I
                             hAx of September
                                     (In millions)
LIABILITIES
  Liabilities Covered by Budgetary Resources
     Intragovernmental liabilities
          Accounts payable (Note 9)                                                           210
          Debt (Note 10)                                                                      308
          Other intragovernmental liabilities (Note 11)                                     6,222

      Governmental liabilities
                     payable (Note 9)                                                       1,488
         Liabilities for loan guarantees (Note 5)                                             595
         Other governmental liabilities (Note 11)                                             196
      Total liabilities covered by budgetary resources                                      9,019

   Liabilities Not Covered by Budgetary Resources
      Governmental liabilities
          Liabilities for loan guarantees (Note 5)                                            348
          Accrued unfunded annual leave and separation pay (Note 12)                           27
          Accrued unfunded Workers Compensation Benefits (Note 13)                             42
      Total liabilities not covered by             resources                                 417

   Total Liabilities

   NET POSITION
     Unexpended appropriations                                                              8,723
     Cumulative results of operations                                                          (37)
     Total net position                                                                     8.686

   Total Liabilities and Net Position                                                      18,122




                The accompanying notes are an integral part 3$8,)A)G   statements.

                                                   20




                                        r0Tru4S�u
4
                                                                     APPENDIX I

                                                                     Page 25 of 63

             7UpUx r)�u$�x (�yx fu,�yur,f�ur.x W�8�.�29�u,
                  $�up�.fWr,�Wx p,r,�9�u,x �(x u�,x $�p,
                      (GJx L63x  x 3Fw3wx p3HL3OD3Jx




rE6A3XAF5x                  x   x )JGmL6
                                                     S          �T
        x    x HMDNAE
                                                               UcNM


                                                             UN8c


sMANwAF5x               x




                                                               c6�



                                                                 I
    AL6x L63x HMDNAE                                          IIM




                                                                 iN
                                                              NUMi6
                                                              NUNIi


                                                              NUNI6




                                                                cII
                                                                  N


                                                                 NM



                                                                 I�
                                                                c N




                 � �                            �
                                           �N




                                 r0Tru4S�u
4
                                                                           r22�uWf0x f
                                                                            2C53xcSxG4xSd
       7Upx r)�u$�x (�yx fu,�yur,f�ur.x
   $�up�.fWr,�Wx p,r,�9�u,x �(x $oru)�px fux u�,x 2�pf,f�u
               (GJx L63x �3CJx �Fw3wx p3HL3OD3Jx
                               YfFx OANNAGFKP




Net Cost of Operations
Financing Sources (other than exchange revenues)
     Appropriations Used
     Taxes (and other non-exchange revenues)
    Donations (non-exchange revenue)
      Imputed Financing                                                        14
      Other Financing Sources                                                 181
Net Results of Operations                                                    (537)
Prior Period Adjustments (Note 15)
Net Change in Cumulative Results of Operations

Increase (Decrease) in Unexpended Appropriations

Change in Net Position                                                      (7,413)
Net Position-Beginning of Period                                            16,099

Net Position-End of Period                                                   iISiS




              The                  are an integral   of these statements




                             r0Tru4S�u
4
                                                                                  r22�uWf0xf
                                                                                  2C53xchxG4xSd
           7UpUx r)�u$�x (�yx fu,�yur,f�ur.x W�8�.�29�u,
   CONSOLIDATED STATEMENT �(x s7W)�,ry�x y�p�7y$�p
                     (GJx L63x �3CJx �Fw3wx p3HL3OD3Jx
                                     YfFx OANNAGFKP



Budgetary Resources:

Budget authority                                                                   6,368
Unobligated balances                period                                         1,841
Spending authority from offsetting collections                                     1,523
Adjustments                                                                       (1,130)
Total budgetary resources                                                          8.602

Status of Budgetary Resources:

Obligations incurred                                                               6,805
Unobligated balances available                                                       895
Unobligated balances not available                                                   902
Total, status of        resources                                                  8.602


Outlays:

Obligations incurred                                                               6,805
Less: spending authority from offsetting collections
      and adjustments
Obligated balance, net beginning of period                                         8,365
Obligated balance transferred, net
Less: obligated balance, net end of period                                         8,441

Total outlays                                                                      5,028





                The accompanying notes are an integral part of these statements

                                              23




                                  r0Tru4S�u
4
                                                                           r22�uWf0x f
                                                                           2C53xcixG4xSd

                         U.S. AGENCY (�yx fu,�yur,f�ur.x DEVELOPMENT
                             CONSOLIDATED STATEMENT OF FINANCING
                                 For the Year Ended p3HL3OD3Jx
                                                  millions)




Obligations and                     Resources

Obligations incurred                                                                  Gb
            Spending authority for                          and                    b5dcR
Donations not in the budget                                                           RM
Fiicing Imputed for Cost Subsidies
          revenue not in the budget
Non-exchange           not in the budget
    Total obligations as adjusted,                      resources


Resources That Do Not            Net Cost of Operations

iR%�oFn   amount of goods,             and          ordered but
    not yet received or provided
      capitalized on the balance sheet
Financing sources that       costs of prior periods

      Total resources that do not       net cost of operations               UG


$GKLKx          Do Not Require

 Depreciation       amortization                                                       I
 Revaluation of        aud liabilities                                                 c
 other
    Total costs that do not require resources                                        Tbc

Financing Sources Yet to be Provided                                                 bTI

Net        of                                                                      T5bTi




                                                                    OYGO




                                                r0Tru4S�u
4
                                                                             APPENDIX I
                                                                             Page of 63
 NOTE 1.              Y OF SIGNIFICANT                         POLICIES

 A. Basis of Presentation

 These financial statements report          the financial position and results of
 operations. They have been prepared using             books and records in accordance
 with Agency accounting policies, the most significant of which are summarized in this
 note. The statements are presented in accordance with the applicable form and content
 requirements of the Office of Management and Budget (OMB) Bulletin 97-O Form and
 Content of Agency Financial Statements, and the Government Management Reform Act
 of 1994.

         accounting policies follow an “other comprehensive basis of account” as agreed
 to, and published by the Director of the       of Management and Budget, the Secretary
 of the Treasury, and the Comptroller General. These policies are based on the following,
 on the following hierarchy.

 1.	    Accounting standards and principles, known as Statements of Federal Financial
        Accounting Standards (SFFAS), recommended by the Federal Accounting
        Standards Advisory Board             and approved and issued by the above
        named offkials.

 2.	    Interpretations related to the       issued by OMB.

3 .     Form and content requirements in OMB Bulletin

 4.	    Accounting standards contained in            accounting policy manuals and

        handbooks.


        Accounting principles published by authoritative standard-setting bodies (such as
        the Financial Accounting Standards Board            and other authoritative
        sources (1) when no guidance is available      the other sources listed and (2)
        when the use of such accounting standard makes these financial statements more
        meaningful.


 B. Reporting Entity

 Established in 1961 by President John F. Kennedy, USAJD is the independent U.S.
 Government agency that provides economic development and humanitarian assistance to
 advance United States economic and political interests overseas.




                                    r0Tru4S�u
4
                                                                               APPENDIX I
                                                 ..                            Page 30 of 63
NOTE 1.               Y OF SIGNIFICANT ACCOUNTING POLICIES Continued

Programs
The financial statements reflect the various program activities, shown by appropriation in
the financial statements, which include such programs as the Economic
Development Assistance, Assistance for the New Independent States              Former
Soviet Union, Development Fund for             Special Assistance Initiatives, International
Disaster Assistance, International Organizations and Programs, and Direct and
Guaranteed Loan Programs. This classification is consistent with the Budget of the
United States.


Economic Support Fund

Programs          through this account provide economic assistance to select countries in
support of efforts to promote stability and U.S. security interests in strategic regions of
the world.


Development Assistance

This program provides economic resources to developing countries with the aim of
bringing the benefits of development to the poor. The program promotes broad-based,
self-sustaining economic growth and supports initiatives intended to stabilize population
growth, protect the environment and foster increased democratic participation in
developing countries. The program is concentrated in those areas in which the United
States has special expertise and which promise the greatest opportunity for the poor to
better their lives.


           for the New              States of the         Soviet Union

This account provides funds for a program of assistance to the independent states that
emerged        the former Soviet Union. These funds support U.S. foreign policy goals of
consolidating improved U.S. security; building a lasting partnership with the New
Independent States; and providing access to each other’s markets, resources, and
expertise.




                                   r0Tru4S�u
4
                                                                                APPENDIX I
                                                                                Page 31 of 63
a�,�3 1.              Y OF SIGNIFICANT fAA�IUo UEO POLICIES                     Continued

Development

The Development Fund for            account provides development assistance to
Saharan           countries. This account is designed to enhance             effectiveness
in meeting Africa’s development requirements. These resources finance both project and
non-project assistance to address shared development programs and policy objectives in
reform-oriented African countries. These funds also support initiatives intended to
promote economic growth, stabilize population growth, protect the environment and
foster increased democratic participation.


                  Initiatives

This program provides funds to support special assistance activities. The majority of
funding for this program in fiscal year 1997 was for democratic and economic
restructuring in Central and Eastern European countries consistent with the objectives of
the Support for East European Democracy (SEED) Act. All SEED Act programs support
one or *more of the following strategic objectives: promoting broad-based economic
growth with an emphasis on privatization, legal and regulatory reform and support for the
emerging private sector; encouraging democratic reforms; and improving the quality of
life including protecting the environment and providing humanitarian assistance.


International Disaster

Funds for the International Disaster Assistance Program provide           rehabilitation, and
reconstruction assistance to foreign countries struck by disasters such as famines, floods,
hurricanes and earthquakes; support assistance in disaster preparedness, prevention and
mitigation, as well as the longer term recovery efforts managed by the           of
Transition Initiatives.


Child          and Disease

This program provides economic resources to developing countries to support programs
to improve infant and child nutrition with the aim of reducing infant and child mortality
rates; to reduce HIV transmission and the impact of the HIV/AIDS pandemic in
developing countries; to reduce the threat of infectious diseases of major public health
importance such as polio, and malaria; and to expand access to quality basic education
for girls and women.




                                   r0Tru4S�u
4
                                                                            APPENDIX I
                                                                            Page 32 of 63
a�,�3 1. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES                           Continued

            Organizations and Programs

The United States makes assessed payments and contributes to voluntary funds of over
twenty-five international organizations and programs involved in a wide range of
sustainable development, humanitarian, and scientific activities.


Direct and Guaranteed Loans:

       Direct Loan

       These loans are authorized under Foreign Assistance Acts, various predecessor
       agency programs, and other foreign assistance legislation. Direct Loans are
       issued in both U.S. dollars and the currency of the borrower. Foreign currency
       loans made “with maintenance of value” place the risk of currency devaluation on
       the borrower, and are recorded in equivalent U.S. dollars. Loans made “without
       maintenance of value” place the risk of devaluation on the U.S. Government, and
       are recorded in the foreign currency of the borrower.

       Urban and Environmental

       The Urban and                       program, formerly the Housing Guarantee
       Program, extends guaranties to U.S. private investors who make loans to
       developing countries to assist them in formulating and executing sound housing
       and community development policies that meet the needs of lower income groups.
       Micro and Small Enterprise Development

       The Micro and Small Enterprise Development                Program supports private
       sector activities in developing countries by providing direct loans and loan
       guarantees to support local micro and small enterprises.

       Israeli Loan Guarantee

       Congress enacted the Israeli Loan Guarantee Program in Section 226 of the
       Foreign Assistance Act to support the costs for immigrants resettling to Israel
            the former Soviet Union, Ethiopia, and other countries. Under this program,
       the U.S. Government will guarantee the repayment of up to $10 billion in loans
       from commercial sources, to be borrowed in $2 billion annual increments.
       Guarantees are made by           on behalf of the U.S. Government, with funding
       responsibility and basic administrative functions resting with




                                 TW6TMHS�M
f
                                                                              APPENDIX I

                                                                              Page 33 of 63


a�,�3 1.             Y OF SIGNIFICANT hLL�ra,Had3 POLICIES                     Continued

       Ukraine sGtFx �tiSi�hcc
       The Ukraine Export Credit Insurance Program was established with the support of
       the Export-Import Bank of the U.S. to assist Ukrainian importers of American
       goods. The program commenced operations in Fiscal Year 1996 and is expected
       to expire in Fiscal Year 1998. Guarantees in the portfolio have maturities of six
       to eighteen months.


Fund Types

The accompanying consolidated financial statements for 
        include the accounts of
all funds under           control. The agency maintains 26 general        1 special fund,

11 revolving funds, 4 trust funds, and 4 deposit funds.


General and Special funds are used to record financial transaction under Congressional

appropriations or other authorization to spend general revenue.


Revolving funds are established by law to finance a continuing cycle of operations, with

receipts derived 
    such operations usually available in their entirety for use by the
fund without further action by Congress.

Trust funds are credited with receipts generated by the terms of the trust agreement or
statute. At the point of collection, these receipts are unavailable, depending upon
statutory requirements, or available immediately.

Deposit funds are established for (1) amount received for which           is acting as a
fiscal agent or custodian, (2) unidentified remittances, (3) monies withheld from
payments for goods or services received, and (4) monies held waiting distribution on the
basis of legal determination


Trust Funds

The Foreign Currency Trust Funds were established to maintain foreign currencies
owned by participating governments, which the Agency holds in trust. These funds are
used to pay for program and operating expense of                activities in a foreign

country. Funds may be withdrawn only by mutual agreement between the participating

government and the United States.
 the bilateral agreement is terminated all remaining
funds revert to the participating government.
The U.S. Dollar Advances        Foreign Governments Trust Fund was established to

maintain advances of U.S. dollars from foreign governments and/or international




                                  r0Tru4S�u
4
                                                                               APPENDIX I
                                                                               Page 34 of 63

a�,�3 1.              �   OF SIGNIFICANT ACCOUNTING POLICIES Continued

organizations to facilitate the purposes of the Foreign Assistance Act of 0AI07
acts in a fiduciary capacity in carrying out specific activities and programs in accordance
with bilateral agreements with foreign countries. The Agency draws from the Foreign
Governments Trust Fund balances to pay for related expenses.

The Gifts and Donations Trust Fund was established to maintain money, funds, property,
and services of any kind made available by gift, device, bequest, and grant.

The Foreign Service National Separation Pay Trust Fund was established to fund and
account for separation payments for eligible foreign service national employees who
           terminate employment. It is applicable only in those countries that, because
of local compensation plans, accrue a lump-sum voluntary-separation benefit based upon
years of service and rate of pay.

The unexpended balance in trust funds at year end is recorded in the financial statements.
Further, to the extent that the income      the trust     is used towards
expenses, the income is recorded as “other income” in the financial statements.

Social Progress Trust and Enterprise Development Funds

Though not recorded in               statement,        has established several unique
loan and enterprise       to support economic growth in accordance with the authorizing
legislation. The major funds include the Latin American Social Progress Trust Fund
administered by the Inter-American Development Bank, Enterprise Funds in Central and
Eastern Europe and the former Soviet Union, authorized under the Support for East
European Democracy and Freedom Support Acts, and the South African Enterprise Fund.

         does not take an active role in managing these funds beyond authorizing their
transfer for the U.S. Government. There has been no financial control over these
institutions since they were established. However, if the funds are           or
liquidated, these funds should be returned to the U.S. Government. The government has
an equity interest in these      but they are not measurable and accordingly are not
recorded in the financial statements.


C. Basis of Accounting

The accompanying financial statements have been prepared on an accrual basis. Under
the accrual method of accounting, revenues are recognized when earned and expenses are
recognized when a liability is incurred, without regard to receipt or payment of cash.
Budgetary accounting facilitates compliance with legal constraints on, and controls of:
the use of federal finds.




                                  r0Tru4S�u
4
                                                                                APPENDIX I
                                                                                Page 35 of 63
a�,�3 1.              Y OF SIGNIFICANT ACCOUNTING POLICIES                       Continued

D. Budgets and Budgetary Accounting

The components of             budgetary resources include current budgetary authority
(that is, appropriations and borrowing authority) and unobligated balances remaining
from multi-year and no-year budget authority received in prior years. Budget authority is
the authorization provided by law to enter into financial obligations that result in
immediate or future outlays of federal        Budgetary resources also include
reimbursement and other income (that is, spending authority from offsetting collections
credited to an appropriation of fund account) and adjustments (that is, recoveries of prior
year obligations).

Pursuant to Public Law 101-S 10, unobligated balances associated with appropriations
that expire at the end of the fiscal year remain available for obligation adjustments, but

not new obligations, until that account is canceled. When accounts are canceled five
years after they expire, amounts are not available for obligations or expenditure for any
purpose and are returned to Treasury.

Pursuant to Section 511 of            Appropriations Act for fiscal years 1994 through
NBBiI3 or Section 5 17 for           Appropriations Act for fiscal years 1987 through
NBBPI3 funds appropriated for certain purposes under the Foreign Assistance Act of 196 1,
   amended, shall remain available until expended if such funds are initially obligated
within their period of availability.


E. Revenues and Other Financing

        receives the majority of its funding through congressional appropriations
annual, multi-year, and no-year appropriations that may be used within statutory limits.
Appropriations are recognized as revenues at the time the related program or
administrative expenses are incurred. Appropriations expended for capitalized property
and equipment are not recognized as expenses. In addition to funds warranted directly to
         the agency also receives allocation transfers     the Commodity Credit
Corporation and the Department of State.

Additional financing sources for           various credit programs and trust funds
include amounts obtained through collection of guaranty fees, interest income on
rescheduled loans, penalty interest on delinquent balances, permanent indefinite
borrowing authority       U.S. Treasury, proceeds        the sale of overseas real property
acquired by          and advances        foreign governments and international
organizations.




                                              cN


                                   r0Tru4S�u
                                                                                APPENDIX I

                                                                                Page 36 of 63

NOTE 1.               Y OF SIGNIFICANT ACCOUNTING POLICIES                       Continued

Revenues are recognized as financing sources to the extent that they were payable to
             other agencies, other governments and the public in exchange for goods and
services rendered to others.


F. Fund Balances with the U.S. Treasury.

Cash receipts and disbursements are processed by the U.S. Treasury. The balances with

Treasury are primarily appropriated funds that are available to pay current liabilities and

finance authorized purchase commitments, but they also include revolving, deposit, and

trust funds.


. G. Foreign Currency

The Direct Loan Program has foreign currency funds which are used to disburse loans in
certain countries. Those balances     reported at the U.S. dollar equivalents using the

exchange rates prescribed by the U.S. Treasury. A gain or loss on translation is

recognized for the change in valuation of foreign currencies at year-end.



H. Accounts Receivable

Accounts receivable consist of amounts due mainly          foreign governments but also
     other Federal agencies and private organizations.           regards amounts due
     other Federal agencies as      percent collectible. The Agency establishes an

allowance for uncollectible accounts receivable for non-loan or revenue generating

sources that have not been collected for a period of over one year.



L Credit Program Receivable

Loans are accounted for as receivables       funds have been disbursed. For loans
obligated before October 1, 1991 (the            reform period), loan principal, interest,
and penalties receivable are reduced by an allowance for estimated uncollectible
amounts. The allowance is estimated based on a method prescribed by OMB that takes
into                 risk and projected cash flows.

 For loans obligated on or after October 1,199 1, the loans receivable are reduced by an
 allowance equal to the present value of the subsidy costs (due to the interest rate
 differential between the loans and Treasury borrowing, the estimated                 and
 defaults net of recoveries, the offset     fees, and other estimated cash flows) associated
 with these loans. This allowance is re-estimated when necessary and changes reflected in
 the operating statement.



                                   r0Tru4S�u
4
                                                                               APPENDIX I
                                                                               Page 37 of 63
NOTE 1.                 OF SIGNIFICANT ACCOUNTING POLICIES                       Continued

Loans are made in both U.S. dollars and foreign currencies. Loans extended in foreign
currencies can be with or without “Maintenance of Value”            Those with MOV
place the currency exchange risk upon the borrowing government; those without MOV
place the risk on          Foreign currency exchange gain or loss is recognized on those
loans extended without MOV place the risk on            Foreign currency exchange gain
or loss is recognized on those loans extended without MOV, and reflected in the net
credit programs receivables balance.

Credit program receivables also include origination and annual fees on outstanding
guarantees, interest on rescheduled loans and late charges. Claims receivables
(subrogated and rescheduled) ‘are due from foreign governments as a result of defaults for
guaranteed loans. Receivables are stated net of an allowance for uncollectible accounts,
determined using a country-specific identification methodology.

While estimates of uncollectible loans and interest are made using methods prescribed by
OMB, the final determination as to whether a loan is collectible is also affected by
actions of other U.S. Government agencies.


J. Advances and Prepayments

Funds disbursed in advance of incurred expenditures are recorded as advances. Most
advances consist of funds disbursed under letters of credit to contractors and grantees.
The advances are liquidated and recorded as expenses upon receipt of reports of
expenditures from the recipients.


   Operating Materials and Supplies

        has operating materials and supplies held for use that consist mainly of computer
paper and other expendable office supplies not in the hands of the user.            also has
materials and supplies in         for foreign disaster assistance stored at strategic sites
around the world. These consist of tents, vehicles, and water purification units. The
Agency also has birth control supplies stored at several sites.

          office supplies are deemed items held for use because they are tangible
personal property to be consumed in normal operations. Agency supplies held in reserve
for       use are not readily available in the market, or there is more than a remote
chance that the supplies will be needed, but not in the normal course of operations. Their
valuation is based on cost and they are not considered “held for sale”.          has no
supplies categorizable as excess, obsolete, and unserviceable operating materials and
supplies.




                                  r0Tru4S�u
4
                                                                                APPENDIX I
                                                                     _3 _       Page 38 of 63
       1. S              OF SIGNIFICANT hLL�ra,Had3 POLICIES                     Continued

L. Property, Plant and Equipment

         capitalizes all property, plant and equipment that have an acquisition cost of
$25,000 or greater and a useful life of two years or more. Acquisitions that do not meet
these criteria are recorded as operating expenses. Assets are capitalized at historical cost
and depreciated using the straight-line method. Real property is depreciated over 20
years, nonexpendable personal property is depreciated over 3 to years, and capital
leases are depreciated according to the terms of the lease. The Agency operates land,
buildings, and equipment that are provided by the General Services Administration. Rent
for this property is expensed.                      and contractor developed              is
not capitalized because it is for internal Agency use only.


M. Liabilities

            represent the amount of monies or other resources that are likely to be paid by
          as the result of transactions or events that have already occurred. However, no
liability can be paid by the Agency without an appropriation or borrowing authority.
Liabilities for which an appropriation has not been enacted are therefore classified as
liabilities not covered by budgetary resources (unfunded liabilities), and there is no
certainty that the appropriations will be enacted. Also,            non-contract liabilities
can be abrogated by the U.S. Government, acting in its sovereign capacity.


N. Liabilities for Loan

The Credit Reform Act (CRA) of 1990, which became effective on October                 has
significantly changed the manner in which             loan programs finance their
activities. The main purpose of CRA was to more accurately measure the cost of Federal
credit programs and to place the cost of such programs on a basis equivalent to other
Federal spending. Consequently, commencing in fiscal 1992, the loan program’s funding
for activities changed so that activities are      through direct appropriation provided
for that year only, rather than through cumulative appropriations granted in prior years
and accumulated under the Revolving Fund.

For           loan guarantee programs, when guarantee commitments are made, the
program records a guarantee reserve in the program account and this reserve is based on
the present value of the estimated net cash outflows to be paid by the Program as a result
of the loan guarantees, except for administrative cost, less the net present value of all
revenues to be generated        those guarantees. When the loans are disbursed, the
Program transfers        the program account to the financing account the amount of L63




                                   r0Tru4S�u
4
                                                                                    APPENDIX I
                                                                                    Page 39 of 63
a�,�3 1.               Y OF SIGNIFICANT ACCOUNTING POLICIES                          Continued

subsidy cost related to those loans: The amount of the subsidy cost transferred, for a
given loan, is proportionate to the amount of the total loan disbursed.

For loan guarantees made before the              liabilities for loan guarantees for pre-1992
loans represent               liabilities. For financial statement purpose the
amounts are shown separate              the post-1991 liabilities. The amount of
liabilities also represents a                   requirement to            The liability is
calculated using a reserve methodology that is similar to OMB prescribed method for
post-1991 loan guarantees.


0.           Sick, and Other Leave

Annual leave is accrued as it is earned and the          is reduced as leave is taken. Each
year, the balance in the accrued         leave account is adjusted to reflect current pay
rates. To the extent that current or prior year appropriations are not available to
annual leave earned but not                  will be obtained              financing
sources. Sick leave and other types of leave are expensed as taken.

P. Retirement Plans

        employees are covered by one of four retirement plans. There are two Civil
Service plans, Civil Service Retirement System (CSRS) ‘and Federal Employees
Retirement System            and two foreign service plans, Foreign       Retirement
and Disability System (FSRDS) and the Foreign Services Pension System              The
Agency contributes approximately 7.5 percent of an employees gross salary for CSRS
and FSRDS, and approximately 24 percent of an employees gross salary for FERS and
FSPS.

Employees may elect to participate in the         Savings Plan (TSP). Under this plan,
FERS and FSPS employees may elect to have up to 10 percent, but not to exceed
$10,000, of gross earnings withheld         their salaries and receive matching
contributions        a minimum of one percent to a maximum of percent. CSRS and
FSRDS employees may elect to have up to percent of gross earnings withheld
their salaries, but do not receive matching contributions.

               a portion of employee post employment benefits         and makes
necessary payroll withholdings. It has no liability for      payments, nor is it
responsible for reporting the assets, accumulated plan benefits, or          liabilities, if
any, applicable to its employees for these programs. Reporting of such amount
responsibility of the        of Personnel Management and the Federal Retirement Thrift
Investment Board. Current year operating expenses are charged for the fill amount of




                                     r0Tru4S�u
4
                                                                                APPENDIX I

                                                                                Page 40 of 63

NOTE 1.                Y OF SIGNIFICANT ACCOUNTING POLICIES                      Continued

employer PEB costs with the unfunded portion being charged to Other Revenue
Imputed Financing in accordance with

Foreign Service National and Third County Nationals at overseas posts who were hired
prior to January 1, 1984 may be covered under CSRS. Employees hired           that date
are covered under a variety of local governmental plans in compliance with host country
laws and regulations. In a limited number of cases where no plans are regulated by the
host country or where such plans are inadequate, the employees are covered by a
privately managed pension plan to conform to prevailing practices by employers.

The Foreign            National Separation Pay Trust Fund (FSNSPTF) was established in
1991 by public law 102-138 to finance separation payments for eligible individuals,
primarily Foreign Service Nationals employed by                The FSNSPTF finances
separation liabilities to employees who resign, retire, or lose their jobs due to a
in-force; and is applicable only in those countries that, due to local law, require a lump
sum voluntary payment based on years of service.


Q. Net Position

Net position is the residual difference between assets and liabilities. It   composed of
unexpended appropriations and cumulative results of operations.

�	   Unexpended appropriations are appropriations not yet expended, including
     undelivered orders.

�	   Cumulative results of operations are also part of net position. This account reflects
     the net difference between (1) expenses and losses and (2) financing sources,
     including appropriations, revenues and gains, since the inception of the activity.




                                   r0Tru4S�u
4
                                                                             APPENDIX I
                                                                             Page 41 of 63
NOTE 2. FUND BALANCES                       x ,y�rp7y�x       Thousands)

Entity and Non-Entity Fund Balances with Treasury as of September 30, 1998 consisted
of the following:
   (MFwKx sCNCFE3K         �FLALex rKK3LK        uGFT�FLALex rKK3LK        ,GLCN

Appropriated   wCF(A                                                               GbM
    GwCF(A                             bc5ITe                                  bc5ITe
o)X3NX7FpG                            iBb5IRi                                 iBb5IRi
�8,)6G wCF(A

,GLCN                                                                              Gbi

On September 30, 1998 there was a cash reconciliation difference of $60.1 million
between         and the Department of Treasury’s Fund Balances. For FY 1998
reporting purposes,        adjusted its fund balance downward by this difference to
equal the Department of Treasury’s fund balance. This was a change        previous years,
when          reported the      balance per their records. By adjusting          fund
balance to equal Treasury’s fund balance, there will be consistency between various
published reports. Also, based on past experience, the Department of Treasury’s
balances were more accurate and the differences were usually cleared when
processed the required disbursements.

         million cash reconciliation difference was posted to separate Fund Balance
sub-accounts and the cash differences remain identified as such.         intends to
perform a reconciliation of the amounts in these accounts and to make adjustments
accordingly.




                                                dT


                                   r0Tru4S�u
4
                                                                                      APPENDIX I
                                                                                      Page 42 of 63
NOTE 3. ACCOUNTS RECEIVABLE, NET                                Thousands)

The primary components of                   accounts receivable as of September 30, 1998 were
as follows:
                                                   Receivable                      onEn-XtDNn
                                                                     hEEGC(sA

��yEy�

                 rHHJGHJACLAGFx y3AODMJK3O3FLK
4
                    4JGOx(3w3JCNx
4                         Bcai                                Bcai
                 rEEGMFLKx y3E3AXCDN3
                         x (3w3JCNx r53FEA3K                bIa a                           bIa a
                 WAKDMJKAF5x rML6GJALe
                     y3E3AXCDN3x      x 7pWr              RabIcVV                         RabIcVV
         ,GLCNx fFLJC5GX3JFO3FLCN                         RacIR hx                        RacIR h


                 rEEGMFLKx y3E3AXCDN3                      bbIcab          VIR d            bISRi
         ,GLCN                                             bbIcab          VIR d            bISRi

         ,GLCNx �FLALe                                    RbdIh i          VIR d          Ra IcaR

Non-Entity
Total Receivables                                          13,748         $9,543         $504,205


Reconciliation of Uncollectible Amounts (Allowance Accounts)
                             BbaIdhV
rwwALAGFK                      b I bd S




Entity Intragovernmental accounts receivable consist of amounts due from other U.S.
Government agencies. No allowance has been established for the intragovernmental
accounts receivable, which are considered to be 0CC3 percent collectible. Disbursing
Authority Receivable from USDA consists of obligational authority          the U.S.
Department of Agriculture’s Commodity Credit Corporation. The authority is for
payment of transportation costs incurred by           associated with the           of P.L.
480, Title and commodities; Farmer-to-Farmer Technical Assistance Programs; and
for assistance to private voluntary organizations, cooperatives, and international
organizations. Collections against this receivable are realized when USATD requests a
transfer of            USDA to cover incurred expenses.



                                                     38


                                          r0Tru4S�u
4
                                                                           APPENDIX I
                                                                           Page 43 of 63
NOTE 3. ACCOUNTS RECEIVABLE, NET (In Thousands) Continued

Entity Governmental accounts receivable consist of amounts managed by missions or
                       These receivables consist  non-program related receivables such
as: overdue advances, erroneous payments, audit tindings, and any interest related to
these types of receivables. A 100 percent allowance for uncollectible amounts is
estimated for governmental accounts receivable which are more that one year past due.
Accounts receivable from missions are collected and recorded to the respective
appropriation.




                                 r0Tru4S�u
4
                                                                           APPENDIX I

                                                                           Page 44 of 63

NOTE 4. ADVANCES AND PREPAYMENTS                      Thousands)

Advances and Prepayments as of September 30, 1998 consisted of the following:
        Intragovernmental

                 Advances to

                   Federal Agencies

        Total

        Governmental

                 Advances   to
                 Travel Advances                             4,182
                 Advances to Host
                    Governments and
                                                           141,149
                                                             2,253
                 Advances, Other                               694

        Total



Advances to Host Country Governments and Institutions represents amounts advanced by
        missions to host country governments and other in-country organizations, such as
educational institutions and          organizations. Other Advances consists primarily
of amounts advanced for living quarters and home service.




                                       r0Tru4S�u
4
                                                                                  APPENDIX I
                                                                                  Page 45 of 63
NOTE 5. CREDIT PROGRAM RECEIVABLES AND LIABILITIES FOR LOAN
drhohaI��px Yf(x Thousands)

             operates the following loan and/or loan guarantee programs:

�    Direct Loan Program (Direct Loan)
�    Urban and Environmental Program
�    Micro and Small Enterprise Development Program
�    Ukraine Export Insurance Credit Program (Ukraine)
�    Israeli Loan Guarantee Program (Israeli Loan)

Direct Loan obligations or loan guarantee commitments made prior to FY 1992, and the
resulting direct loans or loan guarantees, are reported net of allowance for estimated
uncollectible loans or estimated losses.

Direct Loan obligations or loan guarantee commitments made afer FY 1991, and the
resulting direct loans or loan guarantees, are governed by the Federal Credit Reform Act.
The Act provides that the present value of the subsidy costs (i.e. interest rate differentials,
interest subsidies, estimated delinquencies and defaults, fee offsets and other cash flows)
associated with direct loans and loan guarantees be recognized as a cost in the year in
which the direct or guaranteed loan is disbursed.

An analysis of loans receivable, loan guarantees, liability for loan guarantees, and the
nature and amounts of the subsidy costs associated with the loans and loan guarantees are
provided in the following sections.

The following net loan receivable amounts are not the same as the proceeds
would expect to receive from selling its loans. Actual proceeds may be higher or lower
depending on the borrower and the status of the loan.

Direct Loans Obligated Prior to FY 1992:.
                                                                                  8CNM3x of    Assets
                             Receivables      Interest                            y3NCL3wxto   Direct
    Loan                                     Receivable        For Loan Losses

    Direct                      x                         1
                                                          cc                                       bIacS
           Total               BbbShaIh S            R cIS d




                                                41


                                       r0Tru4S�u
4
                                                     APPENDIX I
                                                     Page 46 of 63
NOTE 5. CREDIT PROGRAM RECEIVABLES AND LIABILITIES FOR LOAN
GUARANTEES (In Thousands) Continued

Direct Loans Obligated After FY 1991:

                                                                                         Value of
                                                                            for          Related to Direct
    Loan                       Gross               Receivable      Subsidv Cost
  Direct Loans                                                             3142,144
  MSED                                                                            173                  1,823
        Total                      $285,323                                5142,317                 $143,034


        Guaranteed Loans from
1992 Guarantees:


                                                                            For                  Guaranteed
                        Receivable. Gross          Receivable                           Loan Receivable. Net
                                   5505,579                                                         $284,830
         Total                     3505,579                                                         $284,830


Defaulted Guaranteed Loans from
Post-1991
There were no            on Post-1991               for FY 1998.




                            Face Value

                                        30,598
                                       141,236
  Israel
           Total




calculate the liability for loan            presented below.




                                                       42



                                           r0Tru4S�u
4
                                                                                              APPENDIX I
                                                                                              Page 47 of 63

NOTE 5. CREDIT PROGRAM RECEIVABLES haMxLIABILITIES FOR LOAN
GUARANTEES (In Thousands) Continued

Liability for Loan Guarantees (Estimated Future Default
Claims,      1992)
                        Liability for Losses
                            on      1992     Liabilities for Loan
                            )MCJCFL33KI                   for
                          Estimate Future       91 )MCJCFL33K         Total Liabilities For
                          Default Claims        Present Value          Loan )MCJCFL33K


  9p�W                                                        1,965                   1,965
  Ukraine Export                                             28,135                  28,135
  Israel                                                    515,076                 515,076
           ,GLCN                   3347,709                5595,065                $942,774


Subsidy Expenses for Post-1991 Direct

  Current           Direct Loans

  There have         no new loans disbursed in the past two years.

2 Direct Loan Modification and

  g,�6�2have       been no             and


Subsidy               for Post-1991 Loan

 1 Current          Loan
                                                                      Interest                   Total
                                     $11,784                 34,119                                      $7,665
  MSED                                     0                      0
                                           0                      0
  Israel                              63,534                 63,534
           ,GLCN                                            567,653                                      37,665


 2 Loan Guarantee Modifications and
   Reestimates

  There R%0Fn been no modifications and




                                                      43


                                          r0Tru4S�u
4
                                                               APPENDIX I
                                                               Page 48 of 63

NOTE 5. CREDIT PROGRAM RECEIVABLES AND LIABILITIES FOR LOAN
GUARANTEES      Thousands)

dx,GLCNx.GCFx          Subsidy


                           W34CMNLK

                                  BbbIhi
  9p�W                                        a            a
                   x                          at           a
  fKJC3N                              SdIRd        SdIRd
           ,GLCN                  RhRIdbi             xb                RhISSR


hmO-(-Asgts-Xnx �FHn(AnA




  9p�W                                   iRR
  Ukraine �nHGJL                          SR
           ,GLCN                      RhI cS




                                          r0Tru4S�u
4
                                                                           APPENDIX I
                                                                           Page  of 63
NOTE 6. CASH AND OTHER MONETARY ASSETS                       Thousands)

Cash and Other Monetary Assets as of September 30, 1998 are as follows:
Entity Cash and Other            Assets
                     Collections                                    1
        HGP and Micro and Small                                     40
           Enterprise Fund Other Cash
        Foreign Currencies                                     172,144
Total Entity Cash and Other Monetary Assets                   $172,185

Non-Entity Cash and Other Monetary Assets

Total      and Other Monetary Assets                          $172,185

       has         funds in various overseas locations. These funds are provided by the
Department of State overseas U.S. Disbursing Officers to which         is liable for any
shortages.           portion of the Department of State        funds provided to
       is $2.4 million. These         funds are not included in          Balance Sheet.
Foreign Currencies included 172 million related to Foreign Currency Trust Funds.




                                        r0Tru4S�u
4
                                                                                    APPENDIX I

                                                                                    Page 50 of 63


    NOTE 7. OPERATING                               nT0un SUPPLIES (In Thousands)
    Operating Supplies and Materials as of September 30, 1998 are as follows:
,   Items Held for Use

                                                                    sR5IcR

    Items Held in Reserve for Future Use

            a7A9A8)6G       G E98)679NAG   G AC44N7)A                 e5bbc
                G       supplies                                     bT5ciB

    Total                                                           scT5McI

    Operating Materials and Supplies are composed of office supplies held for use, disaster
    assistance materials and supplies, and birth control supplies held in reserve for    use.
    They are         at historical cost and considered not held for sale.




                                            r0Tru4S�u
4
                                                                                       APPENDIX I
                                                                                       Page 51 of 63
NOTE 8. PROPERTY, PLANT ruWx EQUIPMENT, NET                                 Thousands)

The components of                  at September 30, 1998 were:
                                                                            Accumulated     Net Book
                                             Useful              cost       Depreciation     Value
Classes of Fixed Assets

   Equipment                                                      $28,820         $21,498         BhIdcc
            x (CEANALA3KI                      cax e3CJK           chIh V          bbI dR             xb
      x.3CK36GNwxfOHJGX3O3FLK
                                                 ufr                dIhaS            N/A            dIhaS
   rKK3LKx 7Fw3Jx $CHALCNx .3CK3                                      bdS             bdS
               xAFx2JG5J3KK                                           hhi                             hhi

               Total                                              BSbIbiV         BddIaSV         BciIbca


               includes assets located in Washington, D.C. offices and overseas field
missions.           capitalizes        when the original acquisition cost is $25,000 or
greater and it has a useful life of two or more years.          uses the straight-line method
of depreciation.

    Equipment consists primarily of electric generators, ADP hardware, vehicles and
    copiers located at the overseas field missions.

    Structures and Facilities include           owned        buildings and residences at
    foreign missions, including the land on which these structures reside. These
    structures are used and maintained by the field missions.            does not separately
    report the cost G4x the building and the land on which the building resides.

    Land consists of property owned by           in foreign countries. Usually the land is
    purchased with the intention of constructing an office building at the site.

    The capitalized leases are four bungalows in Kenya that                   has exercised its
    lease purchase options on that are in litigation.

    Construction in Progress consists primarily of new facilities.




                                                       h


                                          r0Tru4S�u
4
                                                                                 APPENDIX
                                                                                 Page 52 of 63
NOTE 8. PROPERTY, PLANT AND �nTHY.�WS53 NET                            Thousands)
Continued


In addition to its capitalized leases, the building in which US       operates is leased by
the General Services Administration (GSA).               is charged rent intended to
approximate commercial rental rates. The lease is for 20 years. However,                and

GSA are currently involved in negotiations to extend the lease term to 30 years. Lease
payments for FY 1998 amounted to          million. GSA is requesting a 10% increase for
   1999.




                                    TW6TMHS�M
f
                                                                             APPENDIX I

                                                                             Page 53 of 63

NOTE 9. ACCOUNTS PAYABLE (In Thousands)

The Accounts Payable covered by budgetary resources as of September 30, 1998
consisted of the following:
Intragovernmental,

        Accounts Payable                            7�ts45Tn
        Disbursements in Transit                         N     �   y
Total                                                �M85688

Governmental

      Accounts Payable
      Disbursements in Transit                         1,133
Total Govemmental

Total T��3E.An Payable

Intragovernmental Accounts Payable are those payable to other federal agencies and
consist mainly of unliquidated obligation balances related to interagency agreements
between          and other federal agencies.

Governmental Accounts Payable represent liabilities to other non-governmental entities.




                                   r0Tru4S�u
4
                                                                       APPENDIX I

                                                                       Page 54 of 63

NOTE 10. DEBT       Thousands)

                     debt as of September 30, 1998 consisted of the following
borrowings    Treasury for post-1991 loan programs:
                                 G .9N9F�)    u)8G .3663O7Fp       �F(7FpG .9N9F�)

7JDCFx x                                                                      sTc5MMM
                                    cde5bRi                 TI                cde5cde
9p�W                                  cIaVV              Y c c c P              b5iTT

g389NG a)D8                        sdcb5cRT            msbd5beIP             sdMi5bbbG




                                         et


                             r0Tru4S�u
4
                                                                            APPENDIX I
                                                                            Page of 63
NOTE 11. OTHER                           (In Thousands)

At September 30, 1998, Other Liabilities consisted of the following:
Intragovernmental

        Due to U.S. 

        OPAC Suspense
                              16

        Deposit and Clearing Accounts          (3,151)

        Due to Treasury                            102

        Other                                   16,783

Total

Governmental

      Accrued Funded Payroll/Benefits           9,861
      unamortized Origination Fees              2,094
      Foreign Currency Trust Fund             170,927
            Fund Balances                      12,674
Total Governmental                            195,556

Total. Other

Intragovernmental Liabilities represent amounts due to other federal agencies. Other
Governmental Liabilities are liabilities to non-federal entities.




                                        r0Tru4S�u
4
                                                                            APPENDIX I
                                                                            Page 56 of 63
NOTE 12. ACCRUED UNFUNDED ANNUAL LEAVE AND SEPARATION PAY
   Thousands)


                  benefits for annual leave and separation pay as of September 30, 1998
are:
Liabilities Not Covered by Budgetary Resources



             Accrued Annual Leave                      $26,557

             FSN Separation Pay Liability                1,086


Total        Unfunded Annual
Leave and Separation Pay                               $27,643




                                                 52



                                      r0Tru4S�u
4
                                                                              APPENDIX I
                                                                              Page 57 of 63
NOTE 13. ACCRUED UNFUNDED WORKERS’ COMPENSATION BENEFITS
(In Thousands)

The provision for workers’ compensation benefits payable, as of September 30, 1998, are
as follows:
Liabilities Not Covered by Budgetary Resources

      Governmental

              Accrued           Workers’                        $6,764


              Future Workers’ Compensation                      35,005


Total Accrued Unfunded Workers
Compensation Benefits                                           $41,769

The Federal Employees Compensation Act                program is administered by the U.S.
Department of Labor            and provides income and medical cost protection to covered
        civilian employees who have been injured on the job or have incurred a
related occupational disease. Compensation is given to beneficiaries of employees whose
death is attributable to a job-related injury or occupational disease. DOL initially pays
valid FECA claims for all Federal government agencies and seeks reimbursement two
fiscal years later      the Federal agencies employing the claimants.

           total FECA liability is $41.7 million as of September 30, 1998 and comprises
of unpaid FECA billings for $6.7 million and estimated future FECA costs of $35
million. Estimated future FECA costs are determined by the Department of Labor. This
liability is determined using a paid losses extrapolation method calculated over a 37 year
period. This method utilizes historical benefit payment patterns related to a specific
incurred period to predict the ultimate payments related to that period. These annual
benefit payments have been discounted to present value. The interest rate assumptions
used for discounting were 5.60% in year 1 and thereafter.




                                    r0Tru4S�u
4
                                                                            APPENDIX I

                                                                            Page 58 of 63

NOTE      14. INTEREST AND PENALTIES, NON-FEDERAL (In Thousands)

Interest and Penalties, Non-Federal as of September 30, 1998 consisted of the following:
Interest and Penalties, Non-Federal

   Interest Income                                 $710,138
   Income.- Penalties                                 6,601
   Total                                            7 1 6 , 7 3 9

        Transfers to Treasury                       572,224

Total        and Penalties, Non-Federal            $144,515




                                      r0Tru4S�u
4
                                                                                APPENDIX I
                                                                                Page of 63
  NOTE 15. ADJUSTMENTS (In Thousands)

  Prior Period Adjustments as of September            consisted of the following:

  Equipment                         $17,891
Structures, Facilities                 10,072
        Leasehold Improvements
  Credit Program Equipment                1,977
  Fund Balance with Treasury             50,032
                                        $79,972

  FY 1998 is the first year       is depreciating its property, plant, and equipment in
  accordance with Statement of Federal Financial Accounting Standard (SFFAS) Number
  6,                Property,                       By implementing this standard, prior
  period adjustments of $27.9 million were recorded to properly value

  Also during FY 1998, the Credit Program increased its capitalization threshold for
  to $25,000 to be consistent with           capitalization threshold. A prior period
   adjustment of $1.9 million was recorded to expense property that did not meet the
  $25,000 threshold.

  Additionally, in FY 1998,        adjusted its Fund Balance to equal Treasury’s Fund
  Balance. However, a portion of this adjustment related to FY 1997 and was classified as
  a prior period adjustment.




                                    r0Tru4S�u
4
                                                                         APPENDIX I

                                                                         Page 60 of 63

NOTE 16. TOTAL COST AND EARNED                              G .ran�g
FUNCTIONAL CLASSIFICATION     Thousands)

Total Cost and Earned Revenue by Budget Functional Classification, as of September 30,
1998 are as follows:
    wCF�873FG Classification     g389NG t3A8          �96F)(G o)X)FC)        u)8G t3A8

 �AFI�%Ah3�%an      G bRM
Income Security                                 948                                       948

g389N




                                           RI


                               r0Tru4S�u
4
                                                  APPENDIX 

                                                  Page 61 of 63

NOTE 17. DIFFERENCES BETWEEN               OF BUDGETARY
RESOURCES AND THE BUDGET OF THE UNITED STATES GOVERNMENT
   Thousands)

Differences exist between the information presented on the Statement of Budgetary
Resources and the amounts described as “actual” in the Budget of the U.S. Government.
These differences occur because funds are appropriated to            and then allocated out
to other agencies. In those cases, the related funds are not included in the Agency’s
Statement of Budgetary Resources but are included in its part of the U.S. Budget. But
sometimes          that are appropriated to other agencies are then allocated to         In
those cases, related        are included in the Agency’s Statement of Budgetary
Resources but are not included in its portion of the Budget.

The amounts related to other agency activity as of September 30, 1998 are as follows:
                                                          Allocated          hNNGEtsnmx cgGO
                                                              x              �sSngx
UCm5nstgex onAGCgEnA
Budget Authority                                                       14
Unobligated Balance                                                11,661                175
Spending hCsSGg-sex From Offsetting Collections                         4


IGstNx UCm5nstgex onAGCgEnA                                       374,983            434,976

pstsCAx Gyx UCm5nstgex
GDN-5ts-G(Ax                                                      352,696            415,752
Unobligated Balances Available                                     18,994             19,224
Unobligated          Not Available                                  3,293
IGstNx pstsCAx Gyx UCm5nstgex onAGCgEnA                           374,983

�DN-5tsnmx Balance, Net             of Period                     146,688            466,013
Obligated Balance              Net
Obligated Balance, Net    End of Period                                              540,137
                                                                                     334,624
                                                                                 APPENDIX I

                                                                                 Page 62 of 63

NOTE        CONTINGENCIES


       is involved in certain claims, suits and complaints that have been filed or are
pending. These matters are in the ordinary course of the Agencies operations and are not
expected to have a material adverse effect on the Agency’s financial position.

         is involved in ten contract appeals that are currently before the         Service
Board of Contract Appeals that total more than         million. It is reasonably possible that
there will be damages assessed against            in these cases. Should there be any
judgement in favor of a contractor,           also could be liable for indeterminable
 attorney’s fees and Contract Disputes Act (CDA) interest.

There are seven cases against           pending before the U.S. Court of Federal Claims
that total approximately $3 million. It is reasonably possible that there will be damages
assessed against           in these cases. Should there be any judgement in favor of a
contractor,          also could be liable for attorney’s fees and CDA interest. It is not
possible at this time to estimate what those amounts might be.

        is involved in eight cases’ that ‘are pending appellate decision or waiting initial
stage processing and/or hearing before the Equal Employment Opportunity Commission.
All eight cases involve a reasonable possibility of loss for the Agency for an estimated
amount totaling $1.1 million, .

        is also involved in five cases that are pending before the Foreign
Grievance Board involving cognizable claims under Chapter 11 of the Foreign Service
Act of 1980, as amended.          involve probable likelihood of financial loss to
in excess of $1 million less indeterminable offsets under the          Act.

In addition, there are three appeals pending before the Merit Systems Protection Board
involving reasonably possibility of loss to        in the amount of $450,000 less
indeterminable offsets.

The             which          operates is leased by the General Services Administration
(GSA).           is charged rent intended to approximate commercial rental rates. The
lease is for 20 years. However,           and GSA are currently involved in negotiations
to extend the lease term to 30 years. Lease payments for FY 1998 amounted to $26.1
million. GSA is requesting a        increase for FY 1999.




                                    r0Tru4S�u
4
                                                                            h22�uaf0G f
                                                                            29p)GIdG3 GId
               OfE�UA�O
        x�cx                            3 9hg� 3 
R




                     fP                                                       u9u

               O                              r       I                      ur4uQ
                      u     Qu                        uO          I
f




1010
                                      100s

1021
                                      1012

1035
                                      1013

1037
                                      1014

1093
                                      1023

109s




                                           1075





                                           4590            xGyx         x      x
H




        O                 2 h�i� 6$92




                   r0Tru4S�u
4
This page left intentionally blank.
                                                                            APPENDIX II
                                                                             Page 1 of 10

                      MANAGEMENT COMMENTS




MEMORANDUM

TO:                   (Acting:, 
         E.

FROM:

                                             Consolidated 

               Statements, Internal Controls, and                   for

                      Year 

     This                    provides 
                     response to 

audit 
                            statements, 

compliance for               Year 1998.

      The
                             New Management 
            End

                  the 
      Worldwide Accounting and         n
                 ex           to resolve the issues of a
system   and                           the Joint Financial Management

                                                requirements.   


     We 
           recognize the core accounting system as 

material weakness under the                             Integrity

Act of                our current systems are not 

rely on                in conjunction 
                 controls

and manual         to produce the best      .
  financial

                  dedicated 

staff both 
             and overseas, along with 

                       have enabled us 
 produce what we believe

are reasonably          f 

      We 
                    collaborative and constructive manner in

which this 
          GAS   conducted.
    look forward to working

more closely
                OIG organization on next year's

with the 
                    enabling you to        an          relying

   our                                  and manual) and our compensating

controls.

                                    1998

     We                       advances during 
 1998 in improving the

quality and                 of the Agency's financial reports.
     of

the data               caused by 
   implementation of the new

                                                                   APPENDIX II
                                                                    Page 2 of 10




                            2

accounting        have been corrected over the 
     year.

Improvements include the             of accruals in

                  and the automation of 
   closing of 

expenses, and required 

capabilities of 
    were also improved. As a result of 

improvements, the year-end closing process 

earlier than last year. Additionally, 
                     year­
end were more accurately and efficiently 

years,

     The year-end reports were primarily 

general ledger.
            some 

prepared in accordance 
                of 

crosswalks to the various line items of the 

Consistent                   the various reports was 

     As a result 
 the               in retrieving 

          analysis of var
            balances 
   also 

Xeconciliatrons and account analyses of accccnt 

performed to further improve the         of the 

general ledger. These included:


.   reconciling the         ledger 


    reconciling the general 


    reconciling the generel ledger to Department 

    warrants and SF- 1151 non-expenditure              as           by

    Treasury;


    reconciling cash on a         basis 
   Agency 

    and,


    reconciling the 
        ledger    the                  Year
                reported in 
   detail records.
      To further improve 
   accuracy of anounfs 
 the general

ledger, an adjustment to 
      Balance with 

         was        at year-end.
     a        of 

Fund Balance per the financial              agrees 

per Treasury.
     plan to review and resolve

difference.

         FY 1998 was the first year agencies were require5

prepare financial              in accordance with           of

Federal Financial Accounting Standard 
                Entity

Display.     It was the       year agencies were

depreciate property, plant, and equipment.

significant changes in             requirements, 

1998 draft year-end             statements and 
            the GIG

                                                                APPENDIX II
                                                                 Page 3 of 10




on December 7, 1996, almost two months earlier than the previous

year.
    also provided the OIG with the final year-end 

statements and footnotes on the date originally agreed to with

the OIG.

               successfully implemented OMB Bulletin No. 

Formats and Instructions -for-the Forn and Content of 

Financial Statements. Earlier this year, OMB anticipated that
most agencies would have difficulty preparing the Statement of
Financing and stated that a difference of 15% or less between Net
Cost n dOperations per the Statement of Financing and Net Cost of
Operations per the Statement of Net Cost would be acceptable.
      reported only a 
07% difference between the two statements.

        The Office of Financial
                also 

the Statement of            Resources was reconcile5 to the 

133s. All identified differences were researched and resolved.

Additionally, the Statement 
 Net Cost was prepared in

accordance 
 th        No. 
 Managerial Cost-Accounting Concepts

and Standards far the Federal Government. The statement reflects

the full cost of outputs allocated on a reasonable and consistent

basis among       programs.

          n o,3�2AAn  compiling the             was 

streamlined this year. Workpapers supporting preparation 
 the

                     decreased from 22 'binders fcr 
 1997 to

     four binders for 
 1998.

        In addition to submitting the financial statements 
 the

    in a timely manner,
      external year-end reports were

submitted within the            due dates.         met the year-end

reporting deadlines despite 
     fact that due dates were

           in            The 
   2108 Year-End Closing Statement

    the SF 133           on Budget            deadlines were 

up to November
     as compared to November 16 for 
 1997
reporting.    The transmission G 3preliminary FACTS Adjusted Trial
Balance         and Footnctes to Treasury was due February 
 as

compared to February 15 in FY 1997.
       is on schedule to meet

the March 
 deadline for the CFO verification 
       the FACTS ATB

and Footnctes is consistent in all material respects with the

Agency's financial statements,

Information Technology Accomplishments and Futnre Plans

                has committed to develop an information

technology architecture containing all components            in

      guidance at a level of detail 
 ensure that 

financial management system investments are consistent with the

architecture, integrate work processes and technology to achieve

the Agency's           goals, and conform to standards for

information exchange and resource sharing.
    is just one of

                                                                  APPENDIX II
                                                                   Page 4 of 10




many components to          efforts to 

deficiencies and come into compliance with 

policies and regulations.         initiated the Financial

Management          Project to replace the 
    accounting system

        with the alternative recommended by the FEDSIM 

study, a commercial off-the-shelf (COTS) package. This project,

           by a team from a major consulting firm and led by a

manager with extensive credentials in financial management

systems, has achieved significant milestones and remains ongoing.

            achieved include:


. Completion of a market survey of 

  Federal financial management systems. Vendors 

            core financial management           all on the GSA

       schedule, presented demonstrations of their systems 
 a

  bread-based group of Agency representatives.


    Completion of a comprehensive "gap analysis" of current

    systems and the       functional              for a core

    financial management system.


    Completion of an "Organization Transformation Plan“ and a

    "Change Management Study" to guide 
 in transiticning 
 a

    new system.


.              of an analysis of Agency "as is" business process

    flows and descriptions, the application of industry and

    government "best practices" and business process

    reengineering, resulting in a set of "to be" process          and

    descriptions.   A comprehensive list o
 Agency

    including interface requirements, was              and presented

    to 
 staff and senior management, and over a three-day period

    tc 
   Agency offices and Bureaus. The 

    documentation presents an analysis and           of all core

    accounting functional requirements the          must acquire in

    a core financial management system.
       documentation will

    form the core component of a solicitation 

     An in-depth "Aiternatives Analysis" drafr is nearing

completion.   This document will present to      manaaement a

risk-adjusted cost benefit analysis of the alternatives (COTS, 

cross-servicing, and/or outsourcing) available to correct the

Agency's financial management system deficiencies.   The document

will also serve to support a request for           and funding

from the Capital Investment Review Board.

          In conjunction with the Financial Management Systems

Prcject, we           a Managerial Cost             Prcject to

analyze Agency cost accounting requirements.   It is led by the

Bureau of Policy and Program                 Team members

                                                                 r22�uWf0x ff
                                                                  2C53xRxG4xba




represent the Central and Regional Bureaus.
       companion

                         to date 


              of the methodology and configuration for a

  managerial cost            component of a COTS financial

  management system. The            of cost pools and

  distributions is undergoing final analysis 

  programs 
 a field Mission and Central         office.

              of an accounting                code 

        is nearing completion and is to be used 

                   a 
   core            system.

Additional Comments

     . Attachment A provides our response to the 

       draft 
              Attachment B provides addition.21

comments regarding the financial statements, as well as 

           with            laws and 
            and other
       .

                                                           APPENDIX II
                                                            Page 6 of 10




                                                     A



                     RESPONSE TO 


Recommendation No. 1.1: Determine the specific

responsibiiity, authority, and           needed tc meet the

requirements of the Chief           Officers Act cf 1993,

which assigns 
   Chief Financial 

    develop and maintain an                       and

financial             system that      federal financial

system requirements, federal accounting            and the

U.S. Standard General Ledger at     transaction        and
                manage financial            system         and
enhancement projects.                                    ,
Recommendation 
    1.2: Request by June 33, 1999, that the

               approve specific delegations 
 authority 

resources 
 the Chief Financial Officer 
 carry out those

Chief Financial            Act                idenrified 

                i 
 above.


               No. 1.3:   Implement policies and procedures tc

      out the           delegations          by the

Administrator In Recommendation 1.2, above.



     We agree 
        three parts of this 

will rake steps to clarify the 

                                                                                      APPENDIX II
                                                                                       Page 7 of 10




                                                                    ATTACHMENT B

                         ADDITIONAL COMMENTS


Overview        on   Performance

         On page 14 of the report it is stated thaf because the

final  version of
      overview was not received until February 2,

              was not 
      to conduct a comprehensive review.

While the February 2 date is correct 
       delivery 
 the final

version of the overview,          delivered to 
         a more

extensive version of the overview on              5, 1999, as agreed

with OIG staff several months earlier.      The       extensive

version contained all the                           included in rhe final

version.

Inadeauate Performance Measurement 

       The report indicates that                    performance indicators

precluded it from reporting accurate                                data and that

results information is not objectively                   verifiable, supported,

accurate, complete and/or validated.


                 has been very aggressive 
   working to comply with the

        mandate.       Based on the 
             have gained, we 

it 
                      to simplify 
   measurement         so that

              officials will understand and 
 ept which measures �.ord b e
                   readily and which cannot.     agree that where we

establish measures that rely on 
                   the data must

be readily available and routinely verifiable.   Measures 
    are

not effective and economical to maintain and to review should be

discontinued as is provided for in the 
                   PPC and

the CFO       will work on this issue 
              invite the

OIG staff to work with us on our 
     efforts 
 a continuing

basis.


Questionable Financial Data

              The draft audit report states that 

                      adjustments   to   the   general    ledger    related   to   the

Fund           with Treasury.
     entry was in fact supported by

an analysis of the differences between Treasury's balances and _

         balances at the appropriation level and disclosed in Note

2 to the financial statements. We recognize that further action

is required to resolve these differences and 
       this problem

has existed for too long, but we believe that the entry was

appropriate since Treasury will be 
       its Fund Balance amount

for     the    consolidated   governmentwide                       statements, and    not

              balance as stated in the draft report.                 In addition,

other agencies have made similar                                   to 

balances 
    agreement with Treasury's                  balances.

                                                                    r22�uWf0x ff
                                                                     2C53xixG4xba




Debt Collection and                Act of 1996

        The report states that there is a material non-compliance

issue with the Debt Collection and Improvement Act of 1996

          We agree that further improvements need to be made in

the management of the Agency's Accounts Receivable.    However,

given that the Accounts Receivable as            on the

Consolidated Balance Sheet only total $2 million, we do not

believe the weaknesses result in a material non-compliance issue.

Further, the requirement to transfer debt        180 days to

Treasury does not include debt owed in foreign currency or debt

owed by host governments, which constitutes most of 

Accounts 


Federal Credit Reform Act of 1990

        The report states incorrectly that the Agency is not in

compliance with the Federal Credit Reform Act of 1990 

that      credit program assets are overstated by        million.

However, as the auditor was informed by an official at the U.S.

Office of Management                     is to calculate its credit

            asset value using the model approved by OMB and         is

nos at              to go beyond the model as suggested by the
auditor.                    the balances are reasonably stated in   the
financial      statements.

                   Act

         The report indicates that        potentially violated the

                 Act because of the methodology used for making

letter of                advances. We do not agree that the method

used to advance         to recipient oraanizations would create a

violation of the Act and therefore             this section should be

removed from                 If actual violations of the Act were

identified            the Agency fund control procedures or OIG

audits, appropriate action would be taken.

Other   Issues


         We understand   that matters        tc LOC advances,

accrued                 and credit program receivables will be

discussed     more detail in the Management          tc the 

           Statements, Internal Controls, and Compliance for

Fiscal Year         to    issued March 31,         However,   we      

believe that     is important for this report,     recognize the

                                  has made in all three of these

areas.


  We have entered into a cross-servicing agreement with the

  Department of Health and Human 'Services for LOC advance and

  liquidation voucher processing.   This new arrangement when

  fully              this fiscal year will enable        to more

  effectively         its LOC advances and promptly liquidate

                                                                     r22�uWf0x ff
                                                                      2C53x xG4xba




                                     3

      advances.     addition, we intend to work      the OIG to see
      if the new core accounting system to be implemented in    2000
      can be configured to address the significant internal control
      concerns.

��   Regarding accrued expenditures, late in FY       FM introduced
      an accrual capability to the       This new capability permits
      the establishment of delivery schedules for services and
               The schedules may be          by         managers to
      reflect actual delivery. This              is used by      d 7n
      calculate the accrued expenditure based on physical
      completion.  While further refinement is needed, this process
      together with the accrual process    place at field accounting
      locations is a major step forward for the Agency.

      The Agency has entered into   contract with a major bank to
      provide credit-servicing functions fcr the Agency's credit'
      portfolios.  This contract includes     introduction of a
      modern      servicing system to be operated by the Bank with
      data transferred into the Agency's general ledger. This
      outsourcing constitutes a major improvement in the Agency
      credit management system and will allow the old credit
      legacy systems to be discontinued.
                     Are Not Year 2000

        While it is true as stated on          36     as
           1998,         had not "fully assessed     systems",
progress since that time means               decidedly does nor face
a "high risk" that its operations and programs will be disrupted
due to the       issues.
                      focus on     issues        in          with
        independent reviews aimed               the rhen-current
        and outlining isr���irnt�e for                      This was
        followed quickly in the late         of            the
                      of a prime contract          the
        contracting vehicle. With the award came               attention
        and      priority being placed on meeting       Agency's
                          By mid-February        several of the
                Critical systems had been renovated with one having
        passed through the validation phase. While the latest
        estimates reflect that full implementation of all Mission
        Critical systems will miss the      target date of March
        1999, all are scheduled to be              by mid-May 1999,
        with the exception of the       The NMS      scheduled to be
        implemented in July. Tracking of status is being
        accomplished via an Earned Value                    into
        via the prime contractor.
                                                                r22�uWf0x ff
4
                                                                 2C53xbaxG4xba
4




                                 4



              completed phase 1 of a Contingency Plan for the

     financial Mission Critical systems in December 1998. Phase 2

     is scheduled for completion by June 1999. In late January,

     attention shifted to contingency planning for our overseas

     locations. Specifically these activities focused on working

     with several other foreign affairs agencies 
 collectively
     establish a telecommunications network capable of providing
     continuity of service to our remote field locations. In
     addition,        has also been working with the State
     Department in an effort to ensure that their Contingency
     Planning Guidance 4GJxUSG overseas posts takes into account
           concerns.   This guidance will be issued next       with

              Missions developing their Contingency Plans in

     concert with the Embassies.


Management Decisions and Final Actions of Recommendations

          Several of the recommendations listed in Appendix V of

     the draft audit report as pending a management decision or

     final action already had a management decision or final

     action and were discussed with your staff.
 We appreciate the

     continued cooperation to have the Appendix reflect the

     ongoing work to obtain management decisions and final actions

     on all outstanding recommendations.

                                                                             APPENDIX III
                                                                               Page 1 of 7




                   OIG EVALUATION OF
                   MANAGEMENT COMMENTS




           management agreed with all three parts of the recommendation made in this report.
In agreeing with the recommendation,           management officials said that steps would be
taken to clarify the      responsibilities.            management has also provided
information regarding improvements made during fiscal year 1998 and additional comments
in response to the recommendation in the draft audit report.

In our evaluation, we are providing clarification regarding the improvements made during
fiscal year 1993. We are also providing our evaluation of             Overview of
Performance, Information Technology Accomplishments and Future Plans, and Year 2000
Compliance.


Clarification Regarding the Improvements Made During Fiscal Year 1998

We agree that          has made some improvements in the preparation of the fiscal year
financial statements. However, we did not draw a conclusion as to the fairness of the
statements’ presentation in relationship to the requirements of Office of Management and
Budget (OMB) Bulletin 97-01. We continue to believe that there are significant problems in
at least three areas:

       Automating accrual calculations at year end,

       Reconciling           fund balance with the U.S. Treasury, and

       Implementing OMB Bulletin

       Automating Accrual Calculations at Year End

In their response,         financial management officials said that improvements were made
in this area. While          has taken advantage of the system’s capacity to compute the
accruals for                       we believe that the methodology is not compliant with the
Statements for Federal Financial Accounting Standard No. 1, “Accounting for Selected Assets
and Liabilities.” as we reported in our Compliance Report.
                                                                                APPENDIX
                                                                                  Page 2 of 7


Specifically,          methodology computes accruals on a straight-line basis using the
scheduled completion date as the end date for the project. According to             financial
managers, the scheduled completion dates in the New Management System are questionable.
However,                       did not assess the continuing need for the unliquidated
obligations at the end of       years 1997 and 1998. Because unliquidated obligations are a
key component of the           accrual calculation methodology, we questioned whether
        should be accruing liabilities against these obligations. Details about this issue will
be discussed in our audit report on internal controls to be issued in March 1999.

Reconciling           Fund Balance with the U.S. Treasurv

GAO reported that reconciliation of the fund balance with the U.S. Treasury is a major
problem at 10 of the 22 agencies covered by the Chief Financial Officers Act of 1990. GAO
concluded that the reconciliation problems could affect the government’s ability to effectively
monitor the execution of the budget. Also, the lack of effective reconciliations of
disbursements contributes to the overall inability of the federal government to accurately
measure the full cost of its programs and increases the risk of fraud, waste, and
mismanagement.

In their response,       financial management officials said that improvements in data
quality occurred because a number of account reconciliations and analyses were being
completed.

We agree that          has made some improvements in reconciling cash on a monthly basis
during fiscal year 1998. The monthly reconciliation process is a fundamental accounting
practice. For example, federal agencies and U.S. Treasury use it as the key internal control to
ensure that receipts and disbursements are in agreement. The reconciliation process is a
          process. The first part is identifying the differences between the accounts and the
second part is promptly researching and resolving the differences. We noted that
accomplished the first part regularly, but did not successfully accomplish the second part of
the reconciliation.

After identifying the differences, which amounted to a net difference of $60 million ($590
million in absolute dollar value).        simply adjusted its books without conducting the

required research to determine whether the U.S. Treasury-reported account balances were

correct.


According to the GAO’s Standards for Internal Controls in the Federal Government,
documentation of transactions should be complete and accurate. The documentation should
facilitate tracing the transaction through its complete cycle--before it occurs, through
processing, and after it is completed. In our opinion, these adjustments did not meet the
GAO’s internal control standard.
                                                                              APPENDIX III
                                                                                Page 3 of 7


Implementing OMB Bulletin No. 97-01

We feel that         made a good initial effort to implement the major requirements of the
OMB Bulletin No. 97-01, “Format and Instructions for the Form and Content of Agency
Financial Statements.” However, the performance was not completely successful., We noted
the following problems.

       Statement of Budgetary Resources

We agree that         ensured that the Statement of Budgetary Resources was reconciled to
its Report on Budget Execution (SF-133). However. like the fund balance reconciliation
process noted above,         financial managers made adjusting entries to force a balance
between the Statement and the Report.

We do not believe that there was adequate support to document the adjustments made to
eliminate the difference between the Statement and the Report on Budgetary Execution.

       Statement of Net Cost

The Statement of Net Cost was not prepared in accordance with Statement of Federal
Financial Accounting Standard (SFFAS) No. 4, “Managerial Cost Accounting Concepts and
Standards.” For the fiscal year 1998 Statement of Net Cost,       did not develop
responsibility segments

According to the SFFAS           the Statement of Net Cost should provide program managers
with relevant and reliable information relating costs to outputs and activities that permits
program managers to respond to inquiries about the costs they manage. In addition, the
Statement of Net Cost is intended to assist the federal agency to ensure consistency’between
costs reported in general purpose financial reports and costs reported by program managers.

Because reporting responsibility segments were not developed and used,        program
managers cannot compare their program costs with the Statement of Net Cost, the objectives
of SFFAS No. 4 have not been met.

       Other Minor Noncompliance Instances with OMB Bulletin NO. 97-01

Based on our recent review on final financial statements and footnotes that were received on
February 26, 1999, we noted a number of other minor problems including inadequate
disclosures and inconsistent information within the financial statements.         statements
did not fully disclose the required items for the Balance Sheet, Statement of Net Cost, the
Statement of Budgetary Resources, and the Statement of Financing. For example,              did
not disclose obligated and unobligated information in the Note for fund balance with the U.S.
Treasury and unexpended appropriation information in the Note for Unexpended
                                                                               APPENDIX III
                                                                                 Page 4 of 7

Appropriations. Additionally, the Statement of Budgetary Resources and the Statement of
Financing and the Supplemental Information contain inconsistent information         their
data lines. We also noted that a number of items in the financial statements were not
properly captioned or published.


Information Technology Accomplishments and Future Plans

          comments also describe improvements made to financial management systems
during fiscal year 1998.          cited projects to implement a replacement core financial
system and a managerial accounting system. The comments describe accomplishments related
to these two projects and state that an alternative analysis was nearing completion. That
document is intended to provide a risk adjusted cost benefit analysis of the alternatives
available to correct the agency’s financial management system deficiencies. The document
will support a request for approval and funding from the Capital Investment ‘Review Board.

Although we agree that           has taken positive steps to add discipline to efforts to
implement the core financial system, this report and our companion Federal Financial
Management Improvement Act (FFMIA) status report pointed out that                approach is
flawed. This report points out that, although the CFO and CIO share responsibility to
implement an effective financial management system. the CFO has not been delegated
adequate responsibility and authority to do so and the CIO has not enforced the use of
disciplined processes.

The FFMIA status report pointed out that            had made only limited progress correcting
system deficiencies during fiscal year 1998 and that planning and organizational deficiencies
threaten its efforts to successfully modernize its systems. In particular,        plan to
acquire the core financial system is premature because it has not yet:

              completed an agency-wide information architecture that provides a blue-print of
              how all the related systems will work together to meet financial management
              needs;

               developed a modular acquisition strategy to reduce integration risks and lead to
               an integrated financial management system; and

       (3)	    prepared the supporting plans describing the remedies, resources, and interim
               milestones needed to correct the deficiencies.

These deficiencies create a substantial risk of delays, cost increases, and system performance
shortfalls and are an indication that         is repeating past mistakes that led to premature
deployment of the New Management System -a system that does not operate effectively.
                                                                                  APPENDIX III
                                                                                    Page 5 of 7


That report also found that the      of a strong program management office or function
contributes to these planning deficiencies.

By. continuing to highlight its plans to replace the core financial system as progress,
is risking an approach that may succeed. For example, although                 comments state
that its alternatives/investment analysis will provide a risk adjusted cost benefit analysis of the
alternatives available to correct the agency’s financial management system deficiencies, the
analysis being developed is limited to the core financial management system. As a result, it
will not consider other financial and mixed financial systems such as budget, procurement,
human resources, and property management.


Overview on Performance

In its response,        provided comments on its planned actions to implement the
Government Performance and Results Act. The OIG will continue to work with                    in its
efforts to implement this law.

         took issue with the      statement that we could not comprehensively review the
fiscal year 1998 Overview on Performance                section because          management
did not give us a copy of its     version until February 2, 1999 (containing 18 pages). They
contended that the earlier more extensive January 5th version (containing 55 pages) provided
to the OIG contained all the information that was included in the final version. In effect,
         was implying that we had time to effectively review the Overview prior to February
EF27

We agree that we received the first version of the Overview on January 5th. However, within
one week of this receipt, we notified         management that the Overview contained some
obvious, omissions (e.g. blank spaces, missing appendices and charts). We were told that
these omissions would be corrected. However, this correction did not take place until we
received the final version of the Overview on February 2, 1999. At the exit conference on
February        there were some         officials who believed that the January 5th version
was in fact the final version.

Although we did             some audit work on the initial version of the Overview, ‘it was not
practical or efficient for us to perform a comprehensive review of the Overview until we had
the final version. Otherwise, we would be in position of reviewing something that was not
in the final version, or more importantly, reviewing           facts and conclusions, that
changed between the first and final versions-which is what actually happened. To
extensively review what             and the OIG knew to be a draft (first version), we believe is
not an efficient and effective use of our time.
                                                                                    APPENDIX III
                                                                                      Page 6 of 7


The                  enough audit work over the last year on              performance
measurement system so that we were in a              to relate that work to specific issues
discussed in the Overview. However, we were not in a position to confirm all of
      and conclusions as stated in the Overview. We made our own assessment based on
sufficient, independent, and competent audit work-as required by professional standards.
Because of the short lead time between receipt of the Overview on February            the issuance
of our draft report on February      and the legislatively mandated issuance of our final report
by March lst, we maintain that we could not comprehensively review the fiscal year 1998
            Report on Performance.


          Computers Are Not Year 2000 Compliant

Regarding our conclusion that             faces a high risk that its business operations and
programs will be disrupted at the start of the new millennium,               agreed that, as of
September 1998, it had not fully assessed its computer systems. However,                  stated that
progress since that time means that it does not face a high risk of disruptions.
recognized that it got a late start addressing the problem but cited a May 1998 contract that
focused attention on the problem. According to the comments, by May 1998 several critical
systems had been renovated and one validated as being able to process year 2000 dates.
        conceded that its systems will not be compliant in time to meet                schedule, but
noted that all systems are scheduled to be compliant by July 1999. Regarding contingency
planning,          stated that it has made progress developing a contingency plan for financial
systems, which it expects to complete in June 1999.                    stated that it is working
with the Department of State to develop contingency plans for overseas missions.

We agree that           has strengthened its approach to address Year 2000 vulnerabilities, but
we also continue to believe that           faces a high risk of disruptions. The contractor has
added discipline to management efforts by developing realistic schedules and closely tracking
progress. However, as stated in our report, due to the scope and complexity of the changes
needed, and the limited time remaining,             faces high risks. In fact,          latest
quarterly progress report to OMB, dated February 12, 1999, pointed out that additional
problems were discovered when validating which mission                systems could process dates
involving the year 2000 and beyond. The three systems that were farthest along in the
correction process all encountered schedule delays, which means that none of
systems will be implemented by the OMB scheduled due date of March 1999. The Assistant
Administrator for Management stated that the unanticipated delay in completing
implementation of the three mission critical systems is of grave concern.

Regarding contingency planning,           operates in Washington and at over 70 overseas
missions located in developing countries around the world. This worldwide operating
environment increases risks to           operations and employees. The risk is compounded
because many developing countries, where            operates, are expected to encounter
                                                                                 APPENDIX III
                                                                                   Page 7 of 7


disruptions in basic functions including power, telecommunications, water, and
We believe           will not be in a position to have confidence that its operations will not be
disrupted until it completes and tests contingency plans that address both its business
operations and its ability to safeguard its overseas staff.


Other OIG Comments

Debt Collection and Improvement Act’of 1996

         financial management officials agreed further improvements are needed to
manage the account receivables but they stated that the issue was not material. We
considered           management comments and agree with their position. The final report did
not include this issue.

Federal Credit Reform Act of 1990

         management said that it believed that. the balances for its loan receivables are
 reasonably stated.         management also stated that it had calculated its credit program
asset value using the model provided by the OMB. In a discussion with OMB, we were
           that        could not deviate from the OMB model. even if the model conflicted

 with the requirements of the federal accounting standards. While we do not agree with the

 OMB position,           financial managers acted in accordance with guidance provided to

 them.


 We intend to pursue this issue with OMB and GAO during the fiscal year 1999 audit.

 Antideficiencv Act

         management did not agree that the method used to advance funds to recipient
 organizations would create a violation of the Antideficiency Act. We considered
 management comments and agree with their position. The final report does not include this
 issue.

 Management Decisions and Final Action of Recommendations

         management said that several of the recommendations listed in Appendix V of the
 draft audit report as pending management decision or final action. We have discussed these
 issues with          management and made the adjustments to the final report, as needed.
This page left intentionally blank.
                                                                                hww�aMHu3 HD
R
                                                                                whd�3 1 �c3 NO
R




                    PREVIOUSLY IDENTIFIED MATERIAL
                             CONTROL WEAKNESSES




This appendix discusses the previously identified material control weaknesses that.still exist.


         Primary Accounting System

         primary accounting system did not (1) meet the Federal financial management
system requirements, (2) comply with applicable Federal accounting standards, and (3)
implement the United States Standard General Ledger at the transaction level.


           Financial Management System

        lacked an integrated financial management system.            commenced operation of
the New Management System in October 1996. However, ‘due to serious problems,
USAID/Missions were instructed to discontinue using the New Management System and go
back to using the Mission Accounting and Controls System. In addition to these systems,
        used many lesser systems, such as the Loan Accounting Information System, General
Ledger Accounting and Reporting System, Letter of Credit Support System, and various
informal records. These systems required data re-entry, supplementary accounting records,
and lengthy and burdensome reconciliation processes without sufficient discipline, effective
internal controls, and reliable information. As a result,        had insufficient assurance that
the financial information reported was complete, reliable, timely, and consistent.


Data Reconciliation

        did not always perform data reconciliation’s in a timely manner. This occurred, in

part, because 
      had not developed and implemented an integrated accounting and

financial management system.

                                                                               APPENDIX fi
                                                                               PAGE 2 OF 12


Suspense Appropriation

For fiscal year 1997,          had an unidentified balance of over $29 million in suspense
appropriation                     did not properly identify and post the transactions to the
correct appropriation. Instead, the transactions were posted directly to suspense appropriation
           Thus,         avoided the receipt of a Statement of Difference from the
Department of Treasury, which is required to be reconciled on a monthly basis. Treasury
Financial Manual, Part 2, Chapter 3900, states that Agencies should:

       1) Verify the amounts of transactions and transaction codes to ensure that each
       transaction is correct, 2) Adjust any differences in the agencies records and 3)
       Notify the United States Treasury of any processing discrepancies.

As a result         can not provide financial statements that are complete, reliable, timely,
and consistent.

Differences in the General Ledger and the Letter of Credit Support System

        had an unreconciled difference of approximately $46 million between the general
ledger and the Letter of Credit Support System. This occurred because         had not taken
action to identify and correct prior year differences. As a result.      Advances and
Prepayment balance may be misstated in the financial statements.

         of

Because of the lack of adequate reconciliations, outstanding Advice of Charge expenditures of
over $238 million as of September 30, 1997. were not properly applied against an appropriate
obligation. This amount represents a 345 percent increase from the September 30, 1996
balance of $69 million. As a result, no means exist to readily determine whether these
expenditures were made for goods or services received by            until the       of charge
are cleared.

Fund Balance with Treasury

         has material unreconciled differences of over $1.94 billion in the Fund Balance with
Treasury account.          did not properly research and reconcile differences identified
between its general ledger balances and the Department of Treasury’s balances throughout the
fiscal year. In an attempt to ensure that the balances ‘maintained in           general ledger
agreed with balances maintained by the Department of Treasury,              improperly adjusted
the differences into Account No. 4801, Undelivered Orders, thereby overstating
                                                                                              APPENDIX IV
                                                                                              PAGE 3 OF 12


obligations. Department of Treasury Bulletin No. 97-06 states that agencies should verify
their records each month against the transactions recorded by the Department of Treasury, as
shown on the Department’s monthly reports.’ This bulletin further states that if agencies do
not perform the monthly reviews, errors may be discovered during budget preparations and
year-end certifications. As a result,          Fund Balance with Treasury is potentially
misstated.


Use of United States Standard General Ledger at the Transaction Level

         did not record Accounts Receivables in accordance with the United States Standard
General Ledger at the transaction level.         did not have an integrated accounting and
financial management system, which included Accounts Receivable.

         relied on data      to obtain the total amounts of outstanding Accounts Receivable
because           did not have an integrated accounting and financial management system.
These data calls were posted to the General Ledger at the summary level as opposed to the
transaction level as required. By using data calls to determine outstanding Accounts
Receivable,           was at risk that the’information obtained is not complete. For instance,
           summarization of these data calls improperly omitted the Office of Procurement’s
outstanding Accounts Receivables.

Manually Processed Journal Vouchers

        continued to have a high number of manually processed journal vouchers.
did not’ establish and implement procedures to ensure continual supervision of these journal
vouchers to ensure that adjusting entries are correct. As of September 3,        27 percent of
the 301 manually processed journal vouchers were recorded to correct previously posted data.
Seventy-one percent of the 301 manually processed journal vouchers did not have supervisory
approval.




                These       are Financial Management Services Form 6653, “Undisbursed Appropriation
Account Ledger,” and Financial Management Services Form 6655, “Receipt Account Ledger.,”

                 Data calls is a term used to describe the process of requesting various offices to provide
outstanding balances as of year end.

                 Note that although September       1997, ended the fiscal year, journal vouchers continued to be
posted through         1998.
                                                                                             APPENDIX IV
                                                                                             PAGE 4 OF 12

Debt Collection Acts of 1982 and 1996

         did not implement policies and procedures to ensure. compliance with the
requirements of the Debt Collection Acts of 1982 and 1996. Specifically,            did not (1)
always provide debtor with “due process rights” when demanding payment on outstanding
debts, (2) always automatically refer delinquent debts in excess of 180 days to the United
States Treasury for the recovery of agency debts, (3) did not provide information regarding
the issuance or guarantee of credit to consumer credit reporting agencies.

Reconciliations of Budget Clearing Accounts

                      had not reconciled balances in its budget clearing accounts as of
September 30, 1997. These balances had not been cleared because                    Office of
Financial Management, had not established and implemented written                     for
reconciling and clearing outstanding differences within the budget clearing accounts.
Treasury Financial Manual Bulletin               Volume 1, requires Federal agencies to clear
out all budget clearing accounts at              Further, all amounts contained in budget
clearing accounts must be transferred to the proper account on the September 1997, Statement
of Transactions submission. As a result of the untimely reconciliation’s, the appropriation
balances for fiscal year 1997 are potentially misstated by over $29 million.’ In addition,
uncleared differences distort the budget results of the United States Government in
government-wide financial statements and could affect               appropriation requests.
Furthermore, the ability to discover possible loss, fraud, or irregularities is limited if the
discrepancies are not reconciled and cleared.

Direct Loan Program

The above reconciliation problem continues to exist because the two systems used to record
and report loan activity are not integrated. In addition, adequate reconciliation’s are not
performed to ensure the accuracy and consistency of the data in both systems.



                 When differences exist between the amounts an agency reports and the amounts recorded by
the Department of Treasury, the Department of Treasury sends a statement-Financial Management Services
Form 6652, Statement of Differences-to the agency on the disbursement and deposit transactions. If the agency
does not reconcile the differences within six months of the accomplished date, as reported on this statement, the
Department of Treasury automat&y charges the difference to the budget clearing accounts.

                 As of September 30, 1997,                 had the following balances in its budget
clearing accounts: (1) Account        (Disbursements) $150.00; (2) Account          (Deposits)
            and (3) Account         (Agency Suspense Account)
                                                                               APPENDIX I V
                                                                               PAGE 5 OF 1 2


Differences between the two system arise when financial data is processed in one system and
not in the other system. Differences also arise when financial data is manually entered in the
systems without proper supporting documentation.

Reviews of Obligated and Unobligated Balances

                      did not review obligated and unobligated balances as part of certifying
the account balances of appropriations in fiscal year 1997. The Office of Financial
Management did not establish procedures for conducting this review in Washington to ensure
the validity of recorded obligations in the new core accounting system. As a result,
potentially over-obligated its appropriations. Further, the Office of Financial Management did
not have a reasonable basis to certify that the obligations were proper and that the amount of
unobligated balances or expenditures incurred were proper.

The Supplemental Appropriations Act of 1955 (Title 31 of the United                   Section
1501) provides that no amount shall be recorded as an obligation unless it meets specified
criteria. Further statements of obligations furnished to the Congress or to any of its
committees shall include only amounts representing valid obligations. Title 31 of the United
States Code, Section 1108(c) requires that agency heads support their appropriations request
with a certification of the obligated balances. Treasury Financial Manual, Section 2-1000,
“Regulations Governing Reporting of Information Relating to Year-End Status and Closing of
Appropriation and Fund Accounts” states:

       The primary responsibility for reviewing the status of its accounts rests with the
       agency             the appropriation or fund. Each agency, in order to properly
       certify obligated and unobligated balances...must verify its own accounts at least
       once a year. Accordingly, agency management should be aware that they are
       certifying that obligations are proper and that the amount of obligations or
       expenditures incurred is proper.


                     did not review the obligated and unobligated balances as part of
certifying the account balances of appropriations for fiscal year 1997. Prior to fiscal year
1997, the Office of Financial Management was responsible for recording all obligations and
deobligations into the accounting system. However, the deployment of the New Management
System required           management to re-engineer its processes for recording obligations
and deobligations. Consequently, the Office of Procurement and other U&AID/Washington
offices were assigned the responsibility of recording obligations and deobligations in the new
accounting system. Because of this change, the Office of Financial Management did not have
the required documentation to conduct the reviews of fiscal year 1997 obligations and
                                                                                   APPENDIX IV
                                                                                   PAGE 6 OF 12

 deobligations to ensure that the appropriations balances were valid. Therefore, the Office of
 Financial Management needed to perforrn the role collaboratively with other
                     offices that recorded obligations and deobligations.

 Office of Financial Management officials informed us that the lack of this review caused

 problems during the preparation of the year-end Closing Statement. Further, they said that

 this material weakness should be addressed by          Management Control Review

Committee.

 In November 1997, the Office of Financial Management made the following certifications
 regarding the obligation balances for fiscal year ending September 30, 1997:

        .    each appropriation account of the agency reflect proper existing obligations
        and that the expenditures from the account since the preceding review were
        supported by a proper obligation of funds and otherwise meet the criteria of 31
        U.S.C. 1501 (A).

 Since                       did not review the obligated and unobligated balances for fiscal
 year 1997, the Office of Financial Management did not have a reasonable basis on which to
 certify that the obligations were proper and that the amount of unobligated balances or
 expenditures incurred were proper. Further,                       did not review the

 obligations and unobligated balances for fiscal year 1998.



 Letter of Credit Disbursements

           financial management staff does not properly match disbursements with the

 obligating documents at the time of the transactions.           procedures for making

 disbursements also do not require recipient organizations to identify the appropriate

 obligation. As a result, 
      management did not have sufficient assurance that all

 disbursements made-about $1.69 billion in fiscal year                authorized, propel
 and
 correct, and that all disbursements were accurately recorded and reported.

 Title 7, Appendix III, Chapter 6 (Disbursements), of the General Accounting Office’s
 and Procedures Manual for Guidance of Federal Agencies, dated May 1993, states:

         The disbursements shall be supported by basic payment documents, in the form
         of hard copy or machine readable source records, including purchase orders,
         contracts, receiving reports, invoices, bills, statements of accounts, etc., showing
         sufficient information to adequately account for the disbursements. The
                                                                               APPENDIX IV

                                                                               PAGE 7 OF 12



      documentation should link all supporting records and enable audit of the
      transactions and settlement with the certifying or disbursing officers as required
      by law.

Further, the General Accounting Office’s, Standards for Internal Controls In the Federal
Government, dated 1983, requires that transactions be promptly recorded and classified.­

         staff made disbursements to recipients at the organization level based on funds
availability, and may have made disbursements for obligations that had not been recorded.
We identified 13 Letter of Credit Financial Status Reports totaling $3.4 million that were not
registered in the accounting system because the obligation had not been recorded. Because
the accounting system does not facilitate tracing disbursements through liquidation, it is
unclear whether the obligations had been exceeded.

Office of Financial Management officials said that the Letter of Credit Support System does
not allow            requests to be approved for more than the available balance in the Letter
of Credit. They further said that the requirement to link the disbursement to the obligating
document “was all new information”.

Without linking the document, however, nothing prevents a               from exceeding the
obligation at the grant level. According to a representative of the General Accounting Office,
this problem with Letters of Credit is a government-wide problem that is currently under
review by the CFO Council. As a result,            management did not have reasonable
assurance that all disbursements were authorized, proper, and correct, and that all
disbursements were accurately recorded and reported.


Letter of Credit Financial Status Reports

          account balances for governmental advances and prepayments may be-materially
overstated, and the balances for operating expenses may be materially understated. These
unreliable balances occurred because the Office of Financial Management did not track all
Letter of Credit Financial Status Reports to ensure that they are recorded. As a result,
        management does not have reasonable assurance that the financial statements are
complete, reliable, and consistent.
                                                                                               APPENDIX IV
                                                                                               PAGE 8 OF 12


The Cash Management and Payments Division identified a universe of 86 Letter of Credit
Financial Status Reports totaling over $26 million that had not been recorded! However, we
determined that at least 530 reports, totaling over $264 million,’ also had not been fully
recorded. All of these reports required an adjustment to prevent the line items for
governmental advances and prepayments from being overstated and operating expenses from
being understated. According to officials in the Office of Financial Management, the
adjustments were made subsequent to our review. However, because of the uncertainties
about the completeness of the universe made available to us, we are not sure of the absolute
impact on the financial statements.

The Cash Management and Payments Division could not readily identify the unrecorded
reports because it needed to implement a formal tracking system. Office of Financial
Management officials said that the recording of the reports was delayed because
management decided in March 1997 to use the New Management System for Letter of Credit
Agreements. However, the data processed for the first half of the year could not be recorded
in the new system. As a result, the Letter of Credit team spent the second half of the year
manually posting the data processed during the first half of the fiscal year and current
transactions.

        management has taken corrective action to implement an informal tracking system as
a temporary solution until the Letter of Credit Support System can be replaced with a system
that provides tracking capability.


Accrued Expenditures for Advances and Prepavments

          account balances for advances and prepayments may be materially overstated and
the related expenditures may be materially understated by at least $68 million because the
Office of Financial Management did not properly accrue expenditures in accordance with
applicable Federal accounting principles.




                   The recording of these reports by financial management staff is done in three stages. The
stage is report registration, which has no accounting impact. The second and third stages are report approval and
certification, respectively. Both of these stages have an accounting impact.

                   The 530 consists of 13 reports totaling over S3.4 million that had not been registered, approved
or certified; 465 reports totaling over $232 million had been registered, but not approved and certified; and 52
reports totaling over $29 million had been registered and approved, but not certified.
                                                                                      APPENDIX IV
                                                                                      PAGE 9 OF 12


The Statement of Federal Financial Accounting Standard No. 1, which became effective in
Fiscal Year 1994, states:

       Advances and Prepayments are reduced when goods or services are
       received...Advances should be initially recorded as an asset and should be
       subsequently reduced when expenses are actually incurred.

Office of Financial Management officials said that the Cash Management and Payments
Division had not been tasked or aware of the responsibility to adjust these accounts. We are
currently assisting the Cash Management and Payments Division with identifying and
establishing a methodology for accruing expenditures and adjusting advances and prepayments
processed through the Letter of Credit Support System until a compliant integrated accounting
and financial management system is established.

As a result of not adjusting the accounts, the financial statements may not be complete,
reliable, and consistent. The Office of Financial Management needs to develop and
implement a methodology to appropriately estimate the amount of expenditures against
outstanding advances and prepayments.


Reports To
Regulatory Agencies

The Office of Financial Management inconsistently reported unobligated balances to Federal
regulatory agencies and did not file quarterly reports on its budget execution during FY 1997.
The staff attributed these problems to human error. Further, the Office did not conduct
second party reviews or perform management oversight prior to submitting the reports. As a
result,           reports to    regulatory agencies contained errors totalling an absolute
difference of over $143 million.

The Office of Financial Management reported unobligated balances to the Department of
Treasury which were inconsistent with the unobligated balances reported to the Office of
Management and Budget for the same balances. This inconsistent reporting occurred on the
Report on Budget Execution* and the Year-End Closing Statement.’




                 The Office of Management and Budget’s Standard Form 133,” Report on Budget Execution,”
reports budgetary resources, status of budgetary resources, and relation of obligations to outlays.
                                                                                           APPENDIX IV
                                                                                          PAGE 10 OF 12



Preparation of Program
Performance Measures

        and its operating units did not follow          policies and procedures for establishing
performance measures and performance monitoring systems because (1) the operating units
did not fully understand the policies and procedures, (2) operating units had not yet instituted
procedures to validate data reported by their partners (e.g,. private voluntary organizations or
host governments), and (3)           was still developing common indicators. To facilitate the
use of better indicators by operating units and to facilitate           ability to aggregate
program results,          needs to complete its efforts to establish a common set of indicators.

          internal control guidance (TIPS No. 6) states:

        Performance indicators are at the heart of a          monitoring system-they
        define the data to be collected to measure progress and enable actual results
        achieved over time to be compared with planned results. Thus, they are an
        indispensable management tool for making performance-based decisions about
        program strategies and activities.

           policies and procedures (Automated Directive System Section E203.5.5) require
        and its operating units to establish systems for monitoring performance which meet
        standards for developing performance indicators and baseline data, managing and
documenting the process for data collection, and ensuring the quality of performance data.
        and its operating units shall define performance indicators for which quality data are
available at intervals consistent with management needs and that are direct, objective,
practical and one-dimensional. Quantitative performance indicators are preferred and shall be
used in most cases. If qualitative indicators are used, they must be defined to permit regular,
systematic and relatively objective judgement regarding change in the value or status of the
indicator.

          policies and procedures require that data quality be assessed as part of the process
of establishing performance indicators and choosing sources and methods for collecting data.
Also, to the extent possible, comparable data for all strategic objectives that encompass more
than one country shall be collected and reviewed regularly. The operating units’ Strategic
Plans are to include the performance indicators, targets and, to the extent possible, baseline


                  The Financial Management Service’s                 Closing Statement” is a reconciliation

tool used by an agency and the Department of Treasury to track amounts available under the various agency

appropriations at the end of the fiscal year.

                                                                                    APPENDIX IV
                                                                                   PAGE NNn OF N�


data. The “Results Review and Resources Request Reports” (Results Reports) are to report
annually the progress toward achieving the anticipated program results. The policies and
procedures further state that        needs to ensure that information on performance and
results are used in decision-making for          resource allocation.

In our March 1998 audit report on GMRA, we identified problems with common indicators.
Specifically, we recommended that Agency management establish a common set of indicators
for use by its operating units to measure progress in achieving            strategic goals and
objectives and that allow for the aggregation of program results reported by operating units.
As of February 1999, the OIG and Agency management had not reached a management
decision on this issue. This has not been the first time we have brought the issue of common
indicators to          management. We had previously identified problems with
development of common indicators in a June 1995 audit                The recommendation in
that report to develop plans and time frames for establishing and monitoring a set of common
indicators for          strategic goals      objectives) was closed by the Bureau of
Management based on                assertion that the common indicators would be developed by
November 1997.

Integrated Management System      Reporting
Program Results and Related Funding:

         has not yet developed and maintained an integrated system for reporting program
results and related funding. The lack of a compliant integrated accounting and financial
management system inhibits                ability to relate (1) obligations and expenditures to
           overall strategic goals and objectives, and in support of each operating unit’s
strategic objective and intermediate results; and (2) program results to budget components
included in its financial statements. This in turn impairs                ability to manage for
results and to report results in relation to funding.

Annual Reports
on Program Results

        has not designed and implemented effective policies and procedures to enable
to comply with the Office of Management and Budget’s current and future requirements for
reporting program results under the Government Management and Reform Act of 1994. This
occurred because (1)           has not emphasized to its operating units the importance of
reporting on a fiscal year basis and has not ensured that the results reported occurred during


                  Audit on      Systems for Measuring Program Results (Audit Report No. l-000-95-006,
June 30, 1995).
                                                                                      APPENDIX IV
                                                                                     PAGE 12 OF 12


that period, and (2) the Chief Financial Officer did not fulfill all his requirements under 8,)
 Chief Financial Officers Act of 1990 to maintain an integrated agency accounting and
 financial management system which includes financial reporting and internal controls for the
 systematic measurement of performance.

We reported in March           serious problems with the program results identified in the
overview section of            consolidated financial statements and the Annual Performance
Report for fiscal year 1996. Neither of these reports provided a clear and concise description
of          1996 accomplishments compared to what was anticipated; but, instead the reports
contained mostly information from earlier years. Both reports also reported high-level results
that were difficult, if not impossible, to attribute to        activities.




                Second Survey Report on           Implementation of the Government Performance Act of
 1993 (Audit Report No. 9-000-97-002-S, March 31, 1997)
                                                                               APPENDIX V

                                                                               PAGE 1 OF 7





               STATUS OF UNCORRECTED FINDINGS AND

               RECOMMENDATIONS FROM PRIOR AUDITS

                 THAT AFFECT THE CURRENT AUDIT

                           OBJECTIVES





Office of Management and Budget Circular, aG_3A-50 states that a management decision on audit
recommendations shall be made within a maximum of six months after issuance of a final report.
Corrective action should proceed as rapidly as possible. The following
directed to        remain uncorrected and final actions have not been completed at the time of
this report.

Audit of the Fiscal Year 1994 Annual Financial Statement
for          Housing Guaranty Program Under the CFO Act
Audit Report No. O-000-95-037 June 30, 1995

Recommendation No. 1:        We recommend that the          Chief Financial Officer fully
develop and implement adequate claims and receivable controls which address the concerns
raised in the FY 1994 Deloitte and      audit report.

Recommendation is pending final action by


Audit of          Miscellaneous U. S. Dollar Trust Funds Financial
Statements for the Years Ending September 30, 1995 and 1994
Audit Report No. O-000-96-013 April 1, 1996

Recommendation No. 1:         We recommend that               Chief Financial Officer establish
procedures to assure that receipts, expenditures and balances of the U.S. Dollar Advances from
Foreign Governments Trust Fund are periodically verified with the participating host
governments

Recommendation is pending final action by
                                                                                  APPENDIX V
                                                                                  PAGE 2 OF 7

Audit of          Direct Loan Program Financial
Statements for the Year Ending September 30, 1995,
Audit Report No. O-000-96-017 July 1, 1996

Recommendation No. 1:         We recommend that Direct Loan Program Division Chief:

1.1   Establish detailed policies and procedures which provide adequate guidance to Direct Loan
Program employees to properly execute day-to-day transactions;

1.2    Train Direct Loan Program Personnel to properly execute day-to-day transactions;

1.3    Reconcile applicable subsidiary ledger balances to the general ledger; and

1.4     Establish internal controls, with the proper segregation of duties and checks and balances
that will ensure, to a higher level, that transactions are properly recorded.   ,

Recommendation is pending final action by


Reports on          Financial Statements, Internal
Controls, and Compliance for Fiscal Year 1996
Audit Report No. 0-000-97-001-C February 24, 1997

Recommendation No. 1:         We recommend that               Chief Financial Officer:

1.1    Develop and implement procedures to ensure that journal vouchers for the general ledger
are properly prepared by accounting    and reviewed by supervisors;

1.2     Require that journal vouchers be adequately supported prior to entering the financial data
into the general ledger; and

1.3    Provide adequate supervision to ensure that all adjusting entries entered into the general
ledger system are supported and authorized.

Recommendation is pending final action by 


Recommendation No. 2:         We recommend that               Chief Financial Officer:


2.1     Identify and reconcile all suspended and unapplied balances;

2.2     Develop and implement detailed written procedures, which provide adequate guidance to
the financial management staff for properly recording transactions as they occur;
                                                                                    APPENDIX n
                                                                                    PAGE 3 OF 7

2.3    Develop and implement detailed written procedures to ensure that personnel perform
timely reconciliation’s and the identified differences are resolved;

2.4    Provide qualified and continuous supervision to ensure that personnel properly perform
reconciliation; and

2.5    Require documentation of the second party reviews to ensure that personnel properly
perform reconciliation and resolve the differences.

Recommendation is pending final action by 


Recommendation No. 3:         We recommend that                Chief Financial Officer:


3.1    Establish an internal committee within the Financial Management Division responsible
for ensuring that applicable accounting standards and Office of Management and Budget
requirements are properly implemented;

3.2    Develop written procedures and methodologies which are in compliance with the
applicable standards established as required by the committee mentioned above;

Recommendation is pending final action by

3.3    Investigate and resolve the apparent over-expended obligations; and

Recommendation is pending a management decision by


REPORTS ON               FINANCIAL STATEMENTS,
INTERNAL CONTROLS, AND COMPLIANCE
FOR FISCAL YEARS 1997 AND 1996
Audit Report No. 0-000-98-001-F March 2, 1998

Recommendation No. 1:          Until         implements a compliant accounting and financial
management system, we recommend that the Chief Financial Officer ensure that the account
balances for appropriations are reviewed for validity at least annually to properly certify obligated
and unobligated balances pursuant to Title 31 of the United States Code, Section

Recommendation is pending final action by
                                                                                       APPENDIX V
                                                                                       PAGE 4 OF 7

     Recommendation No. 2:       Until         implements a compliant accounting and financial
     management system, we recommend that the Chief Financial Officer implement a tracking system
     for Letter of Credit Financial Status Reports and ensure that all transactions are promptly
     recorded.

     Recommendation is pending final action by

     Recommendation No.             Until         implements a compliant accounting and financial
     management system, we recommend that the Chief Financial Officer develop and implement a
     methodology to accrue expenditures and adjust outstanding advances and prepayments to ensure
     that the financial statements are not materially overstated.

     Recommendation is pending a management decision by

     Recommendation No. 4:       We recommend that the Chief Financial Officer require that figures
     be adequately supported by the general ledger before transmission to the regulatory agencies.

     Recommendation is pending final action by

Recommendation No. 5:            We recommend that the Assistant Administrator/Bureau for Policy
    and Program Coordination establish a common set of indicators for use by operating units to
    measure progress in achieving            strategic goals and objectives and that allow for the
    aggregation of program results reported by operating units.

     Recommendation is pending a management decision by

     Recommendation No. 6:        We recommend that the Chief Financial Officer develop plans and
     time frames for           accounting, and financial management system to permit, tracking of
     obligations and expenditures according to             overall strategic goals and objectives and in
     support of each operatin, unit’s strategic objective and intermediate results.

     Recommendation is pending final action by

     Recommendation No. 7:         We recommend that

     7.1   Establish procedures to ensure (1) operating units report results for the year ended
     September 30 and (2) results reported in the’overview section of        financial statements
     and Annual Performance Report be clearly shown as achievements for that year; and

     Recommendation is pending a management decision by

     Recommendation No. 8: We recommend that the Chief Financial Officer:
                                                                                APPENDIX i
                                                                                PAGE OF 7
8.1     Implement a comprehensive policy that will incorporate an automatic assessment of
interest charges against all delinquent receivables, and that these assessments be actively
monitored for managerial and statutory reporting purposes; and

Recommendation is pending final action by

Recommendation No. 9:         We recommend that the Chief Financial Officer develop and
implement policies and procedures to ensure adherence to the requirements of the Debt Collection
Act of 1982 and           Collection Improvement Act of 1996. These policies and procedures
should at a minimum ensure that:

9.1	   All billing offices incorporate due process rights into demands for payment;

       All delinquencies in excess of 180 days are identified in a timely manner, and referred
to the United States Treasury; and

       The issuance or guarantee of consumer credit is reported to consumer credit reporting
agencies.

Recommendation is pending final action by


Interim Audit Report of Acordia Healthcare Solutions, Inc.,

Excess Federal Cash Being Held Contract No. FAO-C-00-93-00012-00;

Audit Report No. 0-000-98-002-F March 26, 1998


Recommendation No. 3:         We recommended that             Office of Financial Management
return all the funds recovered from the Acordia Healthcare Solutions, Inc. contract to the U.S.
Treasury when it has determined that these funds are no longer needed for claim payments.

Recommendation is pending a management decision by


Review and Certification of Unliquidated Obligations
for Project and Non-Project Assistance,
Audit Report No. 9-000-98-003-F March 27, 1998

Recommendation No. 3:          We recommend that the Bureau for Management develop a training
course and/or training video, to be provided to appropriate staff, describing roles and
responsibilities for reviewing unliquidated obligations.

Recommendation is pending a management decision by
                                                                                APPENDIX V
                                                                                PAGE 6 OF 7
Audit of                     Review and Certification of
           Obligations for Project and Non-Project Assistance
Audit Report No. 9-000-98-004-F March 30, 1998

Recommendation No. 3:        We recommend that:

3.2     the Office of Financial Management, Bureau for Management, lead 

efforts to review and deobligate the balances described in Appendix V of this report.


Recommendation is pending final action by


Audit of                    Review and Certification
of Funds Obligated for Operating Expenses
Audit Report No. A-000-97-001-P February 7, 1997

Recommendation No. 1:        We recommend that

1.2   ensure adequate staffing and supervision for the Section 13 11 review process in Bureau
for Management Operating Branch and Loan Management Division: and

1.3     ensure that Bureau for Management Accounting Division completes its
control and risk assessment of the Operating Expense Branch and takes action to correct any
deficiencies noted.

Recommendation is pending final action by


Audit of         Assessment of the Year 2000 Problem
Audit Report No. A-000-98-006-P

Recommendation No. 1:         We recommend that the Administrator clarify the assignment of
responsibility to implement an effective Year 2000 compliance program and provide the
responsible official with adequate authority and resources to complete the program.

Recommendation is pending final action by

Recommendation No. 2:      We recommend that the responsible official for the Year 2000
compliance program direct         Bureaus and Missions to develop and test contingency plans
to ensure continuity of operations in the event of disruptions to systems from Year 2000
problems.

Recommendation is pending final action by
                                                                                APPENDIX
                                                                                PAGE 7 OF 7


Audit of Post Transaction Review Activities Under the
Commodity Import Program
Audit Report No. A-000-98-007-P

Recommendation No. 1:                recommend that the Assistant Administrator, Bureau 36
Management, develop a cost-effective approach to perform post transaction reviews through a
systematic selection of transactions to be reviewed.

Recommendation is pending a management decision by

Recommendation No. 2:         In order to ensure that no one individual controls or appears to
control all key aspects of a single transaction, we recommend that the Assistant Administrator,
Bureau for                increase management supervision regarding the separation of duties.

Recommendation is pending a management decision by

Recommendation No. 3:         We recommend that the Assistant Administrator, Bureau for
Management establish documentation requirements that provide sufficient information about
transactions including such things as the overpayment discovery date, a detailed computation of
the overpayment, supplier contact date and disposition, check copies, and supporting financial
documentation for funds owed to

Recommendation is pending a management decision by

Recommendation No. 4:        We recommend that the Assistant Administrator, Bureau for
Management:

4.1     strengthen internal controls by specifying procedures and responsibilities for recording
identified overpayments and the receipt of voluntary refunds.

 4.2 make a final management decision on all outstanding overpayments identified, including
the $2.3 million noted in this report.

4.3    establish procedures to account for negotiated voluntary refunds.

Recommendation is pending a management decision by
This page left intentionally blank.
                                                                            APPENDIX VI

                                                                             PAGE 1 OF 4





                       LISTING OF PERFORMANCE
                     MEASUREMENT-RELATED AUDIT
                       REPORTS AND DOCUMENTS




Audit Reports by the           Office of Inspector General

Audit Report on             Systems for Measuring Program Results (Audit Report No. l-000­
95-006, June 30, 1995)

Second Survey Report on            Implementation of the Government Performance and
Results Act of 1993 (Audit Report No. 9-000-97-002-S, March 31, 1997)

Audit of         Status in Implementing the Government Performance and Results Act of
1993 (Audit Report                    September 30, 1997)

Reports on         Financial Statements. Internal Controls. and Compliance for Fiscal Years
1997 and 1996 (Audit Report No. 0-000-98-001-F. March 2, 1998)

Agency-wide Audit of Civil Society, Natural Resources Management, and Biodiversity
Activities by      Missions in Support of the           Actions to Implement the
Government Performance               Act (Audit Report No. 9-000-98-001-P, March 26,
1998)

Audit of the Status of           Implementation of the Government Performance and Results
Act of 1993 (Audit Report                      September 30, 1998)

OIG audit reports pertaining to the quality of results reported in     operating units’
Results Review and Resource Request (R4) reports prepared in 1997

Audit of the Quality of Results Reported for the Republic of Georgia in
Results Review and Resource Request         Report Prepared in 1997 (Audit Report No.
114-98-005-P, August 26, 1998)
                                                                            APPENDIX if
H
                                                                             PAGE 2 OF 4


Audit of the Quality of Results Reported in                Center for Southern Africa
           Results Review and Resource Request     Report Prepared in 1997 (Audit Report
No. 4-690-98-004-P, August 28, 1998)

Audit of the Quality of Results Reported in the Bureau for Humanitarian Response’s Office
of Food for Peace Results Review and Resource Request        Report Prepared in 1997 (Audit
Report No. 9-000-98-003-P, September 3, 1998)

Audit of the Quality of Results Reported in                Results Review and Resource
Request       Report Prepared in 1997 (Audit Report       B-386-98-006-P, September 3,
1998)

Audit of the Quality of Results Reported in           Salvador’s Results Review and
Resource Request        Report Prepared in 1997 (Audit Report No. 1-519-98-003-P,
September 10, 1998)

Audit of the Quality of Results Data Presented in                 Results Review and
Resource Request        Report Prepared in 1997 (Audit Report No. 7-675-98-003-P,
September 24, 1998)

Audit of the Quality of Results Data Presented in                 Results Review and
Resource Request        Report Prepared in 1997 (Audit Report No. 7-620-98-004-P,
September 24, 1998)

Audit of the Quality of Results Reported in the Global Bureau’s Center for Human Capacity
Development Results Review and Resource Request          Report Prepared in 1997 (Audit
Report No. 9-000-99-001-P, October 5, 1998)

Audit of the Quality of Results Reported in the Bureau for Humanitarian Response’s Office
of American Schools and Hospitals Abroad Results Review and Resource Request
Report Prepared in 1997 (Audit Report No. 9-000-99-002-P, October 7, 1998)

Audit of the Quality of Results Reported in                      Results Review and
Resource Request       Report Prepared in 1997 (Audit Report No. 6-388-99-001-P, October
8, 1998)

Audit of the Quality of Results Reported in                  Results Review and Resource
Request       Report Prepared in 1997 (Audit Report No.                   October 13, 1998)

Audit of the Quality of Results Reported in                 Results Review and Resource
Request       Report Prepared in 1997 (Audit Report So. 1-518-99-002-P, October 13, 1998)
                                                                           APPENDIX VI
                                                                            PAGE 3 OF 4

Audit of the Quality of Results Reported in                   Results Review and
Resource Request       Report Prepared in 1997 (Audit Report No. 4-687-99-001-P, October
26, 1998)


Audit of the Quality of Results Data Presented in 
              Results Review and
Resource Request        Report Prepared in 1997 (Audit Report No. 7-685-99-001-P, October
28, 1998)


Audit of the Quality of Results Reported in 
               Results Review and Resource
Request      Report Prepared in 1997 (Audit Report No. 1-514-99-003-P, October 30, 1998)

Audit of the Qualitv of Results Reported in                   Results Review and
Resource Request       Report Prepared in 1997 (Audit Report No. 4-613-99-002-P,
November 10, 1998)

Audit of the Quality of Results Reported in USAID/Haiti’s Results Review and Resource
Request      Report Prepared in 1997 (Audit Report No. 1-521-99-004-P, November 30,

1998)

Audit of the Quality of Results Reported 
 the Africa Bureau’s Office of Sustainable

Development in its Results Review and Resource Request Report Prepared in 1997 (Audit

Report No. 9-000-99-003-P, December 17, 1998)


Audit of the Quality of Results Reported in       Operating Units’ Results Review and
Resource Request       Reports Prepared in 1997 (Audit Report No. 9-000-99-006-P,
scheduled to be issued in March 1999)
                                                                         APPENDIX VI
                                                                          PAGE 4 OF 4


Audit Reports by the General Accounting Office

The Results Act: Observations on         Fiscal Year 1999 Annual Performance Plan
                       June 25, 1998)

Managing for Results: Agencies’ Annual Performance Plans Can Help Address Strategic
Planning: Challenges                  January 1998)
